<html>
<title> - NEEDS OF THE FIRE SERVICE</title>
<body><pre>[Senate Hearing 107-1066]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 107-1066

                       NEEDS OF THE FIRE SERVICE

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
90-624                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel

                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on October 11, 2001.................................     1
Statement of Senator Allen.......................................    17
Statement of Senator Cleland.....................................    12
    Prepared statement...........................................    12
Statement of Senator Kerry.......................................     3
Statement of Senator Wyden.......................................     1

                               Witnesses

Buckman III, Chief John M., President, International Association 
  of Fire Chiefs.................................................    36
    Prepared statement...........................................    39
Burris, Jr., Kenneth O., Chief Operating Officer and Acting 
  Administrator, U.S. Fire Administration........................    21
    Prepared statement...........................................    23
Dodd, Hon. Christopher, U.S. Senator from Connecticut............     5
Ingram, Robert, Battalion Chief, City of New York Fire Department    48
    Prepared statement...........................................    50
Pascrell, Jr., Hon. William, U.S. Representative from New Jersey.    14
    Prepared statement...........................................    16
Plaugher, Edward P., Chief, Arlington County Fire Department.....    52
    Prepared statement...........................................    54
Schaitberger, Harold A., General President, International 
  Association of Fire Fighters...................................    30
    Prepared statement...........................................    32
Turner III, James E., Executive Secretary, Delaware Volunteer 
  Fireman's Association, on behalf of the National Volunteer Fire 
  Council........................................................    55
    Prepared statement...........................................    57
Weldon, Hon. Curt, U.S. Representative from Pennsylvania.........     8

                                Appendix

Article from The Washington Post, placed for the record..........    77
Rockefeller, Hon. John D., U.S. Senator from West Virginia, 
  prepared statement.............................................    77

 
                       NEEDS OF THE FIRE SERVICE

                              ----------                              


                       THURSDAY, OCTOBER 11, 2001

                                       U.S. Senate,
            Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The Subcommittee will come to order.
    The Subcommittee on Science, Technology, and Space is 
acutely aware that information technology and scientific 
information are critical to combating terrorism. The 
Subcommittee has already begun efforts to improve scientific 
research in fighting terrorism, targeting key fields such as 
aviation technology that has been suggested by Senator Allen of 
Virginia.
    The Subcommittee is going to hold hearings shortly to 
consider the creation of what I call NET Guard, the National 
Emergency Technology Guard, the technology equivalent of the 
National Guard that I proposed after the September 11th attacks 
to enable volunteer specialists from the Nation's leading 
technology companies to quickly recreate and repair compromised 
community communications and technology infrastructures.
    In each of these areas, this Subcommittee intends to work 
closely with the Bush Administration and in a thoroughly 
bipartisan way. However, I am of the view that, no matter how 
good your technology and your science are, it always comes down 
to people. That is why today's research is so important.
    Our country has more than a million firefighters, and the 
Federal Government must be a better partner in working to 
ensure that these dedicated, courageous Americans have the 
tools that they need to do their jobs.
    Today the Science, Technology, and Space Subcommittee has 
the jurisdiction over the United States Fire Administration and 
is going to hear firsthand from firefighters about what is 
needed to afford them the human and the technological resources 
to confront future events effectively and as <plus-minus>safely 
as possible.
    On September 11th the firefighters of New York and 
Arlington, Virginia, were the first responders to a disaster of 
extraordinary proportions. They more than met the task that 
faced them, despite immediate infrastructure challenges. In New 
York, the collapse of the World Trade Centers destroyed $47 
million in equipment in just seconds, from pumper trucks to 
satellite units. At the Pentagon, I understand that responders 
faced daunting communications problems across varying radio 
frequencies. Again in New York, firefighters were stricken with 
mass casualties among their own, a huge loss of personnel.
    Now, as we hear that further acts of terrorism are 
possible, we also hear the call from our first responders for 
support and help. We will hear today that two-thirds of all 
fire departments nationwide operate with inadequate staffing, 
that 75 percent of our Nation's firefighters are volunteers, 
and that most fire departments cannot afford the technologies 
that could make their work safer and more effective.
    As we hear today's testimony, we will listen for 
opportunities to act, to guarantee that as Americans ask these 
public servants to put themselves in harm's way for our 
protection that our government is doing all that is necessary 
to ensure their success and safety.
    There are three opportunities that I would like to note 
briefly. First, while the Federal Government has aided local 
police departments, spending more than $11 billion annually, 
Congress offers just $100 million in direct aid to local fire 
departments through the Firefighter Investment and Response 
Enhancement Act, or FIRE, statute. To illustrate very clearly 
the limits of that Federal grant money, I would like to share 
some startling numbers.
    With $100 million available, last year fire companies 
across this Nation applied for $3 billion in assistance. The 
testimony that I have read makes it clear that additional 
resources are needed, and they are needed now. This is not the 
time to wait for a tortuous legislative process to begin 
equipping fire companies. The Congress has already appropriated 
$40 billion in emergency supplemental funding to respond to the 
events of September 11th.
    Today, therefore, I am sending a letter to the Office of 
Management and Budget requesting that $600 million of that 
money be allocated immediately for additional fire grants. I 
want to see this funding help local departments on two fronts: 
making sure that they have the equipment and the training they 
need. They ought to be able to get those funds now.
    Second, the Subcommittee wants to make sure that the 
Federal resources that are available are appropriately and 
widely used. To that end, we are looking at the coordination 
among training programs. Currently weapons of mass destruction 
response training is offered by the Department of Justice and 
by the Federal Emergency Management Agency. The General 
Accounting Office has repeatedly criticized the lack of 
coordination and communication between these programs. It is my 
understanding that, despite improvements, these programs can 
still be confusing and duplicative.
    My bottom line is we either consolidate these programs or 
clearly differentiate them so that doubled-up efforts do not 
waste the time of our first responders or the resources of the 
government. We are going to hear pleas today for a single point 
of government contact in training for first responders instead 
of multiple contacts at the Department of Justice and at the 
Federal Emergency Management Agency. It is my hope that 
Governor Ridge's Office of Homeland Security will take a look 
at this idea and eliminate some of the current confusion and 
duplication and commit the Subcommittee's efforts to help that 
outcome.
    Third, I intend today to ask about how information 
technology specialists, through the National Emergency 
Technology Guard that I have suggested for similar approaches, 
could back up our firefighters as they respond to emergencies. 
There must be ways that our Nation's best and brightest 
technology professionals, who would like to do so on a 
volunteer basis, could assist with the communications and 
monitoring systems to help keep firefighters on top of a 
developing situation, be in a better position to hear from each 
other and from other experts as they independently assess the 
situations, such as compromised buildings and threats that are 
posed at disaster sites.
    Finally, today we want to hear from those who were on the 
scene on September 11th and who represent the firefighters 
across the country. The best way to honor the brave 
firefighters who fell doing their job in New York is to support 
their colleagues still in service.
    We have a distinguished panel today. We are going to 
introduce them briefly, but Senator Kerry of Massachusetts has 
long been a leader on these issues. He has got a very tight 
schedule and, I want to recognize Senator Kerry at this time.

                 STATEMENT OF HON. JOHN KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thank you very much. Thank you 
for your excellent statement. I simply adopt by reference many 
of the proposals and the common sense approach that you have 
outlined in your opening. Those are precisely some of the 
avenues that we ought to be pursuing, and I thank you for your 
leadership in having this hearing and proceeding forward as the 
leader of the Science, Technology, and Space Subcommittee.
    I apologize to a number of the witnesses, but we have the 
aviation security bill on the floor, and I am one of the co-
authors of that legislation. We have also got the Amtrak 
amendment, of which I am a co-sponsor. So we are dealing with 
security on a lot of fronts here, and I beg your indulgence.
    It is really coincidental, but it is a fact that we are 
here today on the one-month anniversary of the attacks in New 
York. I want to thank our colleagues from the House for coming 
over and testifying. Their schedules are busy as ours and their 
leadership is important to this.
    I particularly want to thank the representatives of our 
fire forces across the country and especially, of course, those 
from New York who are here with us today to share their wisdom 
about how we need to proceed.
    We in Massachusetts just a little over a year ago felt the 
extraordinary pain of the loss of six firemen in one blaze in a 
warehouse in Worcester, and we watched the incredible 
outpouring of support, but just the entire city's fabric just 
torn apart for a period of time in ways that were both 
remarkable and comforting in the sense of how people responded.
    That was six. The concept of 343 or so missing and lost is 
incomprehensible in terms of the loss to a department, the loss 
to a community. Both New Jersey and New York are feeling that 
pain in very significant ways.
    We fought hard in the Congress for a long period of time to 
try to respond to that with the FIRE Act, and now we need the 
respond in other thoughtful, sensible ways. I would just like 
to share, the way this has impacted people. I will share this 
with my colleagues very quickly. These are three letters of 
many that came from the Conway Grammar School in Conway, 
Massachusetts.
    This one says--these were sent to me, but also they were 
sent to New York: ``Dear Rescue Workers: Thank you for going to 
New York and rescuing those hurt and heartbroken people. Some 
day I want to be just like you. If a building was about to 
collapse, you would go in and save as many people as you could. 
Sincerely, Matt Brown.'' ``Dear Rescue Worker: Thank you for 
risking your life for all of those thousands that were in the 
building. You were very brave to do that, and I will be sure to 
donate lots of water and anything else you need. I feel really 
bad about the terrorism. Sincerely, Emily Sanderson.'' ``Dear 
Firefighter: Thank you for saving people. I wish I could be 
helping you. I think your job is important. Some day I want to 
be a firefighter. Your friend, Tyler Bates.''
    All over the country people have been touched by the danger 
that people face, that sort of comes home to a greater degree 
than ever before. What we know, what Senator Wyden knows and I 
know, Senator Dodd and others, is that there is much we can do 
and have to do to be better prepared to deal with terrorism. On 
the front lines of terror in any local community in our country 
there are going to be firemen and police officers and emergency 
rescue personnel.
    Just today in the Boston Herald, headline: ``Hub Fire Chief 
Warns Department Not Prepared for Terror Attack.'' An article 
goes on about the things that need to be done now to prepare 
for the capacity to respond to terror. Because of the nature of 
the weapons and because of the coordination issues and a whole 
lot of other issues, this is larger than what we have faced 
previously.
    So this hearing is very timely, very important. Your 
testimony is going to be very important, and I am confident 
that we can fashion a response here that is worthy of the 
effort and that keeps the Congress together in a bipartisan 
way.
    I will say as one note of caution--Senator Dodd is here, 
who is the original sponsor--we fought awfully long and hard to 
get the FIRE Act through and it was not easy. We finally did. 
But the level of demand now for those funds versus the amount 
of money available which Senator Wyden has referred to, $100 
million versus $3 billion, not to mention what will now come 
forward as a consequence of these attacks, only underscores to 
us the imperative of helping our local departments to be 
prepared for the future.
    That is the only way that we can do our jobs properly and 
permit you to do your jobs properly, to protect the American 
people, and they obviously demand nothing less.
    So, Mr. Chairman, thank you for doing this. Again, my 
apologies for other business, but count me in on trying to 
adopt as much of this as fast as possible as we can. Thank you.
    Senator Wyden. Senator Kerry, thank you for an excellent 
statement. You have a long history of advocating for the 
firefighters and the FIRE statute and in other areas. This 
Subcommittee is going to be a bully pulpit to try to assist the 
firefighters and particularly the senior leaders of the Senate, 
you and Senator Dodd in those efforts.
    We know you have got to go to the floor. We just appreciate 
your coming.
    We have got three very distinguished colleagues with a long 
history of involvement in this issue. Senator Dodd, you have 
been doing yeoman's work on behalf of the firefighters for a 
lot of years. I thought your floor amendment was so good, I 
really tried to jump-start the work by saying that I hope that 
the OMB will release some of the money, $600 million, even 
before your legislation passes, and I wrote them to that 
effect. So your work is being paid attention to in a lot of 
corridors.
    We will make your prepared remarks a part of the hearing 
record and just welcome anything that you'd like to say today, 
Senator Dodd.

              STATEMENT OF HON. CHRISTOPHER DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. Thank you very much, Mr. Chairman. Let me at 
the very outset thank you for your support and the letters to 
Mr. Daniels at the Office of Management and Budget to get them 
to move expeditiously on including some of these dollars as 
part of the emergency assistance programs.
    I feel like we may start a firm here, Curt Weldon and Bill 
Pascrell and myself. We have been working together now along 
with, obviously, many others both here in the Senate and the 
House as members of Congress with our various firefighter 
groups around the country over the last number of years.
    The FIRE Act, which you and Senator Kerry both graciously 
referred to, was an effort that involved a lot of people, and 
certainly Bill Pascrell, who is the former Mayor of Paterson, 
New Jersey, knows firsthand how difficult it is at the local 
level of government to get the kind of support and assistance 
you need for these kind of security measures. Certainly, 
policing we have supported over the years in a bipartisan 
fashion. As Bill Pascrell will tell you, the other side of that 
equation needs to be addressed, and we are going to try and do 
that with the expansion of the FIRE Act and other things we 
want to talk to you about today.
    Congressman Weldon, of course, served as a firefighter, so 
this is not just a subject matter to which he brings an 
intellectual passion, but prior to his service in Congress 
knows firsthand what it is to be involved in the dangerous work 
of refighting.
    There are a million people every day, Mr. Chairman, who put 
on that uniform one way or the other to go out and try and 
protect our citizenry from the kind of, I hesitate to use the 
word, normal sort of problems we think about. Every 3 days we 
lose one in this country, a firefighter. Fairly high 
statistics. Of course, they are dwarfed by what happened on 
September 11th.
    I recall just a few months ago as we were arguing for the 
adoption of the FIRE Act we talked about Worcester and the six 
firefighters who lost their lives in that horrendous blaze. Who 
would have thought then that we would be talking about a 
situation where 344 people lost their lives in New York City in 
a matter of hours or less.
    So the need to do something in terms of equipment I think 
is obvious. I think the FIRE Act; what we have done already is 
an amendment to the DOD bill. You will hear from Congressman 
Weldon with some other ideas that they may expand on all of 
that, going in the right direction, to see to it that our 
departments, the paid, volunteer, the combination departments, 
are going to have the equipment they need.
    The second is manpower. I think with the SAFER Act, which 
is again a bill that we believe is going the help a lot, 75,000 
firefighters over the next 7 years. We have a diminishing 
number of fire departments. Again, the numbers are pretty 
overwhelming. I think Bill Pascrell will tell you that 
something in the neighborhood of 60 or 65 percent of our 
departments are undermanned around the country, and that those 
numbers are getting harder each year. So we are going to need 
to beef up these departments and provide them with the 
manpower.
    The third leg, if you will--first machinery; manpower--is 
information. John Larson, our fellow colleague from 
Connecticut, I know has introduced some legislation to deal 
with the information issues.
    So Mr. Chairman, this Committee has been so terrific on 
these issues over the years and we are very, very grateful, I 
certainly am, to you, to certainly Senator Hollings of South 
Carolina, to John McCain, who last week when we had a chance to 
put that FIRE Act on the DOD bill, John McCain said go ahead 
and do it. Obviously, the jurisdiction falls within this 
Committee, but we had an opportunity in that bill to do 
something. That kind of leadership from Senator Hollings and 
from Senator McCain is something that I know all of us 
appreciated very, very much.
    So we are going to be looking to you in a sense now with 
these other ideas to see if we cannot move forward. I think 
people have a deep sense of appreciation. It does not need to 
hear from a Senator and public servants like ourselves. Today 
we take a moment to remember what happened a month ago in our 
country, a date that will forever live as a date of darkness 
here for what our country suffered from.
    As we talk about what can be done, we talk about the people 
who lost their lives, the families who will suffer forever 
because of the human loss, I cannot think of any better way 
than to start talking about what we can do to minimize the kind 
of hardship that our Nation has suffered as a result of these 
savage attacks.
    One of the pieces is this. It is not all of it. It is not 
going to solve every problem. But I think most people recognize 
today that that other side of the equation of domestic security 
will depend upon people at the local level having the tools, 
the manpower, and the information necessary to do their jobs.
    I notice the presence of our good friend from Georgia, Max 
Cleland, who again has been a tremendous--was an early, early 
sponsor, co-sponsor of the FIRE Act, has been a great champion 
of these issues; very grateful to him for the tremendous 
support he offered you, Mr. Chairman, myself and others when 
those bills were on the floor, again on the Armed Services 
Committee and so played a very important role when the DOD bill 
was being considered and we wanted the Department of Defense 
authorization bill to include the FIRE Act. It was Max Cleland 
who also stood up and said this is a worthwhile thing to do.
    In a sense, it does fall under--we do not send soldiers 
into battle ill-equipped and we cannot send firefighters into a 
blazing building ill-equipped. So we are trying to close those 
gaps with these various measures.
    With that, Mr. Chairman, I would ask unanimous consent that 
these prepared remarks be included in the record and to say to 
Curt Weldon, to Bill Pascrell, how deeply grateful I am and I 
know America is for the remarkable leadership they provided in 
the House side, and I look forward to working with them again 
and we hope in a little more expeditious fashion than other 
battles we have had to go through. But we think the message is 
clear.
    Senator Wyden. Without objection, Senator Dodd, we are 
going to put your prepared remarks into the record. The fact 
that you have brought the Dodd passion to this cause all these 
years is just tremendously helpful, because there is no 
question that those three pieces of the puzzle--machinery, 
manpower, and information--are what this is all about.
    You have taken the lead in terms of making sure we are 
going to adequately fund machinery and manpower. We are going 
to make a special effort on this Subcommittee to focus on 
information issues. Before you came I talked about an idea that 
I have talked about with some of the country's leading 
technology firms, a sort of information technology equivalent 
of the National Guard, people who could rush in with brains and 
talent and equipment and back up firefighters and other 
emergency personnel when the wireless systems are down and the 
hard-wired communications systems are down.
    So we are going to work very closely with you to both get 
the funds and the necessary creativity to make sure that when 
we face these kinds of tragedies in this country that we are 
deploying all of the possible resources.
    We thank you for an excellent presentation.
    Senator Dodd. Your co-chair Senator Allen as well, who I 
know over the years has been a good supporter of these efforts 
as well, I thank him for his support last week, 2 weeks ago I 
guess it was now, on the DOD bill as well.
    Senator Wyden. Let us do this. We have been joined by 
Senator Allen and Senator Cleland. Congressman Weldon and 
Congressman Pascrell have been waiting a long time. Senator 
Allen, if you and Senator Cleland are agreeable, we will hear 
from Congressman Weldon and Congressman Pascrell and then we 
will hear your opening remarks.
    Congressman Weldon, your name is synonymous with the cause 
of supporting firefighter. The Firefighters Caucus, which there 
are 435 members in the House, and I guess you probably have 460 
members over there who belong to the Firefighters Caucus at 
this point.
    Mr. Weldon. Plus the Senate.
    Senator Wyden. Right, and I think it is because of your 
leadership that all of us have been so willing to get involved.
    Please proceed as you choose.

            STATEMENT OF HON. CURT WELDON, MEMBER, 
             U.S. REPRESENTATIVE FROM PENNSYLVANIA

    Mr. Weldon. Thank you, Mr. Chairman. As a former colleague 
of yours in the House, you were out there long before you came 
to this body on these issues, and we appreciate that personal 
commitment that you have made.
    To our friends on the Committee from both sides of the 
aisle and to my good friend here, who has been a champion, and 
my good friend over here and Congressman Hoyer who could not be 
with us, we are all in this together.
    As you mentioned and Senator Dodd mentioned, I would not be 
in politics were it not for the fire service. I grew up in a 
fire service family, so this is not an issue to me; these are 
my brothers and my sisters, and I come to speak on their behalf 
today.
    Joining us in this very important hearing, Mr. Chairman, I 
have the New York State Fire Administrator, Jim Burns, if you 
would not mind him being acknowledged.
    Senator Wyden. I would like very much for him to rise, 
please.
    Mr. Weldon. Jim, do you want to stand.
    We also have Deputy Chief Bob Ingram from the New York City 
Fire Department. Mr. Chairman, if you want to hear from 
somebody who was on the scene, Chief Ingram is the Deputy Chief 
of the department and was there.
    Senator Wyden. Chief, if you would rise so we could 
recognize you, too. Thank you, Chief.
    Mr. Weldon. Tom Woods, Chief of Training for the New York 
State Office of Fire Prevention and Control; Brian Rousseau 
from Technical Rescue; and two attorneys from New York, Brian 
Cullen and Josh Toas. We had them in a briefing earlier today 
on the House side to learn lessons from the New York incident 
and I will relate a portion of those to you today. You will 
hear more about them from your witnesses.
    Mr. Chairman, you hit the nail on the head. You made the 
point that our international defenders get about $350 billion a 
year from the Federal taxpayer. As a senior member of the Armed 
Services Committee, I support every dollar that we give them. 
But their lives are no more important than the firefighters. 
Our law enforcement officers get $11 billion a year from the 
Federal Government, and I support that as a former mayor. But 
their lives are no more important than the firefighters.
    We lose 100 firefighters every year. The bulk of the ones 
that die are volunteers. They have full-time jobs. They do 
this, not as their primary occupation; they do it as a 
commitment to service to their country. There are 32,000 
departments in America and, as you said, 75 to 85 percent of 
them are volunteers. These are heroes, and we have not done 
well by them.
    Eleven billion dollars for law enforcement, $350 billion 
for the military, and up until last year the total amount 
allocated for the fire service was less than $50 million a 
year, $50 million. Yet we have asked them to do more. We asked 
them to do weapons of mass destruction, terrorism training. 
Imagine asking our local police department to hold a chicken 
dinner to buy the police car. Imagine asking our highway 
department to hold a tag day to buy a new trash truck. It would 
never happen.
    How then can we ask firefighters to go out and raise the 
money to buy the equipment, take time off from being trained, 
and to do all the other things necessary to protect our 
communities? It is out of control, Mr. Chairman, and it took 
September 11th to wake up the country.
    This committee and you in particular and your colleagues 
did not need to be awakened, but America needed to be awakened. 
We now have the attention of the American people. It is up to 
us to respond.
    We made a good start last year. The grant program which 
Senator Dodd and Congressman Pascrell were instrumental on, I 
helped get the appropriation from a very reluctant Congress to 
appropriate the $100 million and force the issue in the final 
budget reconciliation. I can happily tell you today that as a 
senior member of the House-Senate conference on armed services, 
where I will chair the procurement panel, I will successfully 
offer an amendment with Senate help to increase the Senator's 
program to a billion dollars a year for 3 years. That will be 
passed in the defense authorization conference this year. I 
have gotten the commitment from the other full committee chairs 
that have jurisdiction, Don Young and Sherry Boehlert, that 
they will waive jurisdiction to allow us to increase that 
program to a billion dollars a year over the next 3 years.
    Resources are critically important, but they are not 
enough. Mr. Chairman, we know that DOJ and the military did 
some training for 125 larger cities in terms of responding to 
terrorist incidents. But what good is training and what good is 
giving them initial resources if there is no follow-on money to 
make sure those detection units and those turnout suits are 
certified every year?
    Most of our big city departments are short dollars. They 
have cut back on the amount of personnel. They have cut back on 
equipment. In the D.C. Fire Department, because of the 
commitment to the Pentagon we only had six trucks operational 
for the entire city. How can we expect the D.C. Fire Department 
to be able to handle a terrorist incident when they do not have 
the funding to take care of the basic needs of the city without 
a terrorist incident occurring.
    We have sold ourselves short and the fire service short. We 
have given lip service in the past of giving them training and 
equipment and then not giving them the follow-up money to make 
sure that equipment was properly maintained and properly 
supported.
    On the training, there is a tremendous problem with the 
backfill. When the departments have to put people on to replace 
those who are going for training, there is no dollar allocation 
for that. It has created a tremendous hardship on local 
departments around the country.
    But it does not just come down to resources, Mr. Chairman. 
It comes down to technology. I chaired the Research Committee 
for Defense for 6 years. I sat through hearing after hearing 
where we developed new GPS technology so that every soldier on 
the battlefield can be located by their command officer 
instantaneously. Why do we not have the same technology for our 
civilian fire service? Why when a firefighter goes into a 
building or a warehouse, as has happened up in Senator Kerry's 
district, does not the commanding officer know where he is or 
she is based on GPS technology?
    It is available. The Pentagon has not been willing to move 
quick enough to transfer it. We now have both horizontal and 
vertical capability to locate firefighters in high rise 
buildings. It should be mandated that that technology be made 
available for our fire and EMS community. If that had been in 
place we would not have lost firefighters as we have over the 
past several years.
    But it goes beyond that, Mr. Chairman. We have a research 
program right now in the Pentagon to put a garment on a soldier 
that monitors not just where they are, but the vital signs of 
that soldier 24 hours a day--their pulse, their heart rate, the 
way they are operating. Why should not that technology be 
available to every firefighter, so when they are in a hostile 
environment not only do we know where they are, but we know how 
well they are doing. If they have a problem, if they are having 
a heart attack or some other problem breathing, instantaneously 
that is transmitted out.
    When we had the briefing this morning I asked the New York 
deputy chief, I said: Would it have helped us to locate some of 
those bodies if we had had GPS equipment on those dead 
firefighters? The answer was yes.
    We need to apply technology that is available to the 
military, because the threat to our domestic preparedness is 
just as strong as the threat to our international defenders. A 
loss of life of a firefighter is equal to the loss of life of a 
police officer or military personnel. But we have not made that 
statement in the past in this country up until the last several 
years, and largely because of the efforts of this particular 
Subcommittee and the members of it.
    It goes beyond that as well, Mr. Chairman, to include 
communications. I had Chief Morris from Oklahoma City before my 
committee 1 year after the date of that terrible tragedy at the 
Murrah Building. I said: Chief, are you any better off today 
than you were a year ago? He said: No, Congressman.
    I said: What is your biggest problem? He said: 
Communication. He said: When I arrived on the scene of the 
Murrah Building and saw the building all torn apart, I knew I 
had casualties and loss of life. He said: I had to issue 
commands. He said: My radio system did not have the proper 
frequency spectrum to communicate with the rest of the 
agencies, so I couldn't talk to them. I could not integrate 
what I was doing with what they needed to do. He said: The cell 
became overtaxed immediately.
    So in the end, the fire chief of one of our largest and 
most well-trained cities in America had to resort to writing 
his orders on pieces of paper and having firefighters deliver 
them to issue his commands. Mr. Chairman, that is not the way 
our military would operate. That is not the way our police 
operate. How in the world can we expect our firefighters to 
operate that way?
    There is a big battle today to take the frequency spectrum 
allocation and sell off frequency spectrum to make money for 
the budget. Well, to me that is garbage. Senator McCain has led 
this fight in the Senate, with you all joining with him, to 
carve out a section of that frequency spectrum for the fire 
service, following the recommendations of the PSWC committee, 
the Public Safety Wireless group that is working on this issue.
    We have to set aside frequency allocation for public safety 
that cannot be consumed by those private entrepreneurs who want 
to make money off it. Public safety has got to be our key 
priority.
    That also will be important when we implement the kind of 
information technology systems that you have championed in the 
Senate, Mr. Chairman, because if we are going to have that kind 
of information technology linkage we have got to have the 
frequency spectrum allocation to make those connections, to 
link up with those fire and EMS personnel that are on the scene 
back with our command officers, to link into those other 
national networks like the National Guard network that you 
mentioned.
    So communications is a critical part of this equation. We 
do not now today have an integrated communications system in 
the country. It is a hodge-podge: high frequency, low-band 
frequency, most of it not able to communicate one with the 
other.
    My good friend here the former Governor of Virginia, I had 
some of his--and he has outstanding firefighters in his State, 
as he well knows--in here for a press conference 2 years ago. 
Neighboring Virginia fire departments cannot even communicate 
with the D.C. fire department because they do not have the 
interoperability between the States and between the local 
departments. That is outrageous.
    It is time that we in America put our money where our 
mouths are and put our efforts behind this group of brave 
American heroes. You know, they are an unusual breed of people. 
They do not come up begging. They are kind of the unsung heroes 
of America, older than America itself. The first fire 
department is 250 years old in Philadelphia--Ben Franklin. It 
is about time we give them the recognition they deserve. It is 
about time we give them the support they need.
    One of the other lessons learned in New York, Mr. Chairman, 
which you may want to get into, was the fact that we have urban 
search and rescue teams across the country. FEMA operates 26 of 
them and they are outstanding, in 26 separate States. None of 
them could respond to New York within 48 hours of the disaster.
    The New York team was killed. My good friend Ray Downing, 
who took me through the 1993 World Trade Center bombing and was 
a good friend of mine and member of the Gilmore Commission, 
chaired by that great Governor of Virginia who is doing a 
fantastic job in integrating fire with military, Ray Downing 
was a member of that commission. He was killed, because the 
entire Rescue One and three other rescue units were wiped out 
when the buildings collapsed.
    If New York State did not have their own State urban search 
and rescue operation, we would not have had an urban search and 
rescue team on the World Trade Center for 48 hours. Mr. 
Chairman, that is unacceptable. We need to do more to give 
leverage and resources to the governors to establish these 
teams in the States so they can respond locally, before our 
national urban search and rescue teams arrive on the scene.
    The other thing you might hear is the fact that our 
building codes are not standard. In New York the World Trade 
Center did not have to comply with New York State building 
laws. That has got to be dealt with, Mr. Chairman. If we are 
going to ask these people to risk their lives, they have to 
feel confident these buildings are properly designed, are 
properly protected, that they understand fully what will happen 
if a fire or disaster breaks out.
    These are some of the recommendations that I make to you, 
Mr. Chairman, on behalf of the people that I most identify 
with, the brave people who I call America's heroes, the heart 
and soul of our country, the backbone of our communities.
    I thank you for your tireless dedication. I look forward to 
working with you and I commit that we on the House side will be 
your partners in a bipartisan way in moving to support these 
men and women nationwide. Thank you.
    Senator Wyden. Well, thank you, Congressman Weldon. That 
was just a superb statement. I am going to have a couple of 
questions in a moment.
    I think Senator Cleland is really under the gun at this 
point. If Congressman Pascrell is willing, could Senator 
Cleland go next for an opening statement?
    Mr. Pascrell. Sure.
    Senator Wyden. Thank you for your graciousness. Senator 
Cleland has done so much work in this area, I just do not want 
to let him pass.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you, Mr. Chairman. I would like, if 
no objection, my opening statement be included in full.
    Senator Wyden. Without objection.
    Senator Cleland. I just want to thank these distinguished 
gentlemen here and the firefighters around the country for a 
tremendous job they do. You know, you never really know what 
you have got until you are threatened to lose it or when you 
really need it most, and that has been the case with our 
firefighters. We have some wonderful firefighters in my State.
    I will be introducing some legislation to improve grants, 
Federal grants to the local communities where they can train 
our firefighters better, particularly in terms of the use of 
hazardous materials and weapons of mass destruction. I will 
particularly be pushing better pay and better resources for our 
CDC and working with our firefighters and our first responders.
    I just want to thank these wonderful people here today and 
our firefighters around the country, and I would like to thank 
you, Mr. Chairman, for holding the hearing.
    [The prepared statement of Senator Cleland follows:]

                Prepared Statement of Hon. Max Cleland, 
                       U.S. Senator from Georgia
    Thank you for calling this hearing Mr. Chairman. I know we are all 
very proud of the job our firefighters have done throughout their 
careers and particularly in the wake of the attacks upon the World 
Trade Center and the Pentagon. Each and every day, firefighters wake up 
knowing that they may have to run into burning buildings or respond to 
chemical or biological attacks. As thousands and thousands of people 
were running for their lives out of the Pentagon and the World Trade 
Center, firefighters were running in the opposite direction--into the 
danger and toward the people who could not save themselves. They are, 
by any definition, heroes.
    We ask for a tremendous amount of responsibility from a small group 
of people. Firefighters are the first responders to almost every 
tragedy imaginable. From car accidents, to plane crashes, from kitchen 
fires to towering infernos, from brush fires to hazardous material 
spills, we depend upon their service and training each and every day.
    Concerned about the preparedness of the federal government and 
state and local emergency responders to cope with a large-scale 
terrorist attack involving the use of weapons of mass destruction, 
Congress mandated that the United States General Accounting Office 
report on the strategies, policies, and programs for combating domestic 
terrorism such as the use of chemical, biological, radiological, or 
nuclear agents or weapons. The GAO report issued on September 20, but 
prepared prior to the terrorist attacks on September 11, illuminates 
the need for government officials to broaden traditional definitions of 
weapons of mass destruction to include terrorist attacks that result in 
mass casualties, destruction of critical infrastructures, economic 
losses, and disruption of daily life nationwide. GAO recommended [hold 
up report] that the President ``. . . assign a single focal point 
within the Executive Office of the President, with the time, 
responsibility, authority, and resources for overall leadership and 
coordination of federal programs to combat terrorism.'' President Bush 
has created such a focal point with the establishment of the new Office 
of Homeland Security which must be able to coordinate local, state, and 
federal agencies so that they are can more effectively and more safely 
respond to all emergencies, including future terrorist attacks which 
are inevitable.
    Mr. Chairman, although the firefighters stand ready to respond to 
the needs of America, including Members of Congress, the Congress has 
been slow to respond to the needs of the firefighters. Each year, 
Congress is responsible for appropriating funding for firefighting 
training and, each year, we have not done enough.
    Local fire departments around the country and in my home state of 
Georgia are grappling with the increased demands required of them since 
the September 11 tragedies. Lawton C. Smith, Jr., who is Fire Chief of 
the Thunderbolt Volunteer Fire Department, is doing a great job in 
protecting the citizens and businesses in Thunderbolt, Georgia, despite 
the lack of adequatefederal funding and support. I commend him for 
serving his community and support his requests for additional funding 
for training and equipment. Chief Mark Turnbill of the Clayton County 
Fire Department has also expressed to me the need for additional 
support by the federal government so that his firefighters can better 
anticipate future targets and develop and update preparedness plans. I 
thank Chief Turnbill for his efforts and pledge my support for the work 
that he and his department are doing on behalf of their community. 
Other fire departments such as Marietta Fire and Emergency Services, 
led by Fire Chief Jackie Gibbs, and the Rockdale County Fire 
Department, led by Fire Chief Tommy Morgan, require specific funding to 
assist in their preparations for terrorist and biochemical attacks.
    One example of a way that we can help our local firefighters and 
police officers is the Emergency Preparedness Grants Program, which 
helps train firefighters and police officers. Currently, this program 
is funded at just $14 million a year and can train only a small 
fraction of the firefighters in the United States. In addition, there 
is currently a congressional restriction on the amount of money that 
can be obligated, and as a consequence there is a $15 million surplus, 
which is not going to train America's firefighters to combat hazmat 
emergencies. In my opinion, this is not acceptable and it is why I will 
soon introduce the ``HERO bill''--the Heroic Emergency Response 
Operations Act. The purpose of the bill is to allow DOT to access the 
$15 million surplus for grants to state and local governments for 
hazmat training (police and firefighters) and establish minimum 
national standards for hazmat security training, while allowing 
individual states to go beyond these minimums.
    In this era of potential chemical and biological attacks, we need 
to do everything we can to ensure our local firefighters receive the 
proper training and the proper equipment to do the difficult job we ask 
them to do. Anything short of this goal and we are neglect in our 
duties.
    Congress should ensure that we do everything we can to help the 
firefighters of this nation because, most assuredly, they do everything 
they can to help us--including giving their lives in the line of duty.
    Thank you Mr. Chairman. I look forward to hearing from the 
witnesses that are appearing before us today.

    Senator Wyden. Without objection, we will make your 
prepared remarks part of the hearing record in their entirety. 
I look forward to supporting the Cleland legislation, and the 
fact that you are on both this committee and Armed Services is 
a huge boost to us, and we thank you for coming.
    Congressman Pascrell, welcome.

           STATEMENT OF HON. WILLIAM PASCRELL, JR., 
              U.S. REPRESENTATIVE FROM NEW JERSEY

    Mr. Pascrell. Thank you, Mr. Chairman. It is really an 
honor to be here with old members, to join with Curt Weldon.
    I want you to know, Mr. Chairman--I said this about an hour 
ago--I have a very clear mind right now. I left my anger at 
Fresh Kills when I took my mask off and got into the helicopter 
and went up over it. It was a sobering moment to me. So I want 
to be a mouthpiece for the firefighters of America, and I am 
sure Curt feels that way, too. We are doing our job. We are not 
doing them any favors. These are our responsibilities very 
clearly.
    We need to have the facts and figures in front of us, Mr. 
Chairman. You heard Congressman Weldon just mention about who 
was able to quickly respond, which rescue teams were able to 
get there. In fact, our chaplain in New York, Chaplain Judd, 
Father Judd, a good friend of mine, was one of the first to go 
down. But you have heard who was able to respond to New York 
City, and their State rescue squad which assembled in Albany 
went to New York.
    But I must salute the members of FEMA, who did such a 
spectacular job in helping. The reason why they were not able 
to get their personnel to New York is because of air 
restrictions. We have made--could you believe this, Mr. 
Chairman--no accommodations for our great FEMA teams to in an 
act of an emergency get to the emerging problem. I found that 
hard to believe, that our military--that we did not provide our 
military and enable them to fly the FEMA personnel to that 
great emergency. That is why, thank God, New York State had its 
own rescue squad there.
    The FCC just licensed--I will get to personnel in a second, 
but I have got to get this off my chest. But I have a clear 
mind. I have followed the Bible; I have left my anger behind.
    The FCC has licensed a cable television company in Long 
Island, which if they get up tomorrow morning will knock 70 
police and fire stations off the air in New Jersey. Now, I 
think this could be replicated throughout the United States, 
because the errors of the FCC have no geographical boundaries. 
We ought to think about that, because we are not providing--we 
are not providing and facilitating their services that both 
police and fire have to provide throughout the United States of 
America.
    These are difficult times. Two-thirds of our fire 
departments are understaffed of career firefighters. Our first 
bill, where we had such a difficult time getting more than 
three sponsors--right, Curt--and we wound up finally with 280. 
So we have started the process of taking serious the other half 
of the public safety equation, our firefighters. It is great 
that we will wave to them in parades and set our grandchildren 
on their engines, but it is not enough, Mr. Chairman, any more. 
It will not be accepted.
    Three hundred fourty-four deaths in New York alone--
chaplains, fire marshals, firefighters and a commissioner--and 
$48 million of destruction of the 92 vehicles destroyed. Three 
hundred Scott masks and 300 spare cylinders, all gone. Hazmat 
wiped out.
    So we have our work cut out for us. But we know that we 
must do this for the entire country. We must prepare ourselves. 
We have no other choice.
    When I learned that your Subcommittee was holding a hearing 
on the needs of firefighters in responding to remember, I knew 
I had to share with you personally the success of the first 
year of the FIRE Act--overwhelming. But I think of all the 
thousands of fire departments that responded and there was no 
money there, no money left. FEMA ran that entire operation for 
the first year with no staff, no budget. We had to ask for 
volunteers to come in and review the very applications.
    I say this so that we learn and we move productively to the 
future. They need a staff to review the applications. It is 
critical. We must not accept what is going on right now.
    The program is authorized. We hope we can get more money 
into that program. But we need to talk about the career 
firefighters of this country and their personnel needs. The 
City of Jersey City in my State, Mr. Chairman, has reduced its 
fire department by 132 personnel in the past 9 or 10 years and 
have built 6 superstructures in that city and are not prepared 
to deal, God forbid, if there is a fire in those 
superstructures.
    Because what do we do? We ask these brave guys and gals to 
go into the buildings and up these stairs to bring the hose to 
put these fires out. And for that we say, let us replicate a 
110-story building. Who in God's name is going to put the fire 
out if it happens in that building? Who is going to do this? 
The gentlemen and ladies in back of me are going to do this.
    But we do not want to send them in harm's way. We want them 
to be protected as best as humanly possible, we feeble human 
beings, we finite beings. We can do better than we have been 
doing and we must do better, and we shall do better.
    We need to respond to all the fire departments. There were 
fire departments that applied for the FIRE Act that had no fire 
apparatus. They have to depend on other towns. We cannot accept 
that any longer. These first responders are not fighting fires 
that existed 20 and 30 and 40 years ago. This is a new day. 
They are into our highways and our byways with chemical spills, 
hazardous spills. We are asking them to go into buildings that 
many times do not even meet code. We even question that they 
even know, when there is a chemical fire, which chemicals are 
going up in smoke, because every chemical fire is fought very, 
very differently.
    February the 19th, 1991, Mr. Chairman, when I was Mayor of 
the City of Paterson, the third largest city in New Jersey, I 
had my baptism and my bar mitzvah, and call it whatever you 
want. I have always responded when I was the Mayor to those 
fires above second alarm. We burned a whole block down and it 
took us two and a half days to find a firefighter, Nicholas 
John Nicocea. We called him ``Nick,'' and we could not find 
him. He was lost in the fire. Burned a whole block down.
    I remember the day that his brothers carried him out and 
how they carried him out. It was clear the sensitivity that 
they had. I never forgot that.
    So I come here with a very clear mind, with no hate in my 
heart or anger, because I know what has to be done and we will 
do it, and we will work together, because the national needs 
are clear and our resolve is strong. I thank you for allowing 
us to be here.
    [The prepared statement of Mr. Pascrell follows:]

           Prepared Statement of Hon. William Pascrell, Jr., 
                  U.S. Representative from New Jersey
    Thank you Chairman Wyden, Ranking Member Allen, and all of the 
members of the Subcommittee, for allowing me to speak with you today.
    When I learned that your Subcommittee was holding a hearing on the 
needs of firefighters in responding to terrorism. I knew I had to share 
with you personally the success of the first year of the Firefighter 
Assistance Grant Program and stress to you the need for full funding in 
the years to come.
    The program is authorized for fiscal years 2001 and 2002 in the 
amounts of $100 million and $300 million respectively. Delightedly, we 
received funding for the first year of the program--$100 million--and 
are seeking $300 million for the second year in the fiscal year 2002 
appropriations cycle. There is even an effort being made to increase 
the funding level this year to $600 million! I support this effort 
wholeheartedly.
    This program provides grants for purchasing new and modernized 
equipment. fire prevention and education programs. wellness programs 
for our firefighters, modifying outdated fire stations, and hopefully, 
this year hiring personnel. These grants go directly to paid 
departments as well as part-paid and volunteer departments and 
emergency medical technicians as well.
    In this first year of the grant program. over 19,000 fire 
departments from around the country applied for a total of $3 billion 
worth of grants! But FEMA only had $100 million in this first year to 
provide support. In the end, the $100 million was given to over 1,850 
fire departments around the country. These included urban, suburban and 
rural departments. These included career, volunteer, and combination 
departments. Nobody was left out.
    This grant program represents a new level of support by the federal 
government for our fire services. In fact, I strongly believe that the 
federal role in the fire fighting service can and should be increased 
as the role of fire fighters is expanding.
    As the recent attacks on the World Trade Center and the Pentagon 
illustrate:
    Firefighters are our first responders to emergencies. And the need 
our support.
    Everyone here knows that 300 firefighters ran into the burning 
World Trade Center to save lives and never returned. Their departments 
deserve our support.
    Natural and man made disasters do not discriminate when and where 
they arise; proudly, the fire fighters of the United States do not 
discriminate when or where they provide help.
    The role of our fire fighters is ever changing, and it is my belief 
that the role that the federal government plays during these changes 
must be commensurate. We are waging a war on terrorism here in America. 
We still don't know exactly what that will mean. But we know this--
wherever the evildoers strike next, fire fighters will be the first on 
hand to save lives and protect victims.
    The role of fire fighters in our war on terrorism must he 
recognized by Congress, and must be supported with our dollars. This 
Congress spends billions and billions on law enforcement in our 
communities. And we all support that critically needed investment. It 
has helped to foster crime reduction year after year. We don't ask 
communities to go it alone for their law enforcement needs, and we 
shouldn't do it for their fire safety needs either.
    Even without the threat of terrorism there is a tremendous need for 
additional funding for fire departments around the country. A fire 
department in this country responds to a fire every 18 seconds. And 
there is a civilian fire death every two hours. A survey I did in my 
district found that 75 percent of departments are understaffed--some 
terribly understaffed by as many as 40 firefighters in the bigger 
cities.
    Our state's second largest city--Jersey City--has seen its fire 
personnel be reduced by 200 in just the last decade. And many 
departments--in cities and suburbs alike simply cannot afford even the 
most basic equipment upgrade because of funding shortfalls.
    With this in mind, I think it has become clear to many of us here 
in Washington that we are sending these brave men and women into 
hazardous situations with the support they deserve from their 
government. It is time that we stop paying lip service to our fire 
fighters at holiday parades without putting our money where our mouth 
is during the rest of the year.
    So I am asking the Subcommittee to recognize the importance of this 
grant program and the need for full funding this year and every year on 
out. I thank the Subcommittee for putting this issue on your agenda and 
taking the time to hear what the Fire Service Organizations have to say 
today about their needs. Thank you.

    Senator Wyden. Bill, thank you for just an extraordinarily 
eloquent statement. The fact that you are out there fighting 
for the firefighters this way with Curt is just extraordinarily 
important. It is what is going to take to get this done.
    I am going to have some questions for the two of you in a 
moment, but I want to recognize first my colleague.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman. Thank you for 
having this hearing.
    I thank these two gentlemen as well as Senator Dodd for 
their comments. But the passion with which Congressman Weldon 
speaks, not just passion, but good advice, also the passion and 
compassion of Congressman Pascrell. The good ideas, and they 
are not just theory; they are not just statistics; they are not 
just organizational charts. We are talking about our fellow 
human beings here who are on the front lines. I thank you both 
for your very compelling testimony and the leadership we are 
going to need from you all as well as our Chairman here in the 
weeks and months to come to make sure that we do a better job.
    This is not just a Federal responsibility. It is also a 
state and local responsibility. But we all need to work 
together. Indeed, I do very much like to welcome and thank our 
many witnesses today, especially Chief Plaugher from Arlington. 
It is good to have you here, Chief Plaugher. He will speak 
later, but the crew there in Arlington are just doing a great 
job, as are all the folks from other jurisdictions in Northern 
Virginia and the police.
    Chief Ingram from New York City, you all are heroes. Many 
of you here continue to be engaged in operations. It is not as 
if things are over at the Pentagon or New York City after these 
tragic events. This Committee, I assure you, appreciates your 
efforts and your leadership and that of the men and women that 
are doing this. Obviously, we appreciate you coming here to 
take time to share your insights with us.
    I do want to recognize, as we have been doing all day--I 
was at the Pentagon earlier--that the President gave an 
outstanding speech, as did others. The families were there; 
many families who lost loved ones, either working in the 
Pentagon or on the hijacked flight. It was a very moving but 
unifying ceremony.
    There is a bipartisan effort on a Day of Remembrance to 
make sure that we will always remember September 11th. It is 
not just to remember those who have lost their lives, but to 
make sure that we have a resolve to learn, to learn from it and 
improve from it.
    Behind us at this morning's ceremony were many law 
enforcement and Customs people, INS, rescue, firefighters, a 
variety of folks who are warriors here on the domestic home 
front now. We have seen from these terrorists that their 
targets are not military facilities. Granted they hit the 
Pentagon. Their main targets are unarmed, unprotected men, 
women, and children.
    I have always felt that our law enforcement and fire and 
rescue people were our domestic warriors. They are our warriors 
here on the home front to keep us safe and secure. We need to 
look at them this way more than ever before. I think that when 
you are serving in these combat zones you ought to be treated 
as far as tax policy the same way as our military forces as far 
as not having to pay taxes on your income. But that is another 
matter.
    The point is that the selfless devotion to duty of people, 
whether in Arlington at the Pentagon or in New York City, is 
just an inspiration. I mentioned Chief Ingram earlier. The 
people who were in there breathing their last breaths of life, 
knowing that building was going to collapse, just to get as 
many people out as they could, it is just absolutely--it is not 
the call of duty; it is beyond what anybody would expect to be 
the call of duty. That devotion, when I heard--it was on CSPAN 
that morning--of a paramedic who volunteered in there and told 
that story, unbelievable courage, and we will always remember 
it.
    We need to understand from all this what the first 
responders are. It is not the Federal Government. It is folks 
on the front lines at the localities and maybe eventually at 
the state. But clearly there are so many lives that were lost 
in the World Trade Center.
    I do think that we have found heroes in this time of 
tragedy. There is a statement that the Nation finds its heroes 
during times of tragedy, and we sure have. We sure have found 
those heroes, and I find this country more unified than ever 
before. Instead of being broken apart, we are forged together.
    We will never forget the brave firefighters, the EMS and 
police units and so forth all involved. We need to make a much 
greater emphasis on ensuring that there is adequate preparation 
for firefighters, police, and EMS units in future terrorist 
attacks.
    I was a volunteer firefighter, when I had a more normal 
life before I was in the legislature, for the Earlysville 
Volunteer Fire Department. When Congressman Weldon was going 
through all the training, Mr. Chairman, I was thinking, ``Gosh, 
I remember the training.'' You go in a smoke room, and you talk 
about being blind. You are blind, holding onto the hose, and 
the whole thing is communications and there is not much 
communication.
    Not that I put out many fires. We mostly had brush fires 
and chimney fires and so forth in Earlysville. But it gave me 
an appreciation of the amount of time and training that's 
involved for someone to be a firefighter so they can protect 
our lives, but also keep their lives in the midst of obviously 
terrible situations, especially if there are buildings on fire.
    I think we must, Mr. Chairman, ensure that all these 
individuals serving, whether they are volunteer or 
professional, have adequate preparation. We must make sure they 
have the best equipment, and make sure they have the training 
in order to respond in future crises, including not just fires 
and not just buildings coming down. We need to be prepared for 
biological and chemical attacks as well.
    Part of the problem, for example, at the Pentagon, with so 
many people coming--and I will get into the coordination aspect 
of this--but it is not just the smoke or fuel. It is asbestos 
that may be in buildings, and of course there could be a 
biological or chemical attack. So all of this is very important 
for them to try to save people's lives, but also make sure that 
they do not lose their lives unnecessarily because of 
inadequate training or inadequate communication or inadequate 
equipment.
    Now, this is an effort that I think, as far as 
coordination, both the General Accounting Office and many fire 
officials have emphasized that there needs to be better 
coordination between Federal, state, and local officials. Many 
Federal programs seem to be duplicative or even contradictory. 
Congress, I think all of us, needs to work with the Federal, 
with the state, with the local officials to clarify what the 
role of responsibility is at ground zero of an attack.
    We need to have clear lines of communication and 
coordination to get the job done safely and as promptly as 
possible. There needs to be a clear point of contact for 
cooperation between the Federal agencies and the state and 
local responders at the crisis.
    I intend to work with former Governor Tom Ridge and his new 
Office of Homeland Security to resolve some of these problems 
of coordination. That would be a natural one. There is a lot of 
coordination that will be needed. That is one where you can 
make some good recommendations.
    Now, communications. Communications is absolutely vital in 
responding to any disaster, but especially a terrorist attack. 
It does not matter if it is a flood or if it is a hurricane or 
if it is a terrorist attack. Communication and information so 
that people can make right decisions, position assets where 
they are most needed, remove people sometimes, and evacuate 
people at the right time. All of these are important and 
communications is the key to it.
    This has all been referenced by Congressman Weldon. I am 
glad to know that you know about this because you will be a 
strong voice to repeat this time after time.
    But the concern about the attacks on the Pentagon, which is 
in Arlington County, Virginia, and then also concerns that the 
State Department was hit and so forth. But it is just so 
disconcerting to read that the Virginia, Maryland, and D.C. 
fire companies could not communicate with each other. It is one 
thing that we could not communicate because some of the cell 
phones were all jammed up from the usage, but clearly they need 
to communicate.
    Now, I may not go as far with you as far as some of the 
wireless spectrums and so forth. There may be government-held 
ones that can be used for it. I think the private sector and 
entrepreneurial folks are very important. But that is besides 
the point, but communications is key.
    We ask our emergency services people to do amazing feats of 
bravery and skill, but really we should not force them to go in 
blind. They need to be able to communicate with each other. 
There are a lot of different assets as well that, say, 
Arlington has, that Alexandria has, that Fairfax County has, 
that say Prince George's County, Maryland, has, that the 
District has, and to some extent if everyone can work together 
you do not need to have the duplication of some of this very 
costly and expensive equipment.
    So I think we do need to also look at ways of working 
regionally and not worrying about, "Gosh, which county or city 
line is this?" or, in some cases, state lines.
    Now, we are going to be hearing, Mr. Chairman, and I really 
look forward to hearing the testimony, discussing the Capital 
Wireless Integrated Network, or Cap-WIN program, which is a 
promising program to prevent these types of communications 
breakdowns in the future. The Cap-WIN project is a partnership 
between the Commonwealth of Virginia, the Free State of 
Maryland, and the District of Columbia.
    Now, after the 1999 incident involving the jumper who was 
on the Woodrow Wilson Bridge, which generally is mostly in 
Maryland, but partially in Virginia, with a little nick of it 
in the District, and owned by the Federal Government, there was 
an understanding there needed to be a better system for law 
enforcement in the D.C. region and that was very obvious with 
that.
    Now, from my days as Governor I became very familiar with 
the common problem faced by law enforcement and emergency 
services personnel regarding information sharing. Congressman 
Weldon, boy, are you correct. This information should not be 
going by paper. We are past the days of the Pony Express and we 
do not need to have these relay approaches.
    This information needs to be easily accessed at a central 
location, with different people having access to it. I think 
Cap-WIN solves this problem, and we will hear more about Cap-
WIN today.
    I think it is also important to ensure that our 
firefighters and other first response units are properly 
equipped and trained in any future attack. I was appalled to 
read that last year only $311 million of the $8.7 billion that 
Congress spent on terrorism defense went to enhancing the 
capabilities of local emergency personnel.
    Let us get our priorities straight, gentlemen, in the 
future. We need to help our firefighters, our police, and our 
EMS units have adequate training, equipment, and communications 
capabilities.
    I thank you, Mr. Chairman, for holding this hearing. We are 
going to bolster public safety. We are going to help pursue 
this war on terrorism, obviously abroad, but also here. Our 
homeland has been hit. It may be hit again. Let us make sure we 
are not flat-footed, but we are ready; we are responding and, 
everyone is much safer.
    Thank you, Mr. Chairman.
    Senator Wyden. Thank you, Senator Allen. I think because we 
do very much want to hear from Mr. Burris, we are going to 
excuse you two. But understand that you have given us a lot of 
very good suggestions. Curt, know that if you can get a 
commitment for anything resembling that budget figure in terms 
of additional resources for fire, and we can all work together 
to get Mitch Daniels to free up some of the $20 billion that 
has already been allocated, that would make a huge difference, 
and your leadership there is very welcome.
    On the GPS point, I have already heard from medical 
professionals that if we had done nothing else but put a GPS 
bracelet on some of those folks who had been injured and whose 
families were posting things all over the city of New York, 
that we could have saved an awful lot of grief and trauma for 
those families.
    Your comments about the wireless issues, the need for 
communications reforms and funding are very much on point. We 
will be working closely with you. Bill, the fact that you have 
got front-line experience is just tremendously helpful.
    Under normal circumstances, I would have some questions, 
but we are going to hear from Mr. Burris, and godspeed to you 
both. Thank you.mr
    Chief Burris, Chief Operating Officer, U.S. Fire 
Administration. Chief, welcome. We will make your prepared 
remarks a part of the hearing record in its entirety, and we 
thank you for all your leadership. Please proceed.

 STATEMENT OF KENNETH O. BURRIS, JR., CHIEF OPERATING OFFICER 
              AND ACTING ADMINISTRATOR, U.S. FIRE 
                         ADMINISTRATION

    Mr. Burris. Thank you. I appreciate it. Good afternoon, Mr. 
Chairman, members of the Committee. Of course, my name is Ken 
Burris and I am the Chief Operating Officer of the United 
States Fire Administration and currently the Acting U.S. Fire 
Administrator. I appreciate the opportunity to appear before 
the Committee today on behalf of the Federal Emergency 
Management Agency's Director, Joe Allbaugh.
    Of course, we are gathered here today to discuss how to 
improve the preparedness and effectiveness as well as the 
safety of our first responders and to explore how we can work 
together for the good of the fire service and the public they 
serve. But before I begin, I would like to commend the efforts 
of those firefighters who responded to the September 11th 
tragedy. While it is right that we have paid tribute over the 
last several weeks to those that were lost, there is no doubt 
that the toll would have been much greater had it been not for 
the heroic efforts of the firefighters that responded to these 
tragedies. Thousands of lives were lost, but thousands of 
others, indeed tens of thousands of others, were saved through 
preparedness and quick response by these firefighters.
    The events of September 11th have shown our Nation the 
importance of its fire service. A service that was once taken 
for granted is now viewed as an essential component of the fire 
safety or the public safety equation. The fire departments of 
the City of New York, Arlington, Virginia, and Shanksville, 
Pennsylvania, have proven that our first responders will be 
called to respond across urban, suburban, and rural communities 
of our country. Fire departments of every type, career, 
volunteer, and combination, across our Nation must be vigilant 
to heed the call to service at a moment's notice.
    A call to service at a moment's notice, that is a pretty 
familiar state of readiness for our fire departments across our 
country, the same state of readiness that is required to 
respond to a community's normal threat risk, with the 
difference being the magnitude of the event and the subsequent 
operational requirements of that event when it happens.
    My experience in New York paralleled my experiences in 
other operational conditions that overwhelm a jurisdiction's 
ability to respond. I have read the many after-action reports 
of previous large-scale emergency operations--hurricanes, 
earthquakes, fires--and the very challenges that were faced in 
the response to the September 11th events are the same 
challenges that the fire service and emergency management 
community faces in the response to all hazards.
    Communications continues to be a challenge during large-
scale operations. Operations that depend on the response of 
many different jurisdictions and agencies create a 
communications problem requiring precious time to sort out. 
Different radio frequencies, incompatible equipment, overloaded 
infrastructure, all combine to complicate operations.
    While the private has created a communications network that 
allows quick and easy access for the general public, the same 
conveniences do not exist for our first responding community. 
Hampered by the many radio frequencies that may exist on a 
large-scale emergency, incident commanders are oftentimes left 
as a last resort the rely on runners as a means of 
communication.
    Since becoming the Chief Operating Officer of the Fire 
Administration, I am frequently asked what role should the 
Federal Government play in supporting our Nation's fire 
services and our first responders. I am convinced that a part 
of that role is supporting the public safety communications 
infrastructure. Setting aside the radio spectrum, providing a 
national communications infrastructure and supporting local 
government in assessing and acquiring communications equipment 
are essential components of an effective national public safety 
communications plan.
    Command and control continues to be a challenge. This 
challenge is even more critical when operations are conducted 
with entities and agencies that have their own unique incident 
command or incident management systems. Every supporting or 
responding agency cannot create their own command post on a 
large-scale incident. The use of different command systems' 
terminology causes confusion and reduced effectiveness, both of 
which take its toll on incident managers.
    We need to institutionalize a common incident command 
system throughout our country. It is a critical framework for 
the support needed to respond to terrorist events, natural 
events of large magnitude, as well as the normal operational 
responses required by our Nation's first responders. We may 
seriously want to look at mandating the use of a single 
incident management system within our country.
    The coordination of responding assets continues to pose its 
own unique challenges. We have a Federal response plan and we 
must be disciplined enough to work and operate within its 
parameters. FEMA's success depends on our ability to organize, 
lead, a community of local, State and Federal agencies as well 
as volunteer organizations. We know who to bring to the table, 
what questions to ask when it comes to the business of managing 
emergencies, and FEMA provides an operational framework and a 
funding source to accomplish these tasks.
    Self-deployment of agencies and assets outside the plan 
creates serious problems and requires an inordinate amount of 
attention by incident managers. Standardization of regional, 
State, and local mutual aid and automatic aid plans and their 
coordination within the Federal response plan are critical for 
successful coordination to a response that we saw on September 
11th.
    Coordination of assets requires the identification of 
responders and the responders' qualifications. The need for 
some type of certifying credential is apparent to cut down on 
self-deployment and freelancing that is oftentimes observed at 
large-scale incidents.
    Responding to terrorist events requires a more robust 
personnel security system, scene security, and control and 
accountability of resources deployment, and those resources' 
sustainability.
    As I stated earlier, these observations are not unique to 
the September 11th response. After-action reports of large-
scale incidents and even preparedness exercises that we carry 
on annually have highlighted these same issues even before they 
were brought to national attention by the September 11th 
tragedies. Time and time again we have discussed these issues, 
such as radio spectrum and public safety allocation of radio 
spectrum. But there has been little in the way of commitment at 
times to fix this particular problem.
    Last year I participated in a hearing with Noreen Lucey, 
the sister of one of our fallen firefighters from the tragic 
Worcester, Massachusetts, fire. She talked a bit about the 
selflessness of response of the six firefighters who gave their 
lives in that blaze and summed up the reason for their doing so 
quite simply when she said: ``They just do what they do.''
    As September 11th has demonstrated, the fire services are 
at the first line of our homeland defense, because that is just 
simply what they do. During the last several weeks our Nation 
has witnessed live and on television an example of heroism that 
is practiced by the fire service of this Nation countless times 
every day. We owe it to the people that we serve, to the 
firefighters who protect, to be as prepared as possible.
    I want to thank the Committee for your concerns, your 
support, your understanding of the needs, and to recognize the 
fire service and their contribution to our country, and to look 
further into helping support the future of our Nation's fire 
services.
    On behalf of the staff of the Fire Administration and the 
leadership and staff of FEMA, I want to thank the Committee for 
the opportunity to testify, and I will be happy to address any 
questions you may have.
    [The prepared statement of Mr. Burris follows:]

   Prepared Statement of Kenneth Burris, Chief Operating Officer and 
             Acting Administrator, U.S. Fire Administration

    Good afternoon, Mr. Chairman and Members of the Committee. My name 
is Ken Burris, and I am the Chief Operating Officer, and currently 
Acting Administrator, of the U.S. Fire Administration (USFA). I 
appreciate the opportunity to appear before you today on behalf of the 
Director of the Federal Emergency Management Agency (FEMA), Joe 
Allbaugh. We are gathered here today to discuss how to improve the 
preparedness and effectiveness and safety of our first responders. And 
also to explore how we can work together for the good of the fire 
service and the public they serve.
    But before I begin, I want to commend to the efforts of those 
firefighters who responded to this tragedy. While it is right that we 
pay tribute to those who were lost, there is no doubt that the toll 
would have been much higher were it not for the heroic efforts of our 
firefighters. Thousands of lives were lost but thousands of others, 
indeed tens of thousands, were saved through preparedness, and quick 
response by these firefighters.
    The events of September 11th have shown our Nation the importance 
of its fire services. A service that was once taken for granted is now 
being viewed as an essential component of the public safety equation. 
The fire departments of the City of New York, the City of Arlington, VA 
and Shanksville, PA has proven that our first responders will be called 
to respond across urban, suburban and rural communities of our country. 
Fire departments of every type: career, volunteer and combination 
across our nation must be vigilant to heed the call to service at a 
moments notice.
    This is a familiar state of readiness for the fire service. The 
same state of readiness that is required to respond to a community's 
normal threat risk, with the difference being the magnitude of the 
event and the subsequent operational requirements. My experience in New 
York paralleled my experiences in other operational conditions that 
overwhelm a local jurisdictions ability to respond.
    I have read the after action reports on previous larger scale 
emergency operations; hurricanes, earthquakes, floods, fires. The very 
challenges that were faced in the response to the events of September 
11th are the same challenges the fire service and emergency management 
community face in response to all hazards.
    The fire services suffered a terrible blow that day and we all 
mourn for those lost. We also saw the best of the fire services that 
day and in the weeks that have followed. Perhaps for the first time, 
the nation has witnessed live and on television an example of heroism 
that is practiced by the fire services of this nation in countless 
smaller incidents every day.
    Last year I participated in a hearing with Noreen Lucey, the sister 
on one of our fallen heroes from the tragic Worcester, Massachusetts 
fire. She talked a bit about the selfless response of the six 
firefighter who gave their life to that blaze and summed up their 
reasons for doing so. She said quite simply: ``That's just what they 
do.''
    I also want to thank the Committee for your concern, your support 
and your understanding of the need to recognize the fire services 
contribution to public safety and their future needs. At the United 
States Fire Administration, we have been working to develop and deliver 
training and educational programs to the fire services on terrorism 
awareness and response. Many fire departments across the nation are 
asking themselves, ``are we prepared for this'' or ``how on earth are 
we ever going to handle something like this''. Both of these are good 
questions, but many other departments are saying just the opposite; 
they think, ``it will never happen here''. Make no mistake that the 
message every fire department in America should have gotten is that we 
are all vulnerable to the effects of another terrorist attack.
TRAINING
    The United States Fire Administration's National Fire Academy has 
terrorism programs that range from self-study courses you can take in 
your home as well as university programs for government leaders.
    A very popular introductory course is available both in paper 
format and as a file downloadable from the USFA Web Site. Emergency 
Response to Terrorism: Self-Study (ERT:SS) (Q534) is a self-paced, 
paper-based document and is designed to provide the basic awareness 
training to prepare first responders to respond to incidents of 
terrorism safely and effectively. Students who successfully complete 
the exam will be eligible for a FEMA/BJA certificate of training. The 
course is designed for fire, emergency medical, HAZMAT, incident 
command and law enforcement responders. The ERT:SS course may be 
downloaded in portable document format (PDF). You may also request a 
copy of the ERT:SS through the USFA Publications Center at (800) 238-
3358, ext. 1189 or order it online.
    Thousands of emergency responders across the country have taken 
Emergency Response to Terrorism: Basic Concepts, a two-day course 
designed to prepare them to take the appropriate course of action at 
the scene of a potential terrorist incident. The course provides 
students with a general understanding and recognition of terrorism, 
defensive considerations (biological, nuclear, incendiary, chemical, 
and explosive), as well as command and control issues associated with 
criminal incidents. When an incident occurs, the student will be able 
to recognize and implement self-protective measures, secure the scene, 
complete appropriate notifications to local, State, and Federal 
authorities, and assist in completing a smooth transition from 
emergency to recovery and termination operations.
    The primary target audience for this training includes hazardous 
materials, fire, and emergency medical services first responder 
personnel. The secondary audience includes law enforcement personnel, 
emergency communications personnel, jurisdiction emergency 
coordinators, public works managers, and public health providers. The 
USFA provides grants to State fire service training systems so this 
training can be available to you locally, at little or no cost. Often, 
in small communities, fire, EMS and law enforcement responders sit in 
the same class and can become familiar with each other's 
responsibilities and procedures.
    Emergency Response to Terrorism: Tactical Considerations--Company 
Officer (ERT:TC-CO), is a two-day course designed to build upon the 
existing skills of the initial first-responding supervisor from the 
Emergency Response to Terrorism: Basic Concepts course or Emergency 
Response to Terrorism: Self-Study guide. The students will be trained 
in security considerations, identifying signs of terrorism, 
anticipating unusual response circumstances, assessing information, and 
initiating self-protection actions.
    Anyone who could serve as the first on-the-scene officer in a 
hazardous material or emergency medical services incident would benefit 
from this course. You must have a working knowledge of the Incident 
Command System (ICS). Students will not be taught ICS but will be 
expected to use ICS during class activities.
    Emergency Response to Terrorism: Tactical Consideration--Emergency 
Medical Service (ERT:TC-EMS) is a two-day course is designed for the 
first on-the-scene responding EMS personnel with the responsibility to 
render patient care to victims of terrorist incidents. The students 
will be trained in security considerations, identifying signs of 
terrorism, anticipating unusual response circumstances, assessing 
information, and initiating self-protection actions. The students also 
will apply their knowledge about responding to a terrorist event, 
providing patient care, identifying and preserving evidence, managing 
site safety, documenting the event, and debriefing personnel.
    The target audience for ERT:TC-EMS is first on-the-scene emergency 
medical services personnel, who could be career and/or volunteer 
firefighters, EMS, industrial contractors, allied health personnel, and 
members of the military or other Government agencies. Note: The medical 
protocols for rendering patient care are at the Advanced Life Support 
(ALS) level.
    Another two-day course is designed for the first on-the-scene 
responding hazardous materials technician or persons who have the 
responsibility of developing initial hazardous materials tactical 
considerations. In Emergency Response to Terrorism: Tactical 
Considerations--Hazardous Materials (ERT:TC-HM) the students will be 
trained in security considerations, identifying signs of terrorism, 
anticipating unusual response circumstances, assessing information, and 
initiating self-protection actions. The students also will apply their 
knowledge about responding to a terrorist event, managing site safety, 
documenting the event, and debriefing personnel.
    ERT:TC-HM  is targeted at first on-the-scene hazardous materials 
technician-level personnel, who could be career and/or volunteer 
firefighters, EMS, industrial contractors, allied health personnel, and 
members of the military or other Government agencies with hazardous 
materials responsibility.
    It is important to remember that all of the above courses are two 
days in length and are part of the National Fire Academy's Direct 
Delivery Program. That means that they can be delivered in or near any 
community. Moreover, they can be funded either through the Terrorism 
Training Grants or State Fire Training Grants, so the cost to 
departments should be minimal.
    Another ``plus'' in this training is that the ERT series of courses 
have been evaluated by the American Council on Education and have been 
recommended for one semester hour credit each in AAS--Fire Science or 
EMS Technologies. If you are enrolled in a degree program, your 
institution may allow you credit for these courses. The entire National 
Fire Academy course catalog is available on line and can be found at 
www.usfa.fema.gov/nfa.
    These courses address what we are doing now. Where we need to go in 
the future is the question. As we see it, all levels of government and 
the fire services community have several issues to address, both 
internally and externally. First let me address some of these needs and 
trends.
COORDINATION AT THE FEDERAL LEVEL
    The FEMA mission is to reduce the loss of life and property and 
protect our nation's critical infrastructure from all types of hazards. 
As staffing goes, we are a small agency. Our success depends on our 
ability to organize and lead a community of local, State, and Federal 
agencies and volunteer organizations. We know who to bring to the table 
and what questions to ask when it comes to the business of managing 
emergencies. We provide an operation framework and a funding source.
    The Federal Response Plan (FRP) is the heart of that framework. It 
reflects the labors of interagency groups that meet as required in 
Washington, D.C. and all 10 FEMA Regions to develop our capabilities to 
respond as a team. This team is made up of 2 Federal departments and 
Agencies and the American Red Cross, and organized into interagency 
functions based on the authorities and expertise of the members and the 
needs of our counterparts at the state and local level.
    While USFA has seen the effectiveness among and within the Federal 
family, we must acknowledge that the fire services at the local level 
have had limited training to respond to terrorist incidents. The 
primary focus of the federal effort to date in delivering this training 
needs to be better coordinated. USFA, working with the FEMA Office of 
National Preparedness, should include senior fire services leadership 
in the coordination of fire and emergency services response planning 
effort to these catastrophic events.
    The fire departments across the nation need to be an integral part 
of the planning, training and policy development for terrorism 
preparedness. While there is a general acknowledgement that the law 
enforcement community has a significant deterrence and investigatory 
role, it is also true that the fire services are the first on the 
scene, and therefore the first at risk. Any future considerations on 
training and funding for equipment must take this into account.

ASSISTANCE TO FIREFIGHTERS GRANT PROGRAM
    Since the attacks, the Senate has passed the Defense Authorization 
bill with a three-year authorization of $600 million, $800 million and 
$1 billion over the three years and the bill is currently in the 
conference committee. It is important that if this program were taken 
to it full authorized amount and continue, USFA will need authorization 
for salaries and expenses to administer and staff the program 
effectively. It is also important that the agency be given the 
authority to develop the program with greater flexibility.
    As FEMA Director Allbaugh has stated, ``firefighters are the first 
in line for budget cuts and the last in line for recognition. This must 
stop.'' This program should not however replace the primary 
responsibility for funding and support, which lies with the local and 
state governments. Federal assistance should be supplemental and should 
be directed to the areas and programs in greatest need.
    State and local support of the fire services must be increased and 
the federal role should be to foster that participation. Incentives to 
local governments need to be developed and enacted.

STRONGER PARTNERSHIPS WITH EMERGENCY MANAGEMENT
    It is increasingly clear that the cooperation between the emergency 
management community and the fire services needs to be strengthened and 
encouraged. While at the local level emergency managers are at many 
times the local fire chief, at higher levels there is a disconnect. 
Improved cooperation should include joint training development and 
delivery, cooperative agreements and the development of a statewide and 
perhaps nationwide mutual aid system. Resources directed for terrorism 
preparation should have a strong fire services component.
    Quality, robust and consistent communications capabilities should 
be developed and implemented for the fire services. As a nation we need 
to strive to provide the communications infrastructure necessary for 
multiple agency communications. Currently there is no secure means to 
provide first responders with important, un-compromised information. 
Obviously, this void could severely hamper effective fire service 
operations in a terrorist environment.
    Another communications need involves incident management and 
coordination. We have to communicate with all response and supporting 
agencies at every level of the Federal Response Plan, which is the 
framework for the federal support that they will need in terrorist 
events. It is important that all local fire and public safety agencies 
and their staffs are aware of the plan and how it meshes with their 
state, county and local planning. There should also be training and 
exercises to ensure understanding and ability to work within this 
structure.
    We cannot manage incidents with entities that have unique or 
different incident command or incident management systems (ICS/IMS) or 
with those entities not operationally conversant with the standard 
incident management system. We need to work toward an institutionalized 
operating, common ICS/IMS throughout the country.
    Incident management must address coordination issues with the 
Federal Response Plan.
    Self-deployment of agencies and assets outside the plan and the IMS 
request creates difficulty in coordination and strains the time and 
attention of legitimate responders. Standardized state and regional 
mutual/automatic aid plans would be helpful. Also, attention and 
training must include focus on the problems with maintenance of long-
term ``campaign'' emergency operations that will go on for extended 
periods of time.
    We need to address the area of scene security and safety. The WTC 
incident clearly demonstrated the need to explore a national 
credentialing system for first responders.
    Such a system could provide identification of the responder, the 
responder's qualifications, and any operations limitations and 
expiration dates. State and local agencies and educational/training 
institutions should serve as the certifying authorities for 
qualifications. The certification ``card'' could then serve as a 
passport for admission to secured work sites. This should cut down on 
the ``free lancing'' we saw on scene in New York and result in improved 
security.
    We need to consider additional training in vehicle/logistics/
staging security, personnel security, scene security, control and 
accountability of teams and resources as well as issues of deployment, 
sustainability, and recall.
    USFA and the States provide appropriate and adequate first 
responder training but we need to train more students. Training efforts 
should do more to ``push'' materials and skills towards the end user. 
This will necessitate the use of additional and non-traditional methods 
including technology oriented deliveries and more partnering with state 
and other training authorities.
    We also need to consider delivering more leadership and strategic 
skills classes and deliver more training in integrated/area IMS 
operations. The issue of holistic community participation and benefit 
requires broad-spectrum participation among the attendees' communities.
    We also need to look toward research and development to provide 
community assistance to match threat level with resources available or 
obtainable in terms of protective gear. It is important to be able to 
quickly assess the threat environment that the fire services faces at 
an incident and be able to quickly provide the appropriate protection 
to them.
    Building construction practices and code development must take a 
new look at the concept of ``trade-offs'' in buildings and evaluate the 
value of redundancies in building design and construction. It is 
important that we guard against ``under designing'' buildings with 
automatic fire suppression sprinkler systems by allowing ``trade-offs'' 
in other areas to include egress systems or fire rated construction.
    We also need to provide a tool for the collection of asset/resource 
data to provide the region with accurate and timely data regarding 
resources available for deployment in the event of an emergency. USFA 
is undertaking just such an effort with the first ever Fire Department 
Census. This will enable us, for the first time, to be able to quantify 
the amount of emergency equipment, apparatus and personnel that exist 
in the nation.
    Working closely with FEMA and the Forest Service, USFA should 
explore the development of an enhanced National Overhead IMS response 
team as part of the Emergency Support Function 4 for the urban 
environment.
    It will also be important for USFA to develop and promulgate 
courses/training dealing with large incident response ``etiquette.'' 
Included in that training should be the issues of jurisdiction, self-
dispatch, scene control, and inter-agency and inter-discipline 
relations.
    USFA should also develop and increase the promulgation of Incident 
Management Systems through on-site courses, literature, multiple media 
off-site, and other means. While much effort has been made, more work 
is necessary. We will also be looking closely at the Executive Fire 
Officer curriculum to include attention to the issues particular to the 
loss of major portions of a fire departments senior command structure 
as well as issues specific to terrorism and weapons of mass 
destruction.
    Another WTC example is the threat of ``secondary devices'' which 
relates to scene security and safety. The second aircraft was 
unimaginable, yet it was also a secondary device on a greater scale. 
Part of the ongoing development of IMS training should include 
``ascension or succession'' planning to deal with the possibility of 
loss of senior staff /command structure immediately prior to or during 
a disaster event.
    As we all learn lessons from the tragedies in New York, Virginia 
and Pennsylvania, lets not lose sight of the fact that as the 
community's first response organization, the fire service needs to work 
closely with police and other local officials. We need to determine 
what areas of our cities and towns could be targets, but we also need 
to plan for the unexpected event that goes beyond our ability to 
respond with just one community's resources. This type of planning and 
cooperation is critical to responding to and recovering from terrorist 
events.
    As September 11 has demonstrated, the fire services are the first 
line of homeland defense and we owe it to the people we serve to be as 
prepared as possible.
    On behalf of the entire staff of the United State Fire 
Administration and the fire services community and all of the 
leadership and staff at FEMA, I want to again thank the Committee for 
the opportunity to testify today. I will be happy to address any 
questions you might have.

    Senator Wyden. Mr. Burris, thank you. That is very helpful. 
I am just going to ask a couple of questions and then I will 
let my colleague ask some as well.
    Tell us first how you envision the Fire Administration, 
your various training programs and other services interacting 
with the new Office of Homeland Security that Governor Ridge is 
going to direct?
    Mr. Burris. Well, I envision that the Fire Administration 
through its National Fire Academy is basically the point of 
contact that the Federal Government has with the Nation's fire 
services in the training, the arena of training. We have a 
longstanding relationship with each State's training academy, 
offering them courses, providing grant funds to provide those 
courses at a regional level. I would expect that those type of 
training initiatives would take place through the current 
system that we have established.
    Senator Wyden. The Nation's leading technology companies, 
many of which are in my State or in Senator Allen's State as 
well, tell me they want to back you up. They want to send 
equipment and brains and talent in immediately when a tragedy 
hits so that there will be wireless systems, hardwired systems, 
satellites, what you need in terms of computers and equipment.
    Based on everything I heard from Mr. Weldon and others who 
have been working on these issues, that would be something that 
would be extremely helpful. But I want to give you and folks 
who are specialists in the field a chance to give your message 
back to some patriotic people in the technology sector who are 
saying they want to send you resources.
    Mr. Burris. I am sure that everyone in the fire service is 
appreciative of that and public safety is appreciative of that. 
But I spent 25 years in the business before I came into the 
Federal Government to do this and, not to be disparaging toward 
anybody, but most of the time that immediate response is 4 to 6 
hours out, when you really need to bolster and make robust the 
public safety communications network of today so you can use it 
3 minutes after the incident is happening.
    That is when these mutual aid compacts and these mutual aid 
agreements are being activated and these other jurisdictions 
are coming in. While there is a place to set up that type of 
network for 6 hours out, we need to do the work it takes to 
provide the ability to communicate virtually instantaneously.
    Senator Wyden. Your point is a good one and I think that 
that is why the way we see it we need to do everything from 
making changes in wireless policy to being able to go from 
there in terms of utilizing existing resources so that you can 
have that information in a matter of minutes. I thank you for 
that, and I know that that is going to be well received by 
people who want to help with equipment and resources.
    Well, the only other question I had involves the grant 
application review process. I gather that you all are just sort 
of swamped. You have got a modest amount of money. You have got 
vastly more in the way of requests than you can handle. What do 
you need at this point to effectively sort through this process 
and be able to make decisions and fund the priorities?
    Mr. Burris. You are asking me if I had a magic wand what 
would I ask for?
    Senator Wyden. Yes.
    Mr. Burris. I would ask for the staff to pull it off. We 
just did not get the staff to do it, and we relied on the fire 
service to help us out and they stepped forward and did that.
    Second, I would ask that as we look at some of these 
amounts of funding, hundreds of millions and possibly billions 
of dollars, that we not be held to a single fiscal year to get 
the programs under way. We need some time to develop the 
programs. We are not asking for any extended time, but----
    Senator Wyden. A little flexibility?
    Mr. Burris. A little flexibility, yes, sir.
    Senator Wyden. All right. Well, excellent presentation, Mr. 
Burris.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Mr. Burris, thank you for your comments. I enjoyed 
listening to them. Two main areas I want to cover. The first 
has to do with just what fire organizations would like; we hear 
that they would like a single Federal point of contact during a 
crisis who is in charge. Back in May--and this follows on with 
the chairman's question earlier--back in May, as I recollect, 
the President announced that FEMA would set up an Office of 
National Preparedness. Does FEMA still intend to establish this 
new office?
    Mr. Burris. I would defer that answer to the Director. I am 
not involved in setting up the Office of National Preparedness.
    Senator Allen. Let me ask you, answered the question 
somewhat and, maybe because I am worn out, I did not get it 
exactly. How do you foresee your office working with Governor 
Ridge and the Office of Homeland Security?
    Mr. Burris. I would foresee that the Fire Administration 
would be a point or the point of contact with the fire services 
in developing and providing those type of programs that would 
be made available, whether it is through the grant programs or 
it is through additional training programs or whether it is 
through the staffing programs, that we would administer those. 
They are a major stakeholder of our agency.
    Senator Allen. Now, you have heard from the Congressmen as 
well as myself and others that there is this inability of 
firefighters, police, and EMS units from different 
jurisdictions to communicate with each other. We saw it right 
here on September 11th. That is a major impediment to 
responding to these emergencies.
    What suggestions, if you could give me one or two key 
suggestions or ideas, does the U.S. Fire Administration have to 
resolve this problem? What would you say would be the top two 
things we need to do?
    Mr. Burris. The top two things----
    Senator Allen. Because I do see this as being more 
national. I am one who does not like to federalize every single 
issue.
    Mr. Burris. I understand.
    Senator Allen. I trust folks in the states and localities. 
But when you get into communications, that is intrastate or 
interstate in nature. So what would be, say, the number one and 
number two thing we can do to get the communications better?
    Mr. Burris. It is not necessarily the Fire Administration 
that can do it, but the national government can provide an 
infrastructure in which to communicate. They do it for the 
military.
    Senator Allen. What would your suggestions be?
    Mr. Burris. To create that infrastructure and then to 
assist local government in purchasing and accessing the 
equipment that it takes to communicate on it.
    Senator Allen. Good enough.
    Thank you.
    Senator Wyden. Thank you very much, Mr. Burris.
    You know, your point about the government taking the lead 
on communications is absolutely right. That is what I heard 
from fire people at a meeting that I held at home in my State 
in Portland, Oregon, on Monday. We had fire people, we had 
technology experts and the like, and they basically said: Look, 
you people at the Federal level with the Federal Communications 
Commission have to have a wireless policy so that in effect you 
can start getting help to people in a matter of minutes. That 
is what we are going to stay at.
    I see this communications issue as something that is almost 
setting up a continuum of communications services. It has got 
to start within a matter of minutes and then it has got to go 
from there in terms of trying to meet the other communications 
needs.
    So we thank you for an excellent presentation. We will be 
working closely with you.
    Mr. Burris. Thank you. I appreciate it.
    Senator Wyden. All right. Our next panel will be: Chief 
John Buckman, President of the International Association of 
Fire Chiefs; Battalion Chief Robert Ingram of the City of New 
York; Chief Ed Plaugher, Arlington County Fire Department; Mr. 
Harold Schaitberger, General President of the International 
Association of Fire Fighters; and Mr. James Turner of the 
Delaware Volunteer Firemen's Association.
    Gentlemen, welcome, and we thank you for coming today and 
for your leadership. We are going to make your prepared remarks 
a part of the hearing record in their entirety and if you could 
stay close to 5 minutes or so that would be great.
    I understand by agreement of this distinguished group you 
would like to have Mr. Schaitberger go first, and that would be 
just fine. Mr. Schaitberger, welcome.

    STATEMENT OF HAROLD A. SCHAITBERGER, GENERAL PRESIDENT, 
           INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS

    Mr. Schaitberger. Thank you, Mr. Chairman. I appreciate 
that.
    I would like to say, particularly to the good Senator from 
the Commonwealth, that I started my career in 1966 as a young 
professional firefighter in Fairfax County, Virginia. I now 
have the honor of representing more than 245,000 men and women 
that make up the International Association of Fire Fighters.
    I will just summarize some key points in my testimony that 
has been submitted for the record, but I would first like to at 
least state that I know for the Nation that September 11th was 
certainly one of the darkest days our Nation has ever 
experienced. It was one of the most catastrophic days our union 
has ever experienced and one of the most tragic days of our 
profession, when we watched in horror along with the rest of 
the world the attack in New York, Arlington, Virginia, and in a 
rural field outside of Pittsburgh, the results of an assault on 
our country.
    It was also a horrifying day for me, as I know every member 
of my union, to watch in disbelief when the two towers 
collapsed, because I knew at that moment that that would be the 
most disastrous day in our union's history, and I knew where my 
members were. I knew they were in those stairwells doing their 
job: initiating those attacks, performing their search and 
rescue, evacuating the building.
    But I also watched with great honor and pride the work our 
members performed in New York, at the Pentagon, from Arlington, 
Alexandria, Fairfax, the District of Columbia, Montgomery, 
Prince George's County. It is today's warriors, domestic 
warriors, that were really on the front lines in those days, 
not worrying about risking their own lives, just focused on 
their mission, doing their job, protecting not only the 
property, but working to save as many lives as they possibly 
could.
    The Nation's fire services are united as they have never 
been before the attack, but certainly as the rest of the Nation 
galvanized together to take this moment in time to hopefully 
develop some responses from all levels of government that will 
act as a living memorial to those that sacrificed their lives 
in New York City at the south end of Manhattan, 344 courageous 
brothers of mine, who left behind over a thousand children and 
devastated families, and a fire department which is working at 
the point of exhaustion, which has deep scars on their souls, 
but continue to work day and night every day while the recovery 
goes on.
    We need more than just the great recognition that has been 
afforded our profession over these last 4 weeks, and we need 
more than the wonderful prayers that have been offered by a 
Nation. This is time now for the government at all levels, and 
I believe it is time for this Congress, to act in meaningful 
ways by responding to some of the important resource needs that 
our Nation's fire service needs.
    We have made 12 recommendations and I would just like to 
quickly focus on 2. I can appreciate, I would like to think, as 
much as anyone the great value of today's magnificent 
technology, the need for better communications, the need for 
coordinated command, the need for more information, but I have 
to tell you at the end of the day it takes one thing to really 
do our job. It takes people. It takes firefighters who are 
willing to go in and do their work. That is where the fire is, 
that is where the rescues are performed.
    This is combat for us, and it is not unlike what our Nation 
is coming to grips with and has prepared itself for and that we 
all support as we watch a response to the terrorists and our 
enemies in Afghanistan. We watch the magnificent technology and 
the smart bombs and all of those items that the military has to 
do its job, but we also all know what it is going to take to 
really finish this job. It is going to take people on the 
ground to go in and get it.
    That is what our business fundamentally is all about at the 
end of the day. It takes people to go in and do that job. Over 
two-thirds of the communities in this country are running 
short. They are operating understaffed, including far too many 
communities in all of the States in this Nation, including two 
States that you two distinguished Senators represent.
    We for the first time now have an actual measurement that 
has not been afforded to us in the past. We have an industry 
should standard finally. This summer, for the first time in 
over 100 years, the National Fire Protection Association, which 
is responsible for establishing our national fire codes, has 
come to the realization and developed after a 10-year effort a 
standard which establishes the staffing and deployment that it 
takes to provide adequate, efficient fire service operations 
and give our firefighters a better chance of their own 
survivability.
    That Standard 1710, if implemented where it should be 
throughout this country, will take over 75,000 firefighters 
just to get us at a point of efficiency. It is firefighters we 
need and the proposals that I know the Senator from Connecticut 
and many others in this chamber and in the House are prepared 
the support. We need adequate personnel to do our job.
    The second issue is training. I want to focus on the 
training for incidents where weapons of mass destruction are 
used. Our good battalion chief here is one of our distinguished 
hazardous materials instructors. We lost 14 of our 19 
instructors in New York, the core of being able to provide 
training to firefighters throughout this country in order to be 
able to do their jobs where incidents where hazardous materials 
are involved.
    We need that same training and that same commitment from 
this government as it relates to weapons of mass destruction, 
with an emphasis on chemical and biological agents. That has 
not been afforded to us yet. We have been in a struggle with 
the Department of Justice for too long, trying to get them the 
respond and to provide the resources we need for training for 
firefighters on the ground. Lots of money going to 
universities, lots of money going to think tanks, lots of money 
being spent. But I would call this distinguished Committee's 
attention to the training that I would like to point out, and 
that is the training that every firefighter needs in order to 
be adequately aware and operationally efficient to deal with 
the terror of incidents that I do not think is a matter of if, 
it is just going to be a matter of where and when.
    So I will just conclude by thanking the Committee for this 
opportunity and appreciation of all of the wonderful accolades 
and recognition that come from throughout the Nation and 
certainly this distinguished body. But I hope that we can 
really now galvanize the Congress to respond in a real 
meaningful way and provide the necessary resources to let our 
people do their job more efficiently.
    [The prepared statement of Mr. Schaitberger follows:]

   Prepared Statement of Harold A. Schaitberger, General President, 
               International Association of Fire Fighters

    Mr. Chairman. I thank you for the opportunity to appear before this 
Subcommittee today.
    My name is Harold Schaitberger, and I am the General President of 
the International Association of Fire Fighters (IAFF). I started my 
career in 1966 as a professional fire fighter with the Fairfax County, 
VA., Fire and Rescue Department and I now have the honor of 
representing more than 245,000 professional fire fighters and 
paramedics who protect 80 percent of our nation's population.
    The 344 firefighters, who made the ultimate sacrifice one can make 
in our profession and rescued tens of thousands of civilians from the 
hellish carnage of the World Trade Center tragedy, are my brothers, as 
are the thousands of fire fighters who responded to the terrorist 
attacks in New York and at the Pentagon on September 11.
    Mr. Chairman, I come before this Committee as a man on a mission to 
improve public safety, to better protect the safety of our nation's 
fire fighters, and to ensure our nation's fire service is prepared to 
respond to the inevitable terrorist attacks our nation will face in the 
future.
    Like all Americans I watched the television with horror as the 
planes hit the World Trade Center and the Pentagon. Within minutes of 
those attacks, I knew that hundreds of my firefighters were responding 
to the call, entering those buildings, and placing themselves at risk. 
When the first tower collapsed, I also knew we had lost hundreds of 
firefighters under millions of tons of jagged steel and debris--and it 
was time for the IAFF to pull its crisis team together and go to work.
    Within hours, I was at the Pentagon meeting with our fire fighters 
there. By the next morning, we had reached out to Congress for help, 
and you responded by passing a resolution to streamline the process for 
putting Public Safety Officers Benefits into the hands of the families 
of our fallen heroes.
    By Wednesday afternoon, we were in New York with our people there. 
We worked with our New York affiliates to create the New York 
Firefighters 9-11 Disaster Relief Fund to provide assistance to our 
devastated families. We established an office in Manhattan and put IAFF 
staff in the offices of our two affiliates to help them deal with the 
many issues faced by our New York fire fighters and fire officers. And 
we met with senior Fire Department of New York officials and FEMA 
officials to put a comprehensive counseling program in place, involving 
trained IAFF members from fire departments across the nation.
    The world has seen the images of Ground Zero on television, but 
video and photographs cannot capture, nor words describe, the utter 
devastation of the scene we witnessed in New York that day on the site 
of what was once two tall proud symbols of the American spirit.
    For a week following the attacks, I stayed in New York to oversee 
our operations there and I continue to return each week. Day after day, 
night after night, our New York fire fighters continue to dig through 
the mountains of rubble in search of their fallen brothers. They are 
working beyond exhaustion, but they are working with a determination 
that is the hallmark of our profession.
    For our fire fighters in New York, it is still September 11.
    All of us--our fire fighters, the widows and the 1,000 fatherless 
children of our IAFF family in New York, and citizens across this 
nation--must now live with the knowledge that we have suffered an 
unthinkable loss that will be etched in our hearts and our souls for 
the rest of our lives.
    As profound as the loss and the devastation we face, is the 
enormous challenge that lies ahead--preparing the nation's fire service 
for its role in the coming war against terrorism.
    Only a few weeks ago, the evils wrought upon our nation by these 
unrepentant terrorists were only a remote, nightmarish threat. Now the 
reality of such evil will always be with us as we wait and wonder what 
will come next. And come it will. As the U.S. intelligence agencies 
have told the members of this chamber and as Administration officials 
like Attorney General Ashcroft and Secretary of Defense Rumsfeld have 
stated publicly, the likelihood of other terrorist acts is ``100 
percent.''
    In this first war of the 21st Century, the battle lines are drawn 
in our own communities and civilians and the places we frequent are 
explicit targets. In this war, the fire fighters are the nation's 
domestic defenders.
    In many ways, this is not a new role for us. For nearly 100 years, 
IAFF members have been protecting the citizens of our nation from all 
hazards. We are the first on the scene when there is an incident 
involving hazardous materials, we are the nation's primary providers of 
emergency medical care, and we are the ones who search for and rescue 
people who are trapped and in danger.
    But while the job we need to perform in this war is familiar, the 
magnitude of the challenge before us is unprecedented. In the past, we 
have had to respond to isolated incidents. In this new world, we need 
to be prepared for a coordinated, well-orchestrated series of attacks 
on American citizens. While we all tend to look toward the military in 
time of war, the reality is that in this war on terrorism, it is fire 
fighters who will be our first line of defense.
    If we are to be successful in fulfilling our mission, we must have 
adequate resources. Sadly, as of today, we do not. The need for 
additional fire fighters, on-going training, and equipment is 
tremendous and it can no longer be born solely by local jurisdictions. 
As evidenced by the response to the World Trade Center and the 
Pentagon, where fire departments from many different jurisdictions 
responded to the attacks, the federal government must recognize that 
terrorist acts are not local incidents, but national tragedies that 
need a federal response.
    Just days after the September 11 attacks, FEMA Director Joe 
Allbaugh highlighted the need for additional resources. Fire fighters, 
he said, ``put their lives on the line everyday and yet they are always 
the first in line for budget cuts and the last in line for recognition. 
That's got to stop.''
    To address this crisis, the nation's leading fire service groups 
came together to compile a list of 12 items Congress should address 
immediately to prepare the nation's fire service for our role in 
protecting America against terrorism. We have entitled this document, 
``Protecting Our Nation: the Immediate Needs of America's fire 
service.'' There are two areas to which I would like to draw your 
attention.
    First is the need for training. As fire fighters are being called 
upon to protect the public from terrorism, I cannot stress enough the 
need for specialized training in terrorism and hazmat response and 
mitigation. I am proud to note that the IAFF, in partnership with DoJ, 
DoE, DoT, EPA and HHS, offers training programs to fire departments--
free of charge--in terrorism and hazmat response. Our program utilizes 
the expertise of hazmat technicians who are also certified instructors 
to teach the course to fire fighters.
    Unfortunately, the demand for our training program far outpaces our 
funding to deliver it. Our ability to deliver the training is only 
limited by the funding we get from our federal partners. If our grants 
from the various federal agencies are increased, the IAFF can 
dramatically increase the number of fire departments trained in 
terrorism and hazmat response and mitigation.
    The second area of need, and the one stands above all others, is 
adequate staffing. Adequate staffing is important for public safety as 
well as for the safety of fire fighters performing that mission. The 
IAFF has long recognized that fire ground safety is inextricably linked 
to adequate staffing.
    There are numerous studies that attest to the dangers of inadequate 
fire fighter staffing. Attached to my written statement is a 
bibliography of the studies to which I refer. But I don't need studies 
to tell me something that I've known for a long time. As a fire fighter 
on the hose line and now as the general president of the IAFF, I have 
witnessed firsthand the grave consequences of short staffing.
    In Memphis, Tennessee; Worcester, Massachusetts; Keokuk, Iowa; 
Pittsburgh, Pennsylvania; Chesapeake, Virginia; Stockton, California; 
Lexington, Kentucky; Buffalo, New York; Philadelphia, Pennsylvania and 
Washington, DC, fire fighters were killed because of a lack of 
staffing. In each of these cases, if there was a team in place that 
accounted for the fire fighters who were performing interior structural 
fire fighting, they would be alive today.
    Yet, numerous jurisdictions are not taking to heart the lessons 
from these tragic events. Currently, 2/3 of all fire departments--large 
and small--operate with inadequate staffing. Across the nation, in 
cities like Buffalo, New York and Baltimore, Maryland, fire stations 
are being closed due to budget cuts. In fact, the lack of adequate 
staffing hampered the ability of the Baltimore Fire Department to 
respond to the hazmat incident caused by the train derailment in 
downtown Baltimore back in July.
    In the face of the mounting evidence of a severe shortage of fire 
fighters, the National Fire Protection Association (NFPA)--the 
consensus, standard making body of the fire service--this summer issued 
its first standard on minimum staffing for fire departments. Ten years 
in the making, NFPA 1710 sets minimum acceptable standards for adequate 
personnel per fire fighting vehicle. With this new benchmark we now 
know that our nation needs an additional 75,000 fire fighters to safely 
and effectively protect the nation.
    That is why the IAFF along with the International Association of 
Fire Chiefs (IAFC) and several Members of Congress have strongly 
endorsed the SAFER Fire Fighters Act that was unveiled just today. The 
SAFER Fire Fighters Act uses the procedures established by the highly 
successful COPS program to place 75,000 additional fire fighters in our 
communities.
    Using the model of the COPS program's Universal Hiring Program, the 
SAFER Fire Fighters Act provides federal grants to communities to hire 
additional fire fighters. The federal government would cover the cost 
of 75% of salary and benefits for a three-year period, not to exceed 
$90,000 over the three years. Local jurisdictions would then be 
required to retain the fire fighter position for at least one 
additional year. The experience of the Universal Hiring Program is that 
once a jurisdiction invests four years in an individual, it is highly 
likely that the individual will be retained.
    The SAFER Fire Fighters Act is an innovative approach to solving 
the nation's need for more fire fighters. It is an example of the new 
type of federalism that our country needs to combat terrorism. Numerous 
federal studies and reports bemoan the lack of coordination between the 
different levels of government. The SAFER Fire Fighters Act would be a 
step towards better cooperation and coordination amongst local, state 
and federal governments to respond strongly and decisively to 
terrorism.
    Despite the pain, the grief and the sorrow we feel and despite the 
unspeakable loss we have suffered, the nation must forge ahead and 
honor the memories of our fallen by taking steps to ensure that from 
this point forward we take all necessary steps to prevent such 
tragedies from ever occurring again.
    As our nation prepares for war, we must not forget that the battles 
to come will be fought on our soil as well. The fire fighters of the 
IAFF will be ready when terrorists strike again. But our ranks are thin 
and reinforcements are needed quickly.
    Thank you for this time to present the view of the IAFF. We 
appreciate the heartfelt expressions of condolences and the prayers 
that Congress and America have offered for our fallen comrades. I ask 
that you honor their memory and sacrifice by building a living 
memorial. Provide us with resources to ensure adequate staffing so that 
we can operate safely and effectively and to provide necessary training 
so that we will be able to play our role in fighting the war on 
terrorism. I will be available for questions by the Committee.
Bibliography of Studies on Fire Department Staffing
American Insurance Association, ``Fire Department Efficiency,'' Special 
    Interest Bulletin No. 131, December 1975.
American Insurance Association, ``Fire Department Manning,'' Special 
    Interest Bulletin No. 319, December 1975.
Brunacini, Alan V., ``Shrinking Resources vs. Staffing Realities,'' 
    NFPA Journal, May/June 1992; pp. 28 & 120.
Casey, James F., ``Manpower--How Much Do You Need?,'' Fire Engineering, 
    October 1969; pp. 111-113.
Centaur Associates (conducted for FEMA), ``Report on the Survey of Fire 
    Suppression Crew Size Practices,'' June 30, 1982; pp. 18-20.
Cushman, Jon, Seattle, WA Fire Department's ``Abstract: Report to 
    Executive Board, Minimum Manning as Health & Safety Issue,'' 1981.
Eisenberg, M.S., et al, (1993), ``Predicting Survival From Out-of-
    Hospital Cardiac Arrest: A Graphic Model,'' Annals of Emergency 
    Medicine; November 1993.
Gerard, John C. and Jacobsen, A. Terry, ``Reduced Staffing: At What 
    Cost?,'' Fire Service Today, September 1981; pp. 15-21.
International Association of Fire Fighters, ``Analysis of Fire Fighter 
    Injuries and Minimum Staffing Per Piece of Apparatus in Cities With 
    Populations of 150,000 or More,'' December 1991.
International City Management Association, Managing Fire Services, 2nd 
    Edition (Washington, DC:IRMA) 1988; pp. 119-120.
International City Managers Association, Municipal Fire Administration 
    (Chicago, IL:ICMA) 1967; pp. 161-162.
International City Management Association, Managing Fire Services, 
    (Washington, DC:ICMA) 1979; pp. 80, 214-215, & 218-219.
International City Management Association, Managing Fire Services, 
    (Washington, DC:ICMA) 1979; pp. 80, 214-215, & 218-219.
Jermyn, B.D., Response Interval Comparison Between Urban Fire 
    Departments and Ambulance Services,'' Prehospital Emergency Care, 
    Vol.3-1;1999.
Kerber,R.E., Statement on Early Defibrillation from the Emergency 
    Cardiac Care Committee, AHA,'' Circulation, 83:6; 1991.
Kern, Karl B., et al, ``New Guidelines for Cardiopulmonary 
    Resuscitation and Emergency Cardiac Care: Changes in the Management 
    of Cardiac Arrest,'' JAMA, March 14, 2001: Vol. 285, No. 10, pp. 
    1267-1269.
Kimball, Warren Y., Manning for Fire Attack (Boston, MA:NFPA) 1969.
McManis Associates and John T. O'Hagan and Associates, ``Dallas Fire 
    Department Staffing Level Study,'' June 1984; pp. I-2 & II-1 
    through II-7.
Metro Chiefs/International Association of Fire Chiefs, ``Metro Fire 
    Chiefs--Minimum Staffing Position,'' May 1992.
Morrison, Richard C., ``Manning Levels for Engine and Ladder Companies 
    in Small Fire Departments,'' 1990.
National Fire Academy, Executive Development Program III, ``Fire 
    Engines are Becoming Expensive Taxi Cabs: Inadequate Manning,'' 
    February 1981; pp. 2 & 4.
National Fire Protection Association, ``Decision of the Standards 
    Council on the Complaint of M.E. Hines, Texas Commission on Fire 
    Protection, concerning a Formal Interpretation on NFPA 1500, 
    Standard on Fire Department Occupational Safety and Health 
    Program,'' April 6, 1994.
National Fire Protection Association, NFPA 1410 Training Standard on 
    Initial Fire Attack, 2000.
National Fire Protection Association, NFPA 1500 Standard on Fire 
    Department Occupational Safety and Health Program, August 1997.
National Fire Academy, ``Fire Risk Analysis: A Systems Approach,'' 
    student manual, National Emergency Training Center, NFA-SM-FRAS, 
    July 20, 1984.
National Fire Protection Association, NFPA 197 Training Standard on 
    Initial Fire Attack, 1966.
National Institute for Occupational Safety and Health, Health Hazard 
    Evaluation Reports for Sedgwick County, KS, Nos. HETA 90-395-2117 
    and HETA 90-395-212v1, June 1991.
Nevada Occupational Safety and Health Review Board, Administrator of 
    the Division of Occupational Safety & Health v. Clark County Fire 
    Department (Statement of Position and Stipulation), Docket No. 89-
    385, October 1990.
Office of the Fire Marshal of Ontario, ``Fire Ground Staffing and 
    Delivery Systems Within A Comprehensive Fire Safety Effectiveness 
    Model,'' December 3, 1993.
Ohio State University/Columbus Fire Division, ``Measuring Firefighting 
    Effectiveness,'' September 15, 1980.
Onieal, Denis G., ``In Response to the Demand for Fire Department 
    Cutbacks,'' Ed.D, Fire Engineering, August 1993.
Phoenix, AZ Fire Department,'' Fire Department Evaluation System 
    (FIREDAP),'' December 1991; p. 1.
Pell, JP et.al., Effect of Reducing Ambulance Response Times on Deaths 
    From Out of Hospital Cardiac Arrest: Cohort Study, BMJ 
    2001;322:1385-8.
Roberts, Bill, Fire Chief, City of Austin, ``The Austin Fire Department 
    Staffing Study,'' March 1993.
Staffing and Equipping EMS Systems: Rapid Identification and Treatment 
    of Acute Myocardial Infarction. National Institutes of Health, 
    1993; NIH/NHLBI, No 93-3304.
Valenzuela TD, et. al., ``Outcomes of Rapid Defibrillation by Security 
    Officers After Cardiac Arrest in Casinos,'' New England Journal of 
    Medicine, October 26 2000; pp. 1259-60.

    Senator Wyden. Well, Chief, thank you for a very helpful 
statement.
    It is striking. You know, the title of this Subcommittee is 
``Science, Technology, and Space.'' But what I have tried to 
do, and I know Senator Allen has tried to do, is sort of add 
another word to the title--``Science, Technology, Space, and 
People''--because what you have said and what we have tried to 
say is, you can have every conceivable innovation in terms of 
technology and science and at the end of the day it is always 
about people, always about people. I thank you very much for 
hammering home that point.
    We are going to have some questions for you in a moment, 
but you made the case very well. You did the people you 
represent proud, and we appreciate it.
    Mr. Schaitberger. Thank you.
    Senator Wyden. Mr. Buckman, welcome. Why do you not pull 
that microphone close to you so everybody can hear you, and 
please proceed.

      STATEMENT OF CHIEF JOHN M. BUCKMAN III, PRESIDENT, 
            INTERNATIONAL ASSOCIATION OF FIRE CHIEFS

    Mr. Buckman. Good afternoon, Mr. Chairman. Thank you very 
much for the opportunity to speak with you this afternoon about 
the pressing needs of America's fire and emergency services.
    I have done a lot of thinking over the last couple days of 
what I wanted to say and how I wanted to say it. I have to say 
that I think I decided I have to speak from the heart.
    I have been in this business for 31 years. I am Fire Chief 
of the German Township Volunteer Fire Department in Evansville, 
Indiana, and currently President of the International 
Association of Fire Chiefs. I am from middle America--small 
towns, average people. Those people are just as frightened and 
worried as anyone in our Nation. I know I speak for them and 
for all of my colleagues today.
    Congress has a constitutional responsibility to provide for 
the common defense of our people. Having said that, we in the 
fire service know that it is our mission to support you by 
serving as the front line defenders in our communities. We are 
America's first responders, the true homeland defenders, who 
will be there whenever and wherever we are needed, and we will 
be there ahead of everyone else. We are the ones to arrive in 4 
minutes or less. We are the only ones to arrive in 4 minutes or 
less.
    Today I am representing the leadership of more than 31,000 
fire departments in the United States, which includes more than 
1.1 million firefighters, of which 800,000 are volunteers and 
245,000 are career personnel.
    Before turning to the business of this hearing, I want to 
thank the Committee and the Senate, indeed the entire Congress, 
for the support, caring and concern being shown to the members 
of the Nation's fire and emergency services. Thanks especially 
for the consideration being given to the families of the 
heroes, the 344 who died or are missing and the 147 others who 
are missing in New York, and all who responded when summoned to 
the World Trade Center, the Pentagon, and the airliner crash in 
Pennsylvania. We are grateful for your support.
    Mr. Chairman, the Nation's fire chiefs appeared before you 
many times. We have discussed the role of fire and emergency 
service in protecting the Nation's 280 million citizens, 
protecting their homes and their workplaces. We have identified 
the needs of the Nation's fire and rescue services. Please 
remember that these are the only people, they are the only 
people, who are trained, equipped, and sworn to respond 
immediately when our citizens have a problem.
    We respond to protect the critical infrastructure of our 
great country--airports, government facilities, pipelines, 
refineries, power plants, water supply, communications 
facilities, railroads, subways, dams, bridges. We protect it 
all. We protect the Nation's critical infrastructure.
    We appreciate your response to our requests on previous 
occasions. You have supported the fire departments. You have 
enabled us to improve and increase our training, upgrade our 
apparatus and equipment, and to better plan our responses to 
disasters.
    But today, Mr. Chairman, everything has changed. We have 
done much with the resources provided, but there is much to do. 
Again, I am here because we need your help. Without it, I am 
not sure the Nation's fire and emergency service can be as 
successful as our public expects us to be.
    Earlier this year Chief Jack Fanning of the New York City 
Fire Department testified on the role of the fire service in 
responding to terrorism. He said: ``The emphasis must be placed 
upon the most important aspect of the equation, the first 
responder and the first responder teams.'' Chief Fanning also 
said: ``If lives are to be saved and suffering reduced, it will 
be up to them, firefighters and other responders who will be 
there within minutes, some quite possibly becoming victims 
themselves.''
    How prophetic was Jack Fanning, and how sad it is that my 
good friend's 31 years of service ended on September 11th, one 
of 344 heroes, including the city's Fire Chief and much of the 
senior command staff, who responded that fateful day. Chief 
Fanning's testimony ended with these words: ``They will do what 
they have always done, act to protect the public they serve.''
    Knowing this, let us provide them with the tools they need 
to perform their duties safely and effectively. That, Mr. 
Chairman and members of the Subcommittee, is our request today.
    All of us in the fire and emergency services have worked to 
assess the vulnerabilities within our communities and develop 
plans to deal with situations like terrorist attacks. But I do 
not think one of us ever anticipated a concerted effort that 
would topple two of the world's tallest buildings, strike at 
the very nerve center of our national defense, and strike in a 
rural field, that would kill more than 600 people and injure 
another 8500.
    Moreover, there is consensus that our troubles have only 
begun. On the front page of the September 28th edition of the 
Washington Post, this was written: ``At a briefing Tuesday, one 
intelligence official said there is a 100 percent chance of 
attack should the United States strike Afghanistan. Government 
officials are fearful of attacks at any of hundreds or 
thousands of locations within our country, sites that one 
source described as exposed infrastructure.''
    In the new reality, America's fire and emergency services 
must reassess how we prepare, train, equip, respond, and what 
strategy we implement and what tactics we use when we respond 
to terrorist events. This calls for new ways of thinking. It 
requires more highly trained personnel. It means our forces 
have to have new and better equipment. As I said before, Mr. 
Chairman, it requires your help.
    In the printed testimony I submitted for the record I list 
the specific areas of concern that the Nation's fire chiefs 
believe Congress can most effectively address. Let me simply 
summarize them for you here. Our first responders need better 
respiratory protection. We need 75,000 more firefighters. We 
need a more but robust assistance to firefighter program.
    We need to extend high-level search and rescue capability 
and expertise to more local fire departments. We need to 
increase the number of metropolitan medical response systems. 
We need to resolve the radio communications crisis that is 
putting lives at risk and you have heard numerous speakers talk 
about today.
    We need a common system providing rapid access to life-
saving information in transportation emergencies, and we need 
to coordinate our terrorism preparedness programs. We need to 
return to a policy of providing training and equipment grants 
directly to large population centers and in addition funnel 
financial resources to smaller communities throughout the 
States.
    The Nation's fire service must be integrated into the 
Nation's homeland security initiative. The final point is, the 
provisions of the Congressionally mandated Public Safety 
Officer Medal of Valor Act need to be implemented immediately 
in order to appropriately recognize the heroes of September 
11th.
    Finally, Mr. Chairman, President Bush has nominated R. 
David Paulison, Chief of the Miami-Dade Fire and Rescue 
Department, to be the Administrator of the U.S. Fire 
Administration. We at the International Association of Fire 
Chiefs respectfully urge the Committee to move expeditiously in 
the confirmation process.
    I would be pleased to respond to any questions you and 
members of the Subcommittee may have. Thank you.
    [The prepared statement of Chief Buckman follows:]

      Prepared Statement of Chief John M. Buckman III, President,
                International Association of Fire Chiefs

    Good afternoon, Mr. Chairman and members of the Subcommittee. Thank 
you for this opportunity to advise you about the pressing needs of 
America's fire and emergency service. These needs arise out of our 
mandate to be prepared to respond to and mitigate the effects of acts 
of terrorism. These needs must be addressed if our people are to 
function effectively as the front line responders in the nation's new 
army of Homeland Security.
    I am Chief John Buckman, president of the International Association 
of Fire Chiefs and chief of the German Township Volunteer Fire 
Department in Evansville, Indiana.
    I represent the fire chiefs and other senior managers of the more 
than 31,000 fire departments in the United States. Those 31,000 fire 
departments comprise more than 1.1 million fire fighters and emergency 
medical services personnel. Of those 1.1 million emergency service 
workers, more than 800,000 are volunteers and 245,000 are career 
personnel.
    Before turning to the business of this hearing, I want to take a 
minute to say thank you. Thank you to this Committee, and through you 
to the Senate--indeed the entire Congress, for the support, caring and 
concern being shown members of the fire and emergency service and their 
families. Especially the families of the heroes--the 343 who died or 
are missing and the 147 others who were injured in New York, and all 
who responded when summoned to the World Trade Center, the Pentagon in 
Virginia, and the airliner crash in Pennsylvania. We are very grateful.
    Mr. Chairman, the nation's fire chiefs have appeared before this 
Committee and others many times before today. We have discussed the 
role of the fire and emergency service in protecting the nation's 280 
million citizens, their homes and workplaces.
    We have talked about the needs of the nation's fire, rescue, and 
EMS responders who are mandated to protect and to mitigate the effects 
of incidents affecting the nation's critical infrastructure.
    These men and women are the only people in the United States who 
are trained, equipped, and sworn to respond immediately and address 
crises involving airports, government facilities, pipelines, 
refineries, electric power plants, water supply and treatment plants, 
communications facilities, railroads and subways, and dams, bridges and 
waterways.
    And we are grateful for your response to our testimony on previous 
occasions and to our requests for federal assistance. You have enabled 
the nation's fire and emergency service to improve and increase its 
training. You have helped us to upgrade our apparatus and equipment. 
You have assisted us to better plan for our response to acts of 
terrorism. On behalf of the nation's fire chiefs, I say again, thank 
you, thank you very much.
    But today, Mr. Chairman, everything is changed. We have done much 
with the resources provided, but there is much more to do. And we need 
your help to get it done. Without help from Congress and the Executive 
Branch, I am not sure that the nation's fire and emergency service can 
be as successful as everyone will want it to be in the future.
    Earlier this year, Chief Jack Fanning of the New York City Fire 
Department (FDNY) testified in the Senate on the role of the fire 
service in responding to terrorism. Fanning, the officer responsible 
for FDNY's Hazardous Materials Operations, said that in preparing for 
terrorism, ``the emphasis must be placed upon the most important aspect 
of the equation--the first responder and first responder teams.''
    In the 60 minutes or so before the collapse of the World Trade 
Center towers, tens of thousands of people were safely evacuated by the 
New York City Fire Department, whose brave members, assisted by 
courageous police officers and others, worked to rescue thousands still 
trapped by fire and smoke.
    Chief Fanning told the Senate--and I quote from his testimony--``if 
lives are to be saved and suffering reduced it will be up to them to do 
it. At an incident, whatever the scale, fire fighters and other 
responders will be there within minutes, some quite possibly becoming 
victims themselves.''
    How prophetic of Jack Fanning! And how sad it is that my good 
friend's 31 years of service to the people of New York City ended on 
September 11. For he is one of the 343 heroes--including the city's 
fire chief and most of his senior command staff--who responded to their 
last alarm--who died in the act of saving others.
    Chief Fanning's Senate testimony last May ended with these words: 
``They (the first responders) will do what they have always done--act 
to protect the public they serve. Knowing this, let us provide them 
with the tools they need to perform their duties safely and 
effectively.''
    That, Mr. Chairman and members of the Subcommittee, is our request 
today. Please give them ``the tools they need to perform their duties 
safely and effectively.''
    We owe it to the American public. We owe it to Chief Fanning and 
the thousands of other ``first responders'' who worked so hard in the 
minutes, hours, days and weeks following the attacks on ``9-11.''
    As I said a few moments ago, today everything is changed. It wasn't 
long ago that all of us in the fire and emergency service worked to 
assess the vulnerabilities in our communities and develop plans to deal 
with situations like terrorist attacks. I don't think there is one of 
us who ever anticipated a concerted effort that would topple two of the 
world's tallest buildings, strike at the very nerve center of our 
national defense, kill more than 6,000 people, and injure another 
8,500.
    Moreover, there is consensus that our troubles have just begun.
    On the front page of the September 28th edition of the Washington 
Post, the following was included in an article on the threat of more 
terrorist attacks against the United States:

          U.S. intelligence officials have told members of Congress 
        there is a high probability that terrorists associated with 
        Osama bin Laden will try to launch another major attack on 
        American targets here or abroad in the near future.
          Based on what officials described as credible new 
        information, the FBI and the CIA have assessed the chances of a 
        second attempt to attack the United States as very high, 
        sources said yesterday.
          At a briefing Tuesday, in response to a senator's question 
        about the gravity of the threat, one intelligence official said 
        there is a ``100 percent'' chance of an attack should the 
        United States strike Afghanistan, according to sources familiar 
        with the briefing.

            *            *            *            *            *

          ``We have to believe there will be another attempt by a 
        terrorist group to hit us again,'' Sen. Richard C. Shelby 
        (Ala.), ranking Republican on the Senate intelligence 
        committee, said yesterday. ``You can just about bet on it. 
        That's just something you have to believe will happen.''
          Attorney General John Ashcroft warned earlier this week that 
        there is a ``likelihood of additional terrorist activity,'' and 
        that the ``risks go up'' once the United States responds with 
        military action. ``We think that there is a very serious threat 
        of additional problems now,'' Ashcroft said. ``And frankly, as 
        the United States responds, that threat may escalate.''

            *            *            *            *            *

          Government officials are fearful of attacks at any of 
        hundreds or thousands of locations, including symbols of 
        American power and culture, such as government buildings in 
        Washington and centers of entertainment. They are concerned 
        about truck bomb and car bomb explosions that could be 
        detonated near natural gas lines, power plants and other sites 
        that one source described as ``exposed infrastructure.''

    So a new book--the book on how emergency services respond to 
terrorism--has to be written. America's fire and emergency service must 
reassess how we prepare, how we train, how we are equipped, how we 
respond, what strategies we implement, and what tactics we use.
    This calls for new ways of thinking. It requires more highly 
trained personnel. It means our forces have to have new and better 
equipment. And as I said before, Mr. Chairman, it requires your help. 
The help that only Congress and the Executive Branch can provide.
    I am here today to list the specific areas of concern that the 
nation's fire chiefs believe Congress can most effectively address.
1. Respiratory Protection
    There is an urgent need for immediate action by NIOSH to establish 
standards and protocols for the design, testing and manufacture of 
devices to provide respiratory protection for fire, EMS, police and 
other emergency workers who may be exposed to chemical or biological 
agents.
    One of the most basic and essential tools necessary for effective 
emergency response is respiratory protection. The fire service is 
seriously concerned about the lack of appropriate respiratory 
protection for civilian ``first responders'' who may be called upon to 
respond to incidents of terrorism involving chemical or biological 
agents.
    All civilian employers in the United States, including fire 
departments, are required to select and issue NIOSH-approved 
respirators, as appropriate, based on respiratory hazards. OSHA 
regulations under 29 CFR 1910.120 and 1910.134(d)(1) require it.
    And yet, Mr. Chairman, as we sit here this afternoon, there is no 
NIOSH-approved respiratory protection available to civilian public 
safety personnel who may respond to a terrorist incident involving 
chemical or biological agents. Consequently, fire fighters and other 
``first responders''--and these include police officers, emergency 
medical services personnel, and other emergency workers--are completely 
at risk from these types of attacks.
    For more than three years the International Association of Fire 
Chiefs has been urging the National Institute for Occupational Safety 
and Health (NIOSH) at the Department of Health and Human Services to 
make certification of cartridge-type respirators a high priority. The 
need is more urgent than ever before. Action is absolutely necessary.
    Mr. Chairman, here is what we ask: that Congress use its influence 
over NIOSH to promote standards and certification of respiratory 
protection for fire and emergency service personnel to the No. 1 
position on their list of priorities. Considering the possible threats 
that we face, we simply cannot afford further delays.
2. 75,000 Additional Fire Fighters
    The understaffing of fire departments is an issue that must be 
addressed. Whether a department is a career, combination, or volunteer, 
the level of staffing is an immediate issue, especially in the light of 
today's reality. Existing federal programs provide tools for equipment 
and training. No program provides for additional human resources for 
adequate response to terrorism.
    The primary objective of adding 75,000 U.S. fire fighters is 
raising the staffing level of fire departments throughout the country 
to four fire fighters per unit. A four-person response unit will yield 
a 100 percent increase in operational capacity compared with three-
person companies. By federal OSHA law and proper safety practices, fire 
fighters must operate in teams of at least two people. Therefore, fire 
apparatus staffing of four will yield two working teams, doubling the 
capacity of apparatus staffed with three personnel which can only form 
one operational team. Raising staffing levels to four personnel is a 
large undertaking, but it is necessary.
    Limited apparatus staffing reduces a fire department's ability to 
respond to a terrorist event where large amounts of resources are 
needed quickly and in quantity. Early intervention in the consequence 
of a terrorist event will increase the number of lives saved. Fire 
departments respond within three to five minutes and remain in place 
until an incident is resolved. No other consequence management resource 
can respond this quickly.
    Nearly 20,000 fire departments submitted applications this year to 
the Assistance to Firefighters grant program. This gives some 
indication of the pressing need for equipment, training, tools and 
apparatus. There is no comparable program to address the deficit in 
human resources.
3. Assistance To Firefighters Grant Program
    Congress should authorize $5 billion over five years and 
appropriate $600 million for dispersal this year.
    The Assistance to Firefighters program was enacted last year and 
$100 million was appropriated for Fiscal Year 2001. This was the first 
such program of its kind for federal assistance to the fire service. 
Its purpose is to provide for the fundamental tools of fire fighting. 
In its first year, nearly 20,000 fire departments sought support from 
the federal government to upgrade training, personal protective gear, 
apparatus and equipment, and fitness/wellness programs to better enable 
personnel to respond to the all-hazards incidents to which we respond. 
Requests totaling nearly $3 billion were received by FEMA, which gives 
a clear indication of fire service needs.
    The Assistance to Firefighters grant program is vital in our effort 
to support local fire departments. Departments throughout the nation 
face numerous challenges ranging from wildland fire protection, natural 
disaster response, emergency medical response, structural fire 
suppression, hazardous materials response, and response to incidents of 
terrorism. Often, local governments cannot afford the extensive 
training and specialized equipment that these activities require. In 
rural jurisdictions, the need is especially critical. Many rural fire 
departments make emergency runs using trucks that are 30 to 40 years 
old, they use outdated equipment, and struggle to receive adequate 
training.
    The Assistance to Firefighters grant program assists local fire 
departments in many jurisdictions by providing the needed funds to pay 
for such critically needed equipment, apparatus and training.
    Just last week the Senate acted to reauthorize the program. The 
amounts authorized were significantly increased. We urge that Congress 
consider authorizing this program for five years for $5 billion. We 
further urge Congress to appropriate $600 million to fund the program 
for Fiscal Year 2002.
    Mr. Chairman, here is what we ask: that Congress continue its 
support of the fire service through increased appropriations for the 
Assistance to Firefighters program which began one year ago.
4. Urban Search And Rescue/Command Overhead
    There exists a pressing and urgent need to extend high-level search 
and rescue capabilities and expertise to local fire departments across 
the country. At times of significant incidents involving major 
structural collapses and extensive rescue and recovery operations these 
resources will be required.
    In the days immediately following the attacks on September 11, 
2001, many Americans heard for the first time about the Federal 
Emergency Management Agency's ``Urban Search and Rescue'' (USAR) teams. 
There are 28 teams, largely composed of local fire fighters with 
specialized training and equipment and extensive experience that can be 
deployed to major incidents throughout the country.
    In the metropolitan Washington area, for example, there are USAR 
teams in Fairfax County, Virginia, and Montgomery County, Maryland. In 
the event of a major structural collapse--such as occurred in New York 
City, or a few years ago in the San Francisco earthquake--these teams 
or any of the other 26 can be ``activated'' by FEMA. They travel to the 
scene of disasters to perform crucial rescue operations. The current 
USAR structure requires teams to travel long distances, usually on 
military aircraft.
    When several USAR teams deploy, as was the case in New York City 
and at the Pentagon in Arlington County, Virginia, significant areas of 
the country are left vulnerable. Short response times are a critical 
consideration when the lives of people buried beneath rubble are at 
stake.
    The IAFC believes the USAR program should be expanded and upgraded 
by the formation of smaller, more mobile ``USAR Lite'' teams of 
specialists that can be quickly deployed over shorter distances to 
supplement local resources and to enhance the current USAR capability 
and improve USAR response times.
    We believe there also is a need for what we call ``Command Overhead 
Teams.'' It is often the case in prolonged, major incidents that a fire 
department's commanders are fully engaged in addressing the instant 
issues and are hard-pressed to anticipate what might develop and to 
then plan for the future. They would welcome outside assistance. The 
``Command Overhead Teams'' concept involves the creation of small 
groups of three-to-five experienced command officers who can be called 
upon on short notice to provide assistance to local efforts in an 
emergency at the request of a local incident commander.
    Mr. Chairman, we ask this: that Congress authorize and appropriate 
additional funds for FEMA for the creation and integration of Urban 
Search and Rescue ``Lite'' teams, and to develop and implement the 
``Command Overhead Teams'' concept. Both of these programs, if Congress 
turns them into realities, will make a significant contribution to the 
safety and well-being of our citizens.
5. Metropolitan Medical Response System
    Because the nation is critically vulnerable from coast-to-coast and 
border-to-border, the number of Metropolitan Medical Response System 
teams established through the Department of Health and Human Services 
should be significantly increased from the current 97 to 150.
    Several years ago, through its Office of Emergency Preparedness, 
the Department of Health and Human Services established a program for 
enhancing local preparedness through the creation of ``systems'' to 
respond to incidents of terrorism. The program focuses on the health 
and emergency medical aspects of incidents and provides funding for 
pharmaceuticals and personnel protective equipment.
    ``System'' teams are composed of fire fighters, emergency medical 
service personnel and public health officials, who train together and 
are integrated into the overall response plan in the 97 metropolitan 
areas now covered. We believe the citizens of the United States who 
live in smaller metropolitan areas are entitled to enjoy same the type 
of protection as those who live in large cities.
    Mr. Chairman, here is what we ask: We ask Congress to provide 
additional funding to the Department of Health and Human Services, 
along with a request to Secretary Tommy Thompson to increase the number 
of cities and surrounding areas that are now included in the program.
6. Communications
    There is a critical need to integrate advanced communications 
technologies into local emergency responder communications systems, and 
to expand the amount of radio spectrum that is allocated to emergency 
services, to enable better on-scene communications and to facilitate 
seamlessly interoperable radio communications among and between 
emergency response agencies.
    In major incidents where the responding emergency personnel 
involved come from different jurisdictions or agencies, each using its 
own radio frequencies, the issue of radio communications among and 
between responding agencies remains a challenge.
    In fact, it is one of the most serious weaknesses in our emergency 
response system. Yet, it is essential for responding agencies to 
communicate with one another for there to be a well-organized, 
effective response. Command, control and communications are the 
essentials of incident management, and communications is the linchpin.
    There are on the market today a variety of devices that facilitate 
interoperability, but widespread application of these technologies is 
financially prohibitive for many agencies across the country.
    However, the long-term solution lies in radio spectrum allocation. 
Congress should direct the Federal Communications Commission and the 
Department of Defense to provide appropriate spectrum to public safety 
agencies.
    This Committee played a pivotal role in reallocating four digital 
television channels for exclusive use by state and local public safety 
agencies, as provided in the Balanced Budget Act of 1997. Work is 
currently in progress with the Federal Communications Commission to 
establish the operating standards and interoperable criteria for 
eventual use of the frequencies by public safety agencies. Even though 
acceptable progress is being made with standards development, a small 
number of television stations will need to abandon use of these 
frequencies in order for public safety to use this important radio 
spectrum.
    Last year, Congress addressed the issue of allocating a small 
portion of the radio spectrum in the 138--144 MHz range for 
interoperability purposes. That spectrum, which is adjacent to existing 
public safety bands, currently is assigned to the Department of 
Defense. This Committee was largely responsible for this most important 
provision in Section 1705 of Title XVII--``Assistance to 
Firefighters,'' contained in Public Law 106-398.
    The law requires the Secretary of Defense to submit an interim 
progress report by October 30 of this year to the Senate Armed Services 
Committee and the House Armed Services Committee. Then, not later than 
January 1, 2002, the Secretary of Commerce and the Chairman of the 
Federal Communications Commission are to submit a report to Congress on 
alternative frequencies available for use by public safety systems.
    Mr. Chairman, we ask this: that Congress, appropriate funds 
sufficient to provide for the acquisition of communications 
interoperability technology and equipment by fire departments wherever 
it is needed. We have been moving in that direction because Congress 
previously has allocated some monies for that purpose. But more is 
needed.
    We also ask this: that Congress, exercising its oversight 
authority, ensure that these departments and agencies meet their 
respective reporting deadlines so that reallocation of frequencies for 
public safety use can be expedited.
7. Hazardous Materials
    Fire departments nationwide need rapid access to life-saving 
information about hazardous materials cargoes being transported by rail 
and truck when responding to transportation incidents involving 
hazardous materials and rail passenger accidents.
    Response to incidents involving hazardous materials is largely a 
fire department responsibility. The Operation Respond Institute (ORI), 
a non-profit organization, in cooperation with the freight industry, 
has developed computer software that provides rapid access to life-
saving information to fire departments responding to transportation 
incidents involving hazardous materials and rail passenger accidents.
    Mr. Chairman, we ask this: that Congress authorize and fund a 
program that will supplement industry's commitment to safety by making 
possible the distribution of ORI's software to all public safety 
emergency operations centers. Further, a $10 million authorization over 
five years would significantly contribute to both fire fighter and the 
public's safety by assuring continued research and development in this 
important public/private partnership.
8. Coordination of Terrorism Preparedness Programs
    Certifying the Office of National Preparedness within FEMA would 
significantly improve federal, state and local agencies' efforts to 
coordinate in planning and preparedness.
    Federal efforts to help prepare local ``first responders'' for 
incidents of terrorism that may involve chemical or biological agents 
began with the Nunn-Lugar-Domenici amendment to the 1997 Defense 
Authorization Act. It directed the Department of Defense to begin 
training and equipping local fire fighters and police to deal with 
incidents of terrorism involving chemical/biological agents. Similar 
programs have since been authorized by Congress, bringing the 
Departments of Justice, Health and Human Services, FEMA and other 
federal agencies into the effort.
    Without doubt we have made progress, but preparedness efforts need 
to be more clearly focused. We have testified in the past about the 
need for a single, national strategy to guide us moving forward. We 
also have pointed to the lack of that universally accepted planning 
tool: goal setting. Without clearly defined, measurable preparedness 
goals, it is difficult to measure progress.
    Legislation introduced by Sen. Bob Smith, S. 1453, the Preparedness 
Against Terrorism Act, 2001, speaks to these issues. This legislation 
would codify the Office of National Preparedness (ONP) at the Federal 
Emergency Management Agency, created at President Bush's direction in 
May of this year. The ONP would serve as a single point-of-contact for 
state and local public safety agencies. The legislation also creates a 
``President's Council'' to guide the ONP in developing a national 
strategy that includes measurable preparedness goals. Attached to this 
testimony is the Strategy developed by the IAFC to advance this 
preparedness concept.
    The executive director of the ONP, as envisioned in the bill, would 
be charged with reviewing all federal training and response programs, 
to ensure that each of the many programs, spread across myriad federal 
agencies, adheres to criteria developed by the ``President's Council'' 
to ensure consistency with our national strategy.
    The IAFC applauds this legislation. It has the support of America's 
first responders and represents a crucial step in the right direction.
    It is a logical extension of FEMA's responsibilities for disaster 
response. We believe it is consistent with President Bush's public 
announcement in May concerning the organization and management of 
federal terrorism response programs and his creation of the Office of 
Homeland Security. Mr. Chairman, we ask that the Senate make whatever 
modifications may be necessary to S. 1453 with respect to Governor 
Ridge's new Homeland Security office and act quickly to approve this 
legislation.
9. Additional Grant and Training Programs
    Congress should increase funding for initiatives designed to assist 
fire departments with training and equipment acquisition, and return to 
the FY 1999 approach that directly provided assistance for our most 
populous communities while simultaneously requiring state-plans 
addressing the needs of communities beyond the 157 largest.
    Originally authorized by the Antiterrorism and Effective Death 
Penalty Act of 1996, the Office of Justice Programs at the Department 
of Justice administers a training consortium and an equipment 
acquisition program designed to assist ``state and local'' first 
responders' preparedness efforts. Many of the training opportunities 
have proved beneficial and we encourage that Congress continue to 
provide for them.
    In fiscal year 1998, the Department of Justice began a grant 
program that provided direct assistance to local governments in the 
form of cash grants designated for the purchase of communications, 
personal protective and detection equipment that would be employed in a 
non-traditional terrorist incident, one involving chemical or 
biological agents. The largest 120 jurisdictions were encouraged to 
submit competitive applications.
    In fiscal year 1999, Congress chose an approach that, in addition 
to providing direct grants to an additional 37 jurisdictions, directed 
funding to each of the 50 states to provide for communities beyond the 
157 most populated. That approach made sense to the fire service and we 
support it.
    However, in FY 2000 and beyond, Congress directed the Department of 
Justice to cease direct aid to our country's most densely populated 
communities and instead chose to funnel all available equipment 
purchase funds through the states. The intent of Congress, as we 
understood it, was for each state to develop a plan that provided for 
the distribution of funds, subject to an 80 percent ``pass-through'' 
requirement to local communities, based on need.
    Mr. Chairman, Congress provided funding and direction to the states 
for this purpose in federal fiscal year 1999. We are today nearly a 
month into federal fiscal year 2002. We are aware of fewer than ten 
states that have completed and submitted to the Justice Department the 
plans that Congress specified. There are currently tens, if not 
hundreds, of millions of dollars bottled up at the Justice Department 
because the states have not acted.
    In speaking with several of my colleagues, I am aware that several 
states began their assessment and planning process only after the 
events of September 11.
    Mr. Chairman, we call upon Congress to do whatever it takes to free 
sums that have already been appropriated by law for the purpose of 
enhancing the capabilities of local responders. We believe that the 
bottleneck can be addressed by an immediate release of funds to the 
states, provided, that this is done under the strict supervision of the 
Office of Justice Programs to ensure that the intent of Congress is 
met.
    Mr. Chairman, we also ask that Congress return to the fiscal year 
1999 approach that directly provided for our most populous communities 
while simultaneously requiring state-plans addressing the needs of 
communities beyond the 157 largest. Regardless of anyone's 
philosophical view of the relationship between local, state and federal 
government, it is simply the right thing to do if we are to enhance our 
ability to protect as many citizens as possible.
10. Homeland Security
    The nation's fire and emergency service must be integrated as a 
major partner into the nation's Homeland Security initiative.
    President Bush has established the Office of Homeland Security and 
appointed former Governor Tom Ridge to head the new organization. The 
Secretary of Defense has designated the Secretary of the Army to lead 
the Department of Defense's homeland security effort. These 
appointments underscore the need to manage and closely coordinate the 
federal government's counter-terrorism activities.
    But Homeland Security is so much more than the federal government. 
America's fire and emergency service, which will respond immediately 
and locally to any terrorist incident, is a key element in homeland 
security. The fire and emergency service looks forward to a close 
working partnership with the leadership of these initiatives.
    Mr. Chairman, we ask this: that Congress, through oversight and 
enabling legislation, act to ensure that the nation's fire and 
emergency service is accorded a strong role in the development of 
federal policies and plans relative to the fire service and other local 
first responders.
11. Medal of Valor
    Immediate action is required to implement the provisions of the 
congressionally mandated Public Safety Officer Medal of Valor Act in 
order the recognize the 9-11 heroes.
    Mr. Chairman, at the outset I stated that we are here today to ask 
for critical actions by Congress. This one is the one that gives rise 
simultaneously to sadness and the great satisfaction. Because it deals 
expressly with the men and women who serve so valiantly, so selflessly, 
in the nation's public safety services.
    In May, President Bush signed into law the Public Safety Officer 
Medal of Valor Act. The law establishes a medal that the president may 
award and present in the name of Congress to deserving recipients.
    The law provides for a Medal of Valor Review Board, the majority of 
which are to be appointed by the leadership of the Senate and House of 
Representatives. Members of that review board have not yet been named.
    And so, Mr. Chairman, today we ask this: that steps be taken 
immediately to expedite these appointments so that appropriate 
recognition can be bestowed upon those whose lives were abruptly ended 
in the many acts of extraordinary valor, above and beyond the call of 
duty.
Conclusion
    Finally, Mr. Chairman, I want to note that President Bush has 
nominated R. David Paulison, Chief of the Miami-Dade Fire and Rescue 
Department in Florida, to be Administrator of the United States Fire 
Administration.
    Chief Paulison is a past president of the International Association 
of Fire Chiefs and he has served the citizens of the Miami-Dade County 
area of Florida for 30 years. He has the strong support and confidence 
of the nation's fire service. When the nomination is submitted, we 
respectfully urge the Committee to move swiftly in the process for 
Senate confirmation of Chief Paulison.
    The International Association of Fire Chiefs very much appreciates 
the opportunity to appear before you today and to share our views with 
you on the urgent needs to better prepare America's fire and emergency 
service to deal with act of terrorism in this country.
    We are the front-line troops in the new army of homeland security.
    Thank you.
Strategy Outline For Domestic Preparedness
A Preparedness Strategy for Terrorism First Responders
    This Preparedness Strategy for first responders to incidents of 
terrorism by necessity addresses federal, state and local involvement 
and interaction in preparing for and in responding to terrorist 
incidents. The Strategy envisions utilization of in-place teams like 
Urban Search and Rescue Task Forces, National Guard Civil Support Teams 
(formerly RAID), Metropolitan Medical Response Systems, National 
Medical Response Teams, and military units as providing important, 
secondary strength and expertise to local first responders. 
Furthermore, the establishment of a single point of contact for 
coordination of domestic preparedness programs is given a pivotal role 
at the federal level in this Strategy.
    This Preparedness Strategy for first responders will focus on the 
needs of fire service and emergency medical first responders who 
together must intervene swiftly and safely if lives are to be saved 
following a terrorist act involving Weapons of Mass Destruction. Local 
law enforcement agencies also play a key first responder role to 
terrorist incidents so the local law enforcement component of a 
comprehensive strategy should be prepared by them to assure their 
specific preparedness needs are addressed.
    So far, the federal government has taken a lead role in domestic 
preparedness for terrorism. Yet, given the expanse of the United 
States, with population centers scattered across the nation, the 
specifics of this Strategy, if followed, will ensure a more methodical 
achievement of local terrorism response preparedness benefiting larger 
areas of the country.
    This Strategy addresses training, command, control, communication, 
equipment, procedures and performance capabilities while specifying the 
role of the Federal Terrorism Coordinator, yet to be established, and 
state governments in implementing the Strategy. This Strategy also 
builds upon what federal, state and local capabilities are already in 
place so that every additional dollar invested in domestic preparedness 
for terrorism expands current readiness.
Building Upon Current Readiness
    This Strategy for terrorism first responders builds upon what is 
currently in place and would put the greater share of federal 
assistance into those geographical areas most ready to meet certain 
terrorism response capabilities. As a point of reference, the current 
28 Urban Search and Rescue Teams form a ready force of regional 
response capability to terrorism incidents where the primary need is 
heavy rescue. Likewise, the Metropolitan Medical Response Systems and 
National Guard Civil Support Teams add to an existing network of 
response systems available around the country.
    The Strategy envisions the national Urban Search and Rescue Task 
Forces, the Metropolitan Medical Response Systems and the National 
Guard Civil Support teams all serving as strong secondary backup to 
local first responders. However, this Strategy draws attention to the 
need for a more methodical approach to future federal assistance that 
uses criteria and sets priorities based on local performance capability 
objectives, and enhancing current readiness levels. If adopted, the 
Strategy will build upon what national, regional and local response 
readiness is in place by awarding future grant funds to those local 
jurisdictions which are most near completion in preparedness for 
terrorism response. If followed, the Strategy will quickly result in a 
growing number of local jurisdictions becoming fully prepared rather 
than an increasing number of local first responders getting only enough 
funds to begin the readiness process. This Strategy constitutes the 
next logical step in a methodical approach to expanding local first 
responder preparedness for domestic terrorism.
    The current national preparedness effort, though useful, has 
overlooked the universally accepted planning concept of goal setting. 
The lack of clearly defined preparedness goals should be addressed 
through the development of performance capability objectives that, once 
met through the rational employment of local, state and federal assets, 
define the end-game, or goal: adequate preparedness.
    As presented below, this Strategy capitalizes on advancements made 
and fills existing gaps in readiness at the local level. Population 
criteria and risk assessment, used previously, still play a prominent 
role as they should. As proposed by Congress, distribution of grant 
funds through the states is appropriate, provided there is a clearly 
established ``pass through'' provision which will be followed and 
monitored. This Strategy provides such pass through requirements and is 
recommended for use by both the federal government and the states in 
qualifying and evaluating grant requests. The Strategy is a reasonable, 
methodical tool for federal officials to ensure federal assistance 
reaches local entities that will further the national network of 
readiness preparation for terrorism. It is a necessary requirement for 
federal officials to ensure assistance reaches the intended local 
government entities and adherence to this Strategy will accomplish this 
requirement.
The Strategy Outlined
Current Regional Strengths (nationwide)
  <bullet>  28 Urban Search & Rescue Teams (USAR)
  <bullet>  72 Metropolitan Response Systems (MMRS)
  <bullet>  10 National Guard Civil Support Teams (additional 23 Teams 
        authorized by Congress)
Federal Initiatives
  <bullet>  Training--With expert advice from appropriate federal, 
        state and local agencies, provide adequate funding for the 
        development, publication and distribution of a comprehensive 
        guide to fire and emergency medical first responders that 
        addresses proper equipment, procedures, and personnel 
        protection necessary to handle WMD incidents and 
        decontamination of victims. The guide should be distributed to 
        all fire departments and will be a prerequisite training 
        requirement for federal assistance in Fiscal Year 2002 and 
        beyond.

    Would cover:

   --Basic awareness
   --Basic steps in achieving preparedness for WMD
   --First responder performance objectives for preparedness
   --Proper protective measures
   --NBC agents and substances
   --Signs, symptoms and prescribed treatment
   --Decontamination procedures
   --Detection equipment
   --Incident Command System--unified command (providing for the 
        inclusion of federal assets)
    <bullet>  Federal and/or state agencies allocate funding to local 
            jurisdictions which adhere to this Strategy.
    <bullet>  Grant funding to be competitive, based on local 
            capabilities and characteristics.
    <bullet>  Funding to enhance existing readiness levels so local 
            jurisdictional fire and EMS first responders are trained 
            and able to fulfill these performance capabilities:
   --Implement command and control using the standard Incident Command 
        System
   --Communicate with other responding agencies via interoperable 
        radios and/or mobile interconnect systems
   --Detect and identify CBRN agents using equipment off Standardized 
        Equipment List
   --Protect first responders operating in or near such environment
   --Decontaminate a suitable number of non-ambulatory and ambulatory 
        victims using proper procedures, equipment and personnel
   --Protect local hospital emergency rooms from contaminated 
        convergent victims (external decontamination at hospitals)
Local Jurisdiction Criteria for State/Federal Assistance
  <bullet>  Must apply for funding from appropriate federal or state 
        agency
  <bullet>  Must demonstrate outreach efforts to local, state and 
        federal fire, EMS, law and health representatives, through 
        interagency preparedness and response planning and mutual aid 
        agreements
  <bullet>  Must demonstrate adoption of standard ICS
  <bullet>  Must use Standardized Equipment List
  <bullet>  Must have ready access to a certified hazardous materials 
        response team capable of level A entry with back up team 
        available
  <bullet>  Must submit grant request that:
     --States current training, equipment and response capability
     --Describes regional service readiness
     --Specifies needs and funding required to achieve domestic 
            preparedness ``performance capability'' specified above
     --Spells out how local jurisdiction will carry out response, 
            detection, identification of personnel protection, 
            decontamination, pre-hospital care and transportation of 
            victims to medical facilities
     --Details how regional MMRS, Civil Support Teams, US&R teams and 
            federal assets would be accessed and under what 
            circumstances
  <bullet>  Must certify that above-cited Comprehensive Guide for First 
        Responders, developed in concert with appropriate federal 
        agencies, is being used locally
Conclusion
    Efforts undertaken by federal, state and local government have 
resulted in progress. However, until a national strategy, such as that 
outlined above, is put in place, it will be exceedingly difficult to 
quantify the level of preparedness reached by our collective national 
response mechanism. Clearly defined goals that incorporate the 
differing capabilities and assets currently maintained by various 
levels of government must be developed and pursued.
    This Strategy flows from a local fire service perspective and is 
based upon the concept of building upon existing response mechanisms. 
Such a Strategy has value because it builds upon what is in place, 
permits establishment of goals and provides an achievable pathway 
towards domestic preparedness. Further, it allows innovation at all 
levels of government that will lead to a more comprehensive approach to 
domestic preparedness.

    Senator Wyden. Chief, thank you. We will have some 
questions in a moment.
    Chief Ingram, welcome.

         STATEMENT OF ROBERT INGRAM, BATTALION CHIEF, 
                CITY OF NEW YORK FIRE DEPARTMENT

    Mr. Ingram. Thank you, Mr. Chairman, Senator. I am a 
Battalion Chief in the New York City Fire Department and 
Executive Officer of the Hazardous Materials Operations Unit. I 
am also a member of the NFPA Committee on Hazardous Materials, 
also a member of the Department of Defense and Department of 
Justice Inter-Agency Board for Standardization of Equipment in 
Response to Terrorism.
    I mention those two agencies as an example where the needs 
of first responders are brought out and addressed by 
representatives of the Federal, State and local agencies as 
well as private concerns, and it may be an area where you can 
look to further advice for technology needs.
    I appreciate the opportunity to speak to you today on the 
needs of the fire service in the efforts to respond to 
terrorism. I also have to take a moment just to comment on your 
responses before on the issues of funding for the fire service. 
I appreciate them, I look forward to you following through on 
those, and I thank you for them.
    Sadly, the discussion on this topic has moved from the 
theoretical to the practical. Before September 11th we never 
conceived of the possibility of such a horrific act or such a 
tragic consequence.
    The New York City Fire Department is now faced with not 
only a tragic personal toll, the devastating loss of 344 
members, the trauma for our families, leaving more than 1,000 
children fatherless, but also the loss of a knowledgeable, 
experienced group of leaders. We lost some of our most 
experienced chiefs as well as some of our most seasoned 
firefighters in this event. More than 90 members of our Special 
Operations Command, which includes our elite rescue and hazmat 
units, were lost. Chief Ray Downing, the premier collapse 
expert in the country, was taken. My dear friend and colleague 
Chief Jack Fanning, a noted expert who has testified on the 
very issue we are discussing today, is among the missing.
    We will have to rebuild the department and will have to 
make adjustments, both in the short and long term, to replicate 
their expertise. We have pledged to do so with our fallen 
comrades in mind. We owe it to them to do it in a way that 
preserves the legacy of professionalism and dedication they 
established. It is a debt we will gladly pay.
    The attack that occurred on September 11th is almost 
impossible to understand. The response is not. Hundreds of 
firefighters, police officers, and emergency medical 
professionals rushed to the World Trade Center with one thing 
in mind--to save lives. These were men and women who dedicated 
themselves to the service of others and wound up paying the 
ultimate price. They were the best trained, best equipped, and 
most competent response force ever dispatched, and before the 
day was over they effected the most successful rescue in 
history, safely evacuating more than 25,000 people from the 
World Trade Complex prior to the collapse of the towers.
    In the wake of the World Trade Center attack, the FDNY will 
continue to expand training efforts and the use of new 
strategies and technologies to not only help us recover from 
the tragic events of that day, but to further protect 
firefighters, EMS personnel, and citizens.
    I am thankful for the opportunity to appear before you 
today to ask for any assistance you can give us in reaching 
these goals. The FDNY has both short-term and long-term needs 
we are working to address. One immediate need is to train a new 
group of firefighters to operate engines, ladder trucks, and 
other emergency vehicles. Nearly 150 of our trained drivers 
were lost on September 11th. While we are more than adequately 
fulfilling our day to day responsibilities, we must expedite 
the training of replacement drivers to bolster our ranks. To do 
so, the department is seeking to purchase specially designed 
training simulators that recreate the experience of operating 
these powerful and complicated vehicles.
    A second short-term priority is to enhance our response to 
terrorism with additional training for firefighters in the 
handling of hazardous materials and other emergency procedures. 
Municipal fire departments can find the instructors to teach 
these skills, but often struggle to find the funds to enroll 
firefighters and officers in such programs or to replace them 
so their daily duties can be covered while they are away from 
the job.
    A related and equally important initiative is to provide 
protective clothing, respirators and equipment used to detect 
hazardous materials, not only to our specially trained hazmat 
teams as we do now, but also to other emergency units who are 
likely to arrive at the scene first.
    A somewhat longer term, yet no less important, project for 
the FDNY and other emergency services is employing technology 
to improve the safety of their members and the public. We must 
continue to explore technological solutions that maximize our 
ability to protect our members regardless of the situations 
they face. Much like our successful experience broadening the 
use of thermal imaging cameras, we should explore 
communications solutions that are applicable in a variety of 
settings. Building in additional redundancy, diverse routing, 
and flexibility within our communications and IT solutions is 
just one example. We need to look at every phase of our 
operation and be ready to take advantage of new technology, 
whether it is in the training, fire suppression, rescue, or 
recovery phase of our operations. Examples run the gamut from 
the use of satellite phones for communications to vehicle or 
personal tracking systems to monitor the movements of equipment 
and personnel.
    Finally, we would urge stepped-up efforts to monitor and 
analyze the nature of emergency medical calls on a regional 
basis. The FDNY and New York City Department of Health work 
closely to track the types of calls our EMT's and paramedics 
respond to, in hopes of spotting health trends. With better 
coordination of these efforts between towns and cities in the 
same region, we might strengthen our national early warning 
system to spot potential health emergencies.
    In addition to the issues I have brought to you today, I 
implore you to revisit the testimony that Chief Fanning gave in 
May on behalf of the FDNY and the International Association of 
Fire Chiefs that also addresses first responder needs. I would 
be happy to make this testimony available to you.
    In closing, I am reminded of the words of our Chief of 
Department Peter Ganci, who lost his life commanding the 
incident at the Trade Center. At a memorial service 2 years 
ago, Chief Ganci said: ``In our department, at all ranks we 
contribute and at all ranks we are vulnerable.'' Both our 
contributions and our vulnerabilities were on display September 
11th. We lost members from every rank, but at the same time 
witnessed heroism and courage that knew no bounds. As the 
nature of our world changes, we must ensure that the latest 
training, equipment, and other resources are available for any 
eventuality.
    Thank you for your time.
    [The prepared statement of Chief Ingram follows:]

         Prepared Statement of Robert Ingram, Battalion Chief, 
                    City of New York Fire Department

    Good Afternoon,
    My name is Robert Ingram. I am a Battalion Chief in the New York 
City Fire Department and Executive Officer of Hazardous Material 
Operations. I was recently asked to chair a National Fire Protection 
Association Sub-Committee on Terrorism. I appreciate the opportunity to 
speak to you today on the needs of the fire service in its efforts to 
respond to terrorism.
    Sadly, the discussion on this topic has moved from the theoretical 
to the practical. Before September 11th, we never conceived of the 
possibility of such a horrific act or such a tragic consequence. The 
New York City Fire Department is now faced with not only a tragic 
personal toll (the devastating loss of 343 members) and the trauma for 
our families (more than 1000 children left fatherless) but also the 
loss of a knowledgeable, experienced group of leaders.
    We lost some of our most experienced Chiefs as well as some of our 
most seasoned firefighters in this event. More than 90 members of our 
Special Operations Command, including our elite rescue and hazmat units 
were lost. Chief Ray Downey, the premiere collapse expert in the 
country was taken. My dear friend and colleague, Chief Jack Fanning, a 
noted expert who has testified on the very issue we are discussing 
today is among the missing.
    We will have to rebuild the department and will have to make 
adjustments both in the short and long term to replicate their 
expertise. We have pledged to do so with our fallen comrades in mind. 
We owe it to them to do it in a way that preserves the legacy of 
professionalism and dedication they established. It is a debt we gladly 
pay.
    The attack that occurred on September 11th is almost impossible to 
understand. The response is not. Hundreds of firefighters, police 
officers, and emergency medical professionals rushed to the World Trade 
Center with one thing in mind--to save lives. These were men and women 
who dedicated themselves to the service of others and wound up paying 
the ultimate price. They were the best trained, best equipped and most 
competent response force ever dispatched and before the day was over 
they effected the most successful rescue in history, safely evacuating 
more than 25,000 people from the World Trade complex prior to the 
collapse of the towers.
    In the wake the World Trade Center attack, the FDNY will continue 
to expand training efforts and the use of new strategies and 
technologies to not only help us recover from the tragic events of that 
day but to further protect firefighters, EMS personnel and citizens.
    I am thankful for the opportunity to appear before you today to ask 
for any assistance you can give us in reaching these goals. The FDNY 
has both short-term and long-term needs we are working to address.
    One immediate need is to train a new group of firefighters to 
operate engines, ladder trucks and other emergency vehicles. Nearly 150 
of these trained drivers were lost on September 11th.
    While we are more than adequately fulfilling our day-to-day 
responsibilities, we must expedite the training of replacement drivers 
to bolster our ranks. To do so, the Department is seeking to purchase 
specially designed driving simulators that recreate the experience of 
operating these powerful and complicated vehicles.
    A second short-term priority is to enhance our response to 
terrorism with additional training for firefighters in the handling of 
hazardous materials and other emergency procedures. Municipal fire 
departments can find the instructors to teach these skills but often 
struggle to find the funds to enroll fire fighters and officers in such 
programs or to replace them so their daily duties can be covered while 
they are away from the job.
    A related and equally important initiative is to provide protective 
clothing, respirators and equipment used to detect hazardous materials 
not only to our specially trained HAZMAT teams--as we do now--but also 
to other emergency units who are likely to arrive at the scene first.
    A somewhat longer-term yet no less important project for the FDNY 
and other emergency services is employing technology to improve the 
safety of their members and the public.
    We must continue to explore technological solutions that maximize 
our ability to protect our members regardless of the situations they 
face. Much like our successful experience broadening the use of thermal 
imaging cameras, we should explore communications solutions that are 
applicable in a variety of settings. Building in additional redundancy, 
diverse routing and flexibility within our communications and IT 
solutions is just one example.
    We need to look at every phase of our operation and be ready to 
take advantage of new technology whether it's in the training, fire 
suppression, rescue or recovery phase of our operations. Examples run 
the gamut from the use of satellite phones for communications to 
vehicle or personal tracking systems to monitor the movements of 
equipment and personnel.
    Finally, we'd urge stepped up efforts to monitor and analyze the 
nature of emergency medical calls on a regional basis. The FDNY and New 
York City Department of Health work closely to track the types of calls 
our EMTs and Paramedics respond to in hopes of spotting health trends. 
With better coordination of these efforts between towns and cities in 
the same region, we might strengthen our national early warning system 
to spot potential health emergencies.
    In addition to the issues I have brought to you today, implore you 
to revisit the testimony that Chief Fanning gave in May on behalf of 
the FDNY and the International Association of Fire Chiefs that also 
addresses first responder needs. I would be happy to make this 
testimony available to you
    In closing, I am reminded of the words of our Chief of Department 
Peter Ganci who lost his life commanding the incident at the Trade 
Center. At a memorial service two years ago Chief Ganci said, ``In our 
Department, at all ranks we contribute and at all ranks we're 
vulnerable.''
    Both our contributions and vulnerabilities were on display on 
September 11th.
    We lost members from every rank, but at the same time witnessed 
heroism and courage that knew no bounds. As the nature of our world 
changes, we must insure that the latest training, equipment and other 
resources are available for any eventuality.
    Thank you for your time.

    Senator Wyden. Well, thank you, Chief. It is hard to find 
words that would do justice to what you and the members of your 
department must be going through right now, the families and 
the loved ones. Just know that on this side of the dais we are 
going to do everything we can to try to give you the tools as 
you go about this exercise of rebuilding and dealing with the 
consequences of what happened. We are just real glad you are 
here today.
    Mr. Ingram. Thank you very much.
    Senator Wyden. Chief Plaugher, welcome.

            STATEMENT OF EDWARD P. PLAUGHER, CHIEF, 
                ARLINGTON COUNTY FIRE DEPARTMENT

    Mr. Plaugher. Mr. Chairman, Senator Allen: Thank you for 
holding this hearing and thank you for an opportunity to appear 
before you. I have also submitted prepared remarks for the 
record and thank you very much for agreeing to enter them into 
the record.
    Before I begin my remarks, I would like to just take a 
moment and express my deepest sympathies to the members of the 
New York City Fire Department in their loss. I can only--I 
cannot begin to imagine what is going through that department, 
with the loss of life and their leadership, suffering the way 
they have. So, Chief, my deepest regrets.
    I will move away from my prepared remarks and just try to 
hit some of the highlights here. I will start with this: I very 
emphatically tell this Committee and members of Congress that 
the needs of the fire service are great. First, we need to 
continue our all-hazards planning process. We need to 
understand that we must pursue as diligently as we possibly can 
this all-hazards approach to planning that will allow us to 
provide the very best possible preparation for any event, 
whether it involves an explosive, a chemical or biological 
agent, a radiological material, or any combination thereof.
    Second, the fire service, we are aware that there is a 
national threat warning system that allows for rapid 
dissemination of information to law enforcement agencies across 
this Nation. Our fire service must also be made part of this 
system. Information that is relevant to the likelihood of an 
event must be disseminated to local fire departments as well as 
to local law enforcement agencies. There should be no surprise 
attacks to our fire service.
    We have also heard earlier today the issue of 
communications and about interoperability. It has been a 
longstanding challenge the our public safety community. This 
challenge must end. It must be fixed. The ability to 
communicate effectively in any incident is paramount and is 
paramount to the effective mitigation of that incident.
    There is a national solution available. That is the 
allocation of radio spectrum. Do it. Congress must address this 
issue through provisions of this effective spectrums and do it 
now.
    We also have heard earlier, Senator Allen mentioned Cap-
WIN. Cap-WIN is a demonstration project that is a collaborative 
effort between public safety and the transportation departments 
of Virginia, Maryland, and the District of Columbia. We are 
working with our universities--the University of Virginia, the 
University of Maryland. If fully implemented, Cap-WIN would 
provide data sharing capability that would allow for all public 
safety agencies in the Washington metropolitan area to 
communicate without clogging the available radio frequencies.
    Cap-WIN will also enhance our personnel availability system 
by tracking operational duty assignments that can be 
transmitted prior to the arrival of the responders 
electronically. It is technologically capable.
    My next issue that I would like to address to this 
Committee is that of training. The management training provided 
by the National Fire Academy is excellent. However, we have 
learned over the last several decades that when the fire 
service is given a responsibility, such as emergency medical 
services or hazardous materials, that local training was needed 
to be successful. We need to make sure that we have the 
necessary resources to take that model and continue to work 
forward on this issue of transportation.
    Staffing. It goes without a doubt that staffing should be 
of the highest priority and that the Committee, you as a 
Committee, need to understand that in most jurisdictions most 
fire departments are staffed by three or fewer fire persons. We 
need the individuals on the units responding in the first few 
minutes of the incident in order to be successful. Several of 
my engines in Arlington County are three-person staffed. That 
means that when they arrive at an incident scene, because of 
our requirement to work as pairs, that they can only be 
effective as one team.
    However, with the addition of an additional firefighter, I 
would have two separate search and rescue teams. It can make a 
difference in an incident such as at the Pentagon.
    I would like to conclude my testimony with what we in the 
fire service have told Congress for years: When incidents of 
terrorism occur, we will respond to protect our communities. 
How well we are prepared will correlate directly with the 
number of lives that we are able to save and the amount of 
property damage that we will mitigate.
    Again, thank you for allowing me to be here this afternoon. 
I would also be happy to answer any questions you might have.
    [The prepared statement of Chief Plaugher follows:]

           Prepared Statement of Edward P. Plaugher, Chief, 
                    Arlington County Fire Department

    I am Chief Edward Plaugher of the Arlington County, Virginia, Fire 
Department. I would like to begin by thanking the Committee for 
convening this hearing and for including Arlington County.
    The stunning and tragic events of September the eleventh have 
starkly illustrated the role of the fire and emergency service in 
responding to and mitigating incidents of terrorism. For the past five 
years, fire chiefs have testified before the Congress on what we knew 
would be inevitable, that if lives were to be saved in a terrorist 
incident, local public safety agencies, particularly fire departments, 
would be responsible.
    The needs of the fire service in responding to terrorist incidents 
are significant. I will focus my testimony on several issues.
    First is the need for all-hazard planning and preparation. This 
concept is simple. It is based upon the principle that we will almost 
never know the exact circumstances that will lead to a crisis. In the 
years I have been involved at the local, state and federal levels with 
respect to the terrorism preparedness issue, I had never heard of a 
scenario like the one that played out September 11th. With specific 
risk hazards in mind, we must pursue an all hazards approach to 
planning that will allow us the best possible preparation for any 
event, whether it involves explosives, chemical or biological agents, 
radiological materials or any combination thereof.
    Second, we are aware of a National Threat and Warning System that 
allows for the rapid dissemination of information to law enforcement 
agencies across the country. The fire service must be made part of this 
system. Our role in responding to these incidents has been 
demonstrated. Information relevant to the likelihood of an event must 
be disseminated to local fire departments as well as law enforcement 
agencies. We need to eliminate, to the extent possible, the element of 
surprise.
    The issue of communications interoperability has been a long-
standing challenge to the public safety community. The ability to 
communicate effectively in a terrorist incident is paramount to an 
effective mitigation effort. On September 11th, with so many agencies 
responding to the Pentagon, we had to provide fire fighters from 
surrounding jurisdictions hand-held radio's that allowed them to 
communicate with us and with each other. The frequencies under which 
their own equipment operated were all different.
    Thus, fire fighters were forced to use communications equipment 
that they had never operated before or even seen. We simply did not 
have sufficient hardware to provide to all responders and focused on 
those who were at most risk in forward operations. The rest relied upon 
the communications technology perfected by the ancient Greeks: runners 
carrying messages.
    The national solution to this problem lies in the allocation of 
radio spectrum. Congress should address this issue through the 
provision of appropriate radio spectrum to public safety agencies.
    An initiative underway locally, in the Washington Metropolitan 
area, called the Capitol Wireless Integrated Network (Cap-WIN) program, 
would go a long way towards providing interoperability within our 
nation's capitol region.
    The Cap-WIN program is the result of a collaborative effort 
involving the state transportation departments of both Virginia and 
Maryland, in consultation with the University of Virginia, Virginia 
Tech and the University of Maryland. If fully implemented, the Cap-WIN 
program would provide an interoperable data sharing capability that 
would allow all public safety agencies in the Washington Metro area to 
communicate without clogging available radio frequencies.
    I believe that Cap-WIN can also enhance our personnel 
accountability system by tracking operational duty assignments that can 
be transmitted to arriving responders electronically. This will 
facilitate our long-term goal of tracking all responders, from all 
agencies, to ensure their safety.
    The issues of training and equipping the fire service to cope with 
incidents of terrorism are paramount. Management training provided by 
the National Fire Academy is excellent. However, in decades past the 
fire service was given responsibility first for emergency medical 
services and then hazardous materials response. We found that training 
that was locally available was the most effective. Programs that 
provide operational and technical training in terrorism response ought 
to be provided locally to the extent possible. This means enhancing the 
locally-based training system to provide the sorts of training that 
fire fighters will need in future incidents.
    Staffing should also be a priority. The International Association 
of Fire Chiefs has called for federal assistance in hiring an 
additional 75,000 fire fighters.
    It is important for the Committee to understand that in most 
jurisdictions, fire department apparatus is manned by three-person 
teams. Under federal administrative law, the Occupational Safety and 
Health Administration (OSHA) mandates ``two-in/two-out'' with respect 
to emergency operations. In most communities, personnel are dispersed 
to provide geographic coverage. In other words, a fourth fire fighter 
on an arriving piece of apparatus provides two teams immediately.
    This issue was clearly demonstrated in our response to the Pentagon 
on September the eleventh. Apparatus staffed at three fire fighters had 
to wait and team with other arriving groups. A swift, safe response to 
any emergency requires four person staffing on every piece of fire 
apparatus.
    I also believe that if we are to have a properly trained and 
prepared fire service, we ought to have some assistance at the company 
officer level with respect to terrorism training. I have struggled with 
the need to send my officers away, often for weeks at a time, so that 
they make take part in terrorism response training sessions. It is 
burdensome and expensive for most local communities. Any staffing 
initiative undertaken by the federal government should provide for the 
absence of officers in training and the need for ``back filling'' in 
their absence.
    Mr. Chairman, I would like to conclude my testimony with what we in 
the fire service have told the Congress for years. When incidents of 
terrorism occur, we will respond to protect our communities. How well 
we are prepared will correlate directly with the number of lives we are 
able to save and the amount of property damage we will mitigate.
    Thank you for having me. I am happy to answer any questions.

    Senator Wyden. Chief, thank you very much.
    We have a vote on the floor, a recorded vote. It is my 
intention to have Mr. Turner testify and to take his 5 minutes 
or thereabouts. Then we will take a break in order to go cast 
our vote, and we will come back and we have got some questions.
    Mr. Turner, welcome. Let us get you that microphone.

          STATEMENT OF JAMES E. TURNER III, EXECUTIVE 
SECRETARY, DELAWARE VOLUNTEER FIREMEN'S ASSOCIATION, ON BEHALF 
             OF THE NATIONAL VOLUNTEER FIRE COUNCIL

    Mr. Turner. Thank you, Mr. Chairman, Senator Allen. My name 
is James Turner. I am the Executive Secretary of the Delaware 
Volunteer Firemen's Association. I am here testifying on behalf 
of the National Volunteer Fire Council.
    I took this job about a year ago. My previous vocation was 
an emergency service training administrator at the Delaware 
State Fire School for 26 years, where I did firefighter, 
command officer, and hazmat and WMD training. When I retired I 
was the hazmat coordinator and the WMD training coordinator in 
Delaware.
    You have heard the numbers of fire service people and, like 
the balance of our personnel, we extend our sympathies to our 
friends in New York.
    We now transmit, Mr. Chairman, our personal 911 call to you 
for your help, aid, and assistance in making our jobs in both 
the career and volunteer system safer for us and the protection 
of our citizens. One of the largest problems facing our 
business is funding and personnel. Many volunteer departments, 
such as Senator Allen alluded to, struggle to provide their 
members with adequate personal protective equipment, safety 
devices and training to protect their communities as mandated 
by regulations and standards. These fire companies in towns 
across America are being asked to respond to the normal 
emergency requests as we do today, as well as the terrorism or 
the terror-related calls.
    Many of these emergencies occur at, on, or adjacent to 
Federal properties. These incidents may also impact or damage 
America's critical infrastructure, including our interstate 
highways, railroads, bridges, tunnels, financial centers, power 
plants, refineries, and chemical manufacturing and storage 
facilities. We as a fire service, both career and volunteer, 
are sworn to protect those critical facilities and 
infrastructures.
    Fire service operations in protecting these facilities and 
infrastructures often have to risk the safety of our people, 
the firefighters, to restore order from chaos following a risk-
benefit analysis on the specific incident. In these difficult 
times while volunteer fire departments are struggling to handle 
their own needs and finances, we are now forced to provide more 
services.
    The funding problems in America's volunteer fire community 
are not just limited to rural areas. As suburbs continue to 
grow, so does the burden on the local fire and EMS departments. 
Even though many of these departments have the essentials, they 
are unable to gain access to new technologies due to its 
expensive costs, and many volunteer fire departments are forced 
to forego, therefore, the purchase of new equipment or use 
their current or outdated equipment.
    Long before the terrorist attack on September 11th, the 
national fire service organizations have been jointly working 
together in trying to improve our readiness and increase 
funding levels for programs related to America's fire service. 
I would like to go over just a couple things.
    Number one, first and foremost, I think you as members of 
Congress need to continue to upgrade and continue to support 
the FEMA assistance for firefighter grant programs. We have 
heard today that there was a recommendation for $600 million. 
It has gone up to a billion. We will take what we can get. 
However, those programs should go to the fire departments, to 
the fire departments wherever they protect, whether it be New 
York City, Indianland, or Earlyville Volunteer Fire Department 
in Virginia.
    Senator Allen. Earlysville.
    Mr. Turner. Okay.
    We also ask that the personnel shortfall as outlined by 
President Schaitberger and Chief Buckman also be considered. In 
addition to that, as the volunteer system continues in Delaware 
our attrition rate for volunteers in our busy departments is 3 
to 5 years. They keep turning over. Maybe one of the options 
you can look at to support the volunteer system is some kind of 
incentive program, such as tax relief, maybe waiving some 
social security money, and that type of thing. That should be 
explored.
    Terrorism and hazardous materials training, a subject dear 
to Chief Ingram and myself. We need to make it readily 
available, set up so Chief Ingram can go out and train all of 
his personnel, which are about 12,000 uniformed personnel in 
FDNY, in a timely and efficient manner. Likewise for our 
volunteers. They are doing it on nights and weekends. We have 
to be able to do the same.
    Thermal imaging cameras and AED's, automatic external 
defibrillators. These can immensely help all the fire services 
across the country and we would ask your support for those.
    Last weekend, several of us at the table were at 
Emmitsburg, Maryland, with a couple of your peers, Senators 
Mikulski and Sarbanes, in addition to several other members of 
the Senate and the House. We were recognizing the 101 
firefighters that have been killed in the line of duty last 
calendar year. Unfortunately, in Delaware we had one of our own 
that was being commemorated. I helped support that family in my 
job.
    I think that as a trainer and as a firefighter and as an 
officer we have to make our system safer and reliable. I know 
that we all say to each other: Come home safe at the end of 
your tour. We have to do that with our power, our training, our 
experience, and your support.
    I alluded to the fact that I was the hazmat coordinator in 
my training school. Just before I left, we sent some 
instructors up to FDNY with a group from DuPont to teach the 
hazmat squads and company people, their special ops people, to 
use chemical protective clothing they bought specifically for 
WMD. It was about 18 months ago. The guys were from Delaware 
that went up with the DuPont instructors and they really came 
back and said they had a good time, Chief Ingram's people took 
them under their wing, showed them a good time just like any 
firefighter would be. They also implored them to come back up 
and visit.
    Some of us did after September 11th. A couple of us from 
Delaware went up and helped the National Fallen Firefighters 
Foundation in support of the unions and the group from 
Emmitsburg to take care of those people. That is not the way we 
intended to go back up and visit. You and I and all of us 
collectively have to make sure that these people and our fire 
service people are taken care of and this tremendous problem 
never happens again.
    Mr. Chairman, thank you for your time and I will be 
available for questions.
    [The prepared statement of Mr. Turner follows:]

    Prepared Statement of James E. Turner III, Executive Secretary, 
  Delaware Volunteer Fireman's Association, on Behalf of the National 
                         Volunteer Fire Council

    Mr. Chairman and members of the Committee, my name is James E. 
Turner, III. I am testifying today on behalf of the National Volunteer 
Fire Council (NVFC). I serve as the Executive Secretary of the Delaware 
Volunteer Firemen's Association. The organization is composed of 60 
community based volunteer fire, rescue, Emergency Medical Service 
(EMS), and specialty teams providing special rescue and Hazardous 
materials response capabilities to the citizens of Delaware. The 
Association also has four associate members. Wilmington Fire 
Department, a career fire department protecting Wilmington, Dover Air 
Force Base and Delaware Air National Guard Fire Departments, the fire 
protection services providing initial fire & rescue protection to the 
airman, and resources at those two facilities and a volunteer rescue 
squad which provides volunteer EMS service to their local community. I 
am also an active firefighter in the Clayton Fire Company in Clayton, 
Delaware. I have served as a volunteer firefighter for 35 years and 
served as a Chief Officer in that Department. My previous vocation was 
the Emergency Service Training Administrator at the Delaware State Fire 
School for 25 years. The Director of the Fire School was an appointee 
of the original commission the report ``America Burning.'' This report 
was submitted to Congress, which resulted in many fire and life safety 
changes and improvements in America, including fire safety education, 
the smoke detectors we use in our homes, and the establishment of the 
National Fire Academy. I have had experiences in all phases of the 
first responder community, including chemical and hazardous materials 
incidents, information management, EMS, rescue and fire.
    On behalf of the volunteer fire service, I appreciate the 
opportunity to comment on the needs of America's volunteer fire service 
in the wake of the September 11th tragedies in New York, Arlington, 
Virginia and Southwestern Pennsylvania. America's fire and emergency 
services are in need of your assistance and you, as Members of 
Congress, can make a difference by partnering with the fire service to 
give America's domestic defenders the tools they need to help fight 
this new war.
    The NVFC represents the interests of the nation's more than 800,000 
volunteer firefighters, who staff America's 28,000 volunteer fire 
departments located in every state of the Union. According to the 
National Fire Protection Association (NFPA), nearly 75% of all 
firefighters are volunteers. More than half of the approximately one 
hundred firefighters that are killed each year in the line of duty are 
volunteers. In addition to the obvious contribution that volunteer 
firefighters lend to their communities as the first arriving domestic 
defenders, these brave men and women represent a significant cost 
saving to taxpayers. According to the September 2001 study by the State 
Auditor of my home state of Delaware, the volunteer fire service in 
Delaware saves taxpayers more than $121,044,900 this fiscal year alone. 
A copy of this report is have been submitted to be included in the 
record.
    September 11, 2001 is a date that will be long remembered for the 
horrible losses our nation suffered, including the loss of so many of 
our brothers and sisters in the emergency services. September 11th will 
also be remembered for the heroics of those brave men and women who ran 
into the World Trade Center to render aid to their fellow New Yorkers, 
those who valiantly fought the raging fire at the Pentagon in 
Arlington, VA, and the fire companies who responded to the Somerset 
County, PA plane crash. Volunteer fire, rescue, EMS, and technical 
specialty teams answered and responded to our Fire Service mottoes of 
``We go where duty calls'' and ``Service to Others'' on that fateful 
day at Somerset and the Pentagon incidents. Finally, September 11th 
will be remembered for ushering in America's new all out war against 
terrorism at home and abroad.
    As you know, this past weekend, America and our Allies have started 
to respond militarily against the terrorists. Administration officials 
and Members of Congress have warned our citizens of a ``clear and 
present danger'' of follow-up terrorist attacks. The question now is 
``when and where will the next terrorist attack occur,'' not ``if a 
terrorist attack will occur.'' As America's domestic first responders, 
the fire service will be on the front lines of any incident and must be 
prepared to respond to and defend our citizens from the ravages of 
terrorist attacks using conventional weapons or weapons of mass 
destruction (WMD). This expands our normal services beyond providing 
the quick, safe, and competent delivery of fire, EMS, rescue, and 
technical specialty services to our citizens. Services that already 
have necessary time and training commitments that are escalating 
annually.
    As I stated earlier, America's fire service is in need of your 
assistance and your partnership. Congress and the administration must 
provide the funding needed to train and equip our firefighters so they 
can more effectively and more safely respond to all emergencies, 
including the inevitability of future terrorist attacks. We now 
transmit our personal 911 call to you for your help and support in 
making our jobs and the protection of our citizens safer.
    One of the largest problems faced by America's volunteer fire 
service is funding. Many volunteer fire departments struggle to provide 
their members with adequate protective clothing, safety devices and 
training to protect their communities, as mandated by regulations and 
standards. These fire companies, in towns across America, are being 
asked to respond to emergency calls involving hazardous materials, 
structural fire suppression, search and rescue, natural disasters, wild 
land fires, emergency medical services, and terrorism.
    Many of these emergencies occur at federal facilities and buildings 
and on federal lands. In addition, these incidents can damage America's 
critical infrastructure, including our interstate highways, railroads, 
bridges, tunnels, financial centers, power plants, refineries, and 
chemical manufacturing and storage facilities. We as a fire service are 
sworn to protect these critical facilities and infrastructure.
    In these difficult times, while volunteer fire departments are 
already struggling to handle their own needs and finances, they are now 
forced to provide more services. Often, local governments are unable to 
afford the extensive training and specialized equipment that these 
activities require.
    The funding problems in America's volunteer fire service are not 
just limited to rural areas. As suburbs continue to grow, so does the 
burden on the local fire and EMS department. Even though many of these 
departments have the essentials, they are unable to gain access to new 
technologies. At no other time have advances been greater in equipment 
to protect them and make their jobs safer. Yet because the newer 
technology is so expensive, many volunteer fire departments are forced 
to forgo the purchase of the new technology or use outdated equipment.
    Long before the terrorist attacks of September 11th, the national 
fire service organizations jointly began working together to improve 
readiness and increase funding levels for programs related to America's 
fire departments. Unfortunately, it takes a horrible tragedy for 
America to fully appreciate the risks our firefighters and EMS 
personnel take on a daily basis and the level to which they need to be 
prepared. In the past, the federal government has not made America's 
fire service a priority. We hope that the tragic and unforgettable 
events of September 11th will change this attitude and position 
forever.
    The following items are some of the immediate needs of America's 
fire service to enable it to be prepared for future disasters.
    First and foremost, Congress must substantially increase funding 
for the Federal Emergency Management Agency (FEMA) Assistance to 
Firefighters Grant Program. Last year, Congress took a giant step in 
addressing the needs of America's fire service by creating this grant 
program and funding it at the $100 million level. Every fire department 
across the country is eligible for funding for safety and firefighting 
equipment, apparatus, training, prevention, wellness and fitness 
programs, and staffing. Although the $100 million was a starting point, 
it is felt that this initiative, although greatly appreciated, fell 
short of the needs of the fire service. Over 30,000 grant applications 
were submitted to FEMA, totaling approximately $3 billion.
    Last week the Senate passed an amendment to the Defense 
Authorization Bill increasing the program's authorization to $600 
million in FY 2002, $800 million in FY 2003, and $1 billion in FY 2004. 
We respectfully request that Congress should immediately fund this 
program at $600 million for FY 2002 and commit to fully funding this 
program in future years.
    Another major problem in the fire service is the personnel 
shortfall plaguing both the volunteer and career ranks. In the 
volunteer fire service, major factors contributing to the problem of 
recruiting and retaining volunteers include constant fundraising 
demands, increase in emergency calls, more rigorous training standards, 
and people working further away from the communities in which they 
live. Therefore any staffing initiative undertaken by Congress must 
include a recruitment and retention component to account for the over 
90% of America's communities protected by volunteers.
    In addition, as suburbs have continued to grow, so has the burden 
on the local fire and EMS departments protecting these communities. 
Many of these departments have gone to combination systems, with career 
staff complementing the volunteers, often to help with daytime 
coverage. If Congress creates a program to provide for the hiring of 
firefighters, these struggling volunteer and combination departments 
must be a large part of the equation.
    Terrorism and hazardous materials training for firefighters is of 
vital importance. Although we understand the concerns of America's 
large metropolitan areas, Congress cannot forget smaller communities, 
whose fire, rescue and EMS personnel also need the basic training to 
recognize and respond to these incidents. In addition, specialized 
equipment is needed to protect first responders from hazardous 
materials and chemical and biological weapons. Congress should also 
properly fund the Operation Respond Institute, whose software provides 
vital life saving information to emergency responders at hazardous 
materials transportation incidents and rail passenger accidents.
    Finally, America's fire service needs universal access to essential 
tools for fire, rescue and EMS equipment such as Thermal Imaging 
Cameras and Automated External Defibrillators (AEDs). Thermal imaging 
cameras are used to find unconscious victims and trapped or disoriented 
firefighters, and to pinpoint hot spots. AEDs are crucial to emergency 
medical response we provide to our residents and protecting our 
firefighters. 220,000 Americans die each year from sudden cardiac 
arrest and for every minute without defibrillation the survival rate 
decreases 10%.
    When I began my testimony today, I stated that the volunteer fire 
service is in need of your assistance and that you, as Members of 
Congress, could make a difference with the necessary funding. I hope 
that I have painted a picture that illustrates that the need is real, 
that the moneys do go a long way, and that the support of the fire 
service by Congress is indeed a national concern. This is why we have 
given you our personal 911 call.
    I alluded earlier to military actions taken this past Sunday. Just 
prior to the initiation of this action, President Bush, Senators 
Mikulski and Sarbanes, along with other Member of Congress and 
approximately 5,000 fire service peers attended the annual National 
Fallen Firefighters Memorial Service sponsored by the National Fallen 
Firefighters Foundation at the National Fire Academy in Emmitsburg, MD. 
At this service we collectively honored the memory of the 101 members 
of the career and volunteer fire service who lost their lives in the 
line of duty in 2000. Delaware, unfortunately, offered one of it's own 
to this touching Memorial Service. I personally participated in 
supporting this Delaware fire department, and the spouse of our 
firefighter who was lost to this tragedy. I vowed to myself that if I 
could do anything to avoid repeating this heart breaking, gut wrenching 
tragedy, I would do everything in my power, training, and experience to 
avoid a future event of this magnitude.
    The death of a firefighter, EMS provider, rescue technician, or a 
police officer is a tragedy. Investigations begin immediately following 
the incident, local and federal investigations are convened and finding 
offered. Lessons learned are shared throughout the public safety 
organizations and departments on a nationwide basis.
    Collectively, every heart is with the firefighters, EMS providers, 
rescue technicians and police officers, along with their families, who 
made the ultimate sacrifice of saving others lives while giving up his 
or her own. I was personally acquainted with approximately forty of the 
members of the ``Bravest,'' at FDNY. I sent instructors to New York 
City who provided specialized training to the Haz Mat units and squad 
companies for chemical protective clothing specifically obtained in the 
event of a WMD event. The instructors, whom were firefighters from 
Delaware, indicated that the FDNY members were extremely interested, 
courteous, and above all, Firefighters. They wanted to protect 
themselves while providing service for others. They enjoyed the 
training, and kidded among themselves and the instructors. When the 
class finished, the FDNY personnel invited the instructors to come back 
to visit.
    Unfortunately, some of us went back. Not to visit, but to support 
the National Fallen Firefighters Foundation Family support Sector 
located in New York. The sector supported FDNY, the Unions for the 
firefighters and officers of FDNY in taking care of their own and their 
survivors. When I left New York, I likewise promised myself that I 
would do anything humanely possible to prevent this senseless tragedy 
from occurring again. This is my personal 911 call to you and your 
Committee members, Mr. Chairman.
    Mr. Chairman, I thank you and the Committee for your time and the 
privilege of allowing the views of America's volunteer fire service to 
be documented and publicized. I would be happy to answer any questions 
you may have.

    Senator Wyden. Mr. Turner, thank you.
    We are going to recess for 10 minutes and we will be back 
for questions then.
    [Recess from 4:34 p.m. to 4:51 p.m.]
    Senator Wyden. All right, let us come back to order. My 
apologies to all of our witnesses. We have a little bit of a 
juggle today with a hectic floor schedule.
    Let me, if I might, begin with Chief Plaugher and Chief 
Ingram. The Federal Emergency Management Agency uses the 
Federal response plan to task and manage other Federal 
agencies' assistance to State and local governments. As the 
September 11th attacks demonstrate, response capabilities can 
quickly become overwhelmed. My question to you two, Chief 
Ingram and Chief Plaugher, is how would you assess the Federal 
Government's immediate response to the September 11th attacks 
as it relates to the needs of your department? Why do we not 
start with you, Chief Ingram.
    Mr. Ingram. I could say that right from the beginning the 
Mayor's Office of Emergency Management was fully involved with 
not only the State emergency management organization, but FEMA. 
It was very clearly seen with their ability to get the Mayor's 
Office of Emergency Management moved with the loss of their 
building and completely operational and functioning within 24 
to 30 hours, which was a tremendous help for us from many 
points of view--coordinating resources that were coming in, 
whether asked for or donated or just being sent. All of the 
people who came up, asked for, requested, or just showing up, 
they were immeasurably helpful in that particular area. They 
were able to bring in resources to help set up a command post 
once we were able to get it off site and get it away, where our 
chief officers could see the big picture and not have many 
resources showing up, just coming to them and grabbing them 
because they had a white hat.
    FEMA was able to come in and provide the equipment that we 
needed to set up offices. Even more important than the actual 
hardware and software, they brought people, people that were 
knowledgeable in planning, knowledgeable in documentation, 
tracking, clearly evident and professional in the USAR teams as 
well as in the support staffs that came in to run the command 
post for them at the Mayor's Office of Emergency Management and 
for our Chief Carruthers, incident commander at our command 
post. Very helpful.
    Senator Wyden. Chief Plaugher.
    Mr. Plaugher. Yes. First let me begin by saying that FEMA 
was extraordinarily helpful in the incident and we want to 
thank the response from the Federal Emergency Management 
Agency.
    We had several FEMA representatives immediately within the 
first few minutes of the incident at our emergency operations 
center, offering FEMA's assistance. I think part of that is 
because of the uniqueness of our location to the Nation's 
capital.
    We did have, however, some problems with the USAR teams and 
the way that they were deployed to our community, and I think 
it was because of the events that were going on throughout the 
United States that day, in other words the New York City 
incident as well as the Pentagon and the Pennsylvania incidents 
as well. So there are some USAR team problems that are going to 
have to be worked out for multiple incidents that we learned 
from this incident.
    However, I would like to wrap up by saying on the FEMA 
issue is that the recovery work of the FEMA team has been 
extraordinary. They have come into our community. They were not 
a burden on our community. They were self-sufficient, and then 
they went to work. They rolled up their sleeves and started to 
go to work on how do we recover from this incident.
    As you might imagine, this does not fit into their typical 
hurricane, tornado, natural disaster emergency incident. So 
they had to work hard to try to find methods to do recovery, 
particularly reimbursements and those types of things. I have 
to commend the FEMA staff for doing that hard work. They took 
it as a very serious challenge and a very serious concern.
    As you know, we are still struggling to recover because of 
the airport and the closure of the airport for its extended 
time, as well as the impacts on our business community. I again 
also want to commend FEMA for being there as a partner, as well 
as the U.S. Small Business Administration.
    Senator Wyden. One question for you and a question for you, 
Chief Plaugher. Chief Ingram, what were the major 
communications problems that your department faced on September 
11th? As you know, the chiefs are recommending a variety of 
studies. They are recommending that the Congress and the 
administration look at the issue of spectrum interoperability, 
a variety of issues like that. But, I think it would be helpful 
to have you describe what kind of communications problems your 
department faced.
    Mr. Ingram. That is a good question. We had a tremendous 
amount of communications systems there. Right off the bat we 
lost a lot of hard-line phones from the damage, not only to the 
towers themselves, but when they came down they did damage to 
the Verizon building right next door. We had probably satellite 
cells on the towers that, when they came down, we lost some 
cell service. What was left, although we could get through, 
after a short period of time in the initial stages, people 
coming out of the towers themselves, the number of cell phones 
overcrowded, overtaxed the cell lines that were there. So we 
had some concerns there.
    Our fire ground radios worked well, but we had several 
different agencies there with other types of fire ground or 
emergency scene radio frequencies. So we did need to make sure 
that we set up command posts in all the sectors. We needed to 
coordinate representatives from all of the agencies so that we 
could utilize their frequencies to communicate with their 
people.
    So something along the interoperable communications 
solution that has been discussed several times here earlier, 
that area needs to be further researched and developed. That 
would be extremely helpful for us.
    Senator Wyden. Would you be largely in agreement with what 
Mr. Burris was talking about on communications? I really see 
this as a continuum of communications needs. You obviously have 
needs within a matter of minutes. I think Mr. Burris said 
something along the lines of: ``We have needs within 3 
minutes.'' At the same time, I think you have heard me within 
the course of the afternoon talk about how the country's 
technology companies are really willing to sweep in very 
quickly and help with cell systems and computers and the kinds 
of things that obviously were knocked out in New York.
    Are you largely in agreement with Mr. Burris on these 
communications issues?
    Mr. Ingram. Very much so.
    Senator Wyden. Okay, good.
    Mr. Plaugher, a question for you with respect to some of 
the training issues and again the lessons that we are trying to 
glean from these tragedies. Your department participated in 
what is called the TOPOFF exercise, the Top Officials exercise. 
This was a no-notice field exercise to assess the Nation's 
crisis and consequence management capacity. The exercise 
included concurrent response to incidents in several different 
cities throughout the country.
    My question to you is were there things you learned in that 
particular exercise that you were able to apply to the 
September 11th attack on the Pentagon, and what did you learn 
as a result of participating in that program that we should 
build into our preparedness efforts in the future?
    Mr. Plaugher. Thank you, Mr. Chairman, for the question. 
Exercises are our bread and butter for preparedness to today's 
world, today's threats. You mentioned Exercise TOPOFF, which 
was a no-notice exercise in various venues around the United 
States. Throughout the exercises, throughout the TOPOFF 
exercises and other exercises, we learn about our shortfalls 
and our capabilities, but we also learn what went right.
    So we brought those lessons to bear on September 11th. In 
other words, the use of the incident command system, making 
sure that we organize our search and rescue teams in a certain 
fashion, precautions for secondary devices. As you know, on the 
day of September 11th we were warned not once but twice that 
additional aircraft were coming into the D.C. area, and we took 
appropriate actions. How far to move back, those types of 
things we learned from those exercises.
    So the exercises serve twofold: not only to show you your 
shortfalls, but also to show you what you do right.
    So I would implore Congress when they are working on these 
programs to continue to mandate exercises and continue to use 
that two-pronged approach, not only what you can do better but 
also what you did well.
    I also would like to mention that during TOPOFF that I was 
fortunate to be able to have some of the members of my 
department go to Denver and participate with that part of 
TOPOFF, which was a biological release in that community. One 
of the things that was definitely learned or observed by my 
captains, my medical captains who were there, is again some 
very, very serious difficulties with our medical community and 
the preparedness of our medical community to deal with large 
numbers of casualties.
    They literally fought over who was going to get what 
medicines and where in this exercise. It kind of sent some bad 
vibrations or reverberations back to us in the first responder 
community. So again, I think some of those lessons need to be 
looked at very, very carefully.
    Senator Wyden. Well, that is a good point. Why do we not 
even hold the record open on this point, if you and your 
colleagues have some ideas and some suggestions for improving 
these exercises. I happen to think that makes a lot of sense. I 
again heard on Monday at home in Portland, Oregon, where people 
in the technology sector said: ``You know, you ought to just 
simulate some drills. You really need to do more to test these 
kinds of systems.''
    So, we will hold the record open if you have any 
suggestions, or your colleagues do, on that point.
    Mr. Turner, a question for you. In your testimony you urge 
Congress not to forget smaller communities, who also need the 
basic training to recognize and respond to terrorist incidents. 
I was really pleased to hear you say that. There are many, many 
towns in my own State of Oregon who have well under 5,000 
people and that is true across the country.
    In your view, does the current course structure within the 
Federal Government adequately meet the needs of smaller 
communities that rely on volunteer firefighters? If not, what 
can we do as it relates to training and some of these other 
areas to strengthen your ability on the front lines to do the 
good work you do?
    Mr. Turner. Mr. Chairman, I want to speak on my past 
experience when I was employed as a fire school instructor. We 
would send people to the National Fire Academy for train the 
trainer just like any municipal fire department or State 
training organization would. We would go through their process, 
and I think that when we go home the training academy or the 
training division would take the information necessary to get 
it out to the people in the field.
    I alluded to the fact where Chief Ingram has 12,000 people 
to train in FDNY on all his shifts plus his new recruits. The 
volunteers in the small communities need to get that instructor 
out in the field to that local fire department on a weekend or 
at night time a couple times during the week to get the 
training out.
    A lot of us condense the training programs that we saw. I 
have seen the DOD program. The program initially I was speaking 
on was the FEMA or the NFA programs. They DOD programs are much 
shorter in length. I believe they are 4 and 8 hours, 4 for the 
initial and 8 for operations. I cannot speak to the DOE 
program, sir. So 4 and 8 hours is a realistic time for 
training.
    Senator Wyden. All right. Well, please convey to your 
volunteer organizations that we would like to have ideas and 
suggestions as it relates to smaller communities. I know that 
my colleague has a lot of towns in Virginia with small 
communities and, as I say, we have a handful of relatively 
large cities at home in Oregon, and we have got an awful lot of 
those towns with under 5,000 people, and we want to be 
responsive.
    This is going to be a national effort and we have to 
respond to our largest metropolitan cities, where the concern 
has been enormous, but we also have responsibilities to small 
communities as well, and we want to be sensitive to those.
    Mr. Turner. Yes, sir.
    Senator Wyden. A couple of questions for you if I might, 
Mr. Schaitberger. As I looked at your prepared testimony, your 
testimony links firefighter deaths to a lack of staffing. Could 
you go and amplify a little bit on this as it relates to, in 
your view, how inadequate staffing actually caused the deaths 
of firefighters in numerous separate incidents?
    Mr. Schaitberger. Well, I mentioned in my written statement 
a partial list: Memphis, Tennessee; Worcester, Massachusetts; 
Keokuk, Iowa; Pittsburgh, Pennsylvania; Chesapeake, Virginia; 
Stockton, California; Lexington, Kentucky; Buffalo, 
Philadelphia, Washington, D.C., and the list goes on, where we 
have had firefighter line of duty deaths and in each of those 
cases, one of the common factors that was determined by the 
investigations performed by NIOSH as well as internal 
investigations was inadequate staffing.
    For the Committee's information, at any time we can 
certainly make each and all of those investigative reports 
available. It is clear that, through the numerous studies that 
have been conducted over the years in Columbus and Seattle, 
Dallas, Phoenix, Austin, John Hopkins University, Ohio State 
University, as well as studies by the United States Fire 
Administration, that they have all demonstrated that staffing 
levels, clearly adequate staffing levels increase the level of 
safety and decrease the potential for line of duty deaths, as 
well as providing a more efficient operation.
    Senator Wyden. For you, Chief Buckman and Mr. Schaitberger. 
You all have been calling for 75,000 additional firefighters 
for our communities. I think it would be helpful if you could 
tell us how you reached that particular number. In other words, 
how did you arrive at that being your assessment of what is 
needed?
    Mr. Schaitberger. Well, I believe I mentioned, mentioned 
briefly, that we now have for the first time in our industry an 
international industrial standard that lays out clearly what 
the staffing and deployment requirements are for adequate fire 
service delivery. That standard now requires a minimum of four 
firefighters per piece of apparatus and a minimum response time 
of 4 minutes.
    If you do the simple calculations and you look at the 
departments throughout the United States that are riding with 
less than four, it would take 75,000 firefighters to bring 
those departments up to that new industrial standard 
requirement.
    Senator Wyden. That is helpful. In these kinds of things, 
those of us who think that you do need additional resources are 
going to get asked that question, and we are going to need to 
have that kind of information.
    Chief, do you want to answer that?
    Mr. Buckman. One other part in our deliberations was a 
report from the International City Managers Association related 
to the standard that Harold reports on is that it would take 
34,000 more firefighters to staff at four, and that is the 
International City Managers Association. That is only for those 
people who are members of that association. That does not 
include the many cities that do not have city managers, that 
have a different form of government.
    Senator Wyden. Let me ask a question I would be interested 
in any of you five essentially tackling if you are inclined. 
The Washington Post recently, last week, discussed the 
experience of one local jurisdiction in purchasing equipment 
for biological or chemical terrorist attacks. They stated, and 
I quote here: ``Officials have had several years to get ready. 
Much of the equipment purchased has yet to be deployed. Some 
equipment is unworkable and officials are considering sending 
it back.''
    Now, obviously, we want to try to avoid these kinds of 
problems wherever possible. I think my question for this panel 
would essentially be, given the fact that this Congress is 
going to make available increased funding to deal with the 
issues that you and your colleagues on the front lines are 
dealing with, what is it going to take to prevent those kinds 
of stories like in the Washington Post occurring when this new 
money is sent out across our country? [see Appendix for entire 
article]
    Chief Ingram?
    Mr. Ingram. Thank you. Although I cannot address that 
specific article because I am sure that is involving one 
department, one agency, and certain specific equipment, one 
area that we see a need in the fire service through those 
organizations I mentioned earlier is that there is no or there 
are very few standards across the country that organizations 
like fire departments and other emergency responders can take 
equipment to from vendors and have them test it against those 
standards to make sure that the equipment will deliver the 
final result.
    You can get any vendor, any salesman, to come in and tell 
you that their chemical monitoring detector will detect this 
particular agent or this chemical material. But then you have 
to start asking questions: Well, at what level will it detect 
that material? Well, it will detect it at a level that is 
already above the IDLH. Those types of instruments are not 
effective for us.
    So we need to have funding to develop standards that all 
the equipment manufactured can meet, so that when a vendor 
brings it to an agency they have something to say, yes, this 
works, this does not work, I will buy this one and not that 
one.
    Senator Wyden. Chief, how do you know now as to the quality 
of what you are getting?
    Mr. Ingram. We try through organizations like the Inter-
Agency Board to come up with research from some of the military 
organizations like TSWG that do research on it, COMPIO. But a 
lot of times at the first responder level that information is 
not accessible to us. Those of us that do get in on some of 
these agency board meetings, we try to glean the information 
and we try to make the best decisions that we can. But there is 
definitely a need for standards to be developed for equipment 
to be tested against, testing facilities identified that can 
test these materials against real agents, not simulants, and 
only then will we have the ability to know which equipment 
works and which does not.
    Senator Wyden. Now, NIST, a part of the Federal Government, 
has an office to do this for law enforcement. Do you think it 
would be helpful, Chief Ingram, to expand that to look at 
firefighters' equipment as well?
    Mr. Ingram. Absolutely, and NIST representatives are part 
of the Inter-Agency Board for Standardization of Equipment. We 
are working with them. We are working with NIOSH, with NFPA, 
Department of Justice, Department of Defense, and we are trying 
to make first responder needs known.
    Funding is necessary. Recognition by all of the Federal 
partners, a coordinated recognition by all of the Federal 
partners to see these needs, must be addressed.
    Mr. Plaugher. Mr. Chairman.
    Senator Wyden. Please.
    Mr. Plaugher. I find that question interesting. Arlington 
County, Virginia, which sits right across the river from 
Washington, D.C., was one of the original 120 cities to receive 
moneys earmarked in 1996 by the Senate for Nunn-Lugar-Domenici 
Weapons of Mass Destruction Act of 1996. As of last week, I 
have yet to receive a dollar from the 1996 Act, and I am again 
one of the 120 cities.
    It is interesting. Companion legislation also occurred that 
did send money to 157, not cities, but jurisdictions of the 
United States, but I was not one of those. But they got their 
money.
    So it has been a real difficult task to just keep track of 
who you are in what programs you are in. But let me talk to you 
a little bit about the 120-city program, which required a great 
deal of training on the community, which was necessary, 
exercises, which were necessary. All of those were good things 
and we have been diligently working through the various 
programs and requirements of that program.
    But also let me tell you that it just recently switched 
from the Defense Department to the Department of Justice. So 
now we are learning a whole new team of players on top of that 
whole process. But about a week before September the 11th, I 
was notified by now the Department of Justice and all the new 
players that they could not honor my request for the equipment, 
some of which we are forced to take even if we do not want it, 
but they could not honor our request because it was short $796 
in the request.
    So the question I had was: Well, that means they get off 
without having to spend the $796? They said: No, the accounting 
has to be to the dollar before you can get a dollar. So we are 
now resubmitting the entire set of paperwork back to the 
Department of Justice so that we make sure that it totals 
exactly the $300,000 to the penny to jump through the hoops.
    These are just part of the frustrations that have occurred. 
Remember now, this was 1996 that the act was passed by the 
Senate, with I think good intention to address some of our 
needs to respond to terrorism in this country.
    Senator Wyden. What I would like to do, Chief, is frankly 
just sort of walk that through the system. I mean, literally 
sort of walk through the system beyond the $796 and see what 
happened between 1996 and now that has kept this money from 
getting out. If you could give us your sense on how to do it 
and some of the major events that contributed to all of this, 
all of this delay, that would be helpful, because with the 
additional money coming out now the question is are we going to 
make sure it gets where it needs to go or is it just going to 
be sent out about the country and a couple of years from now 
you will be telling the same stories to other Congressional 
committees. We want to prevent that.
    Mr. Plaugher. Believe it or not, it has actually gotten 
worse since that time.
    Senator Wyden. It is hard to think how it got worse. The 
program did not work since 1996 and here you are going through 
bureaucratic water torture for $796. That is pretty bad.
    Mr. Plaugher. But you then also sent $100 million to the 
States in 1999, year 2000 and year 2001, and none of that money 
has reached first responders. It is still all tied up within 
the Defense Department. As a matter of fact, a great deal of 
that money will never ever see first responders' hands because 
I know in the Commonwealth of Virginia a great majority of it 
was absorbed by the Commonwealth and never did come to the 
locality that needed it.
    So it is just frustration after frustration after 
frustration, and hundreds upon hundreds of millions of dollars 
are not getting where it is supposed to be going to, and the is 
into the first responders' hands for the equipment that we 
need.
    Senator Wyden. Let us see if we can liberate these badly 
needed funds from the bureaucratic rigidity that you describe. 
If you can help us by sort of walking us through what happened, 
we are going to go back and take a look at it and specifically 
try to make sure that with this new money that is going out 
that we avoid it.
    Mr. Turner, I gather you--now we have triggered a 
passionate round of comments. Mr. Turner, we will hear from you 
and Chief Buckman, I think, on this.
    Mr. Turner. Yes, sir. I would like to ask that you and your 
Committee, Mr. Chairman, specify who first responders are. I 
believe the panel sitting here would agree that the first 
responders community is fire departments, EMS providers, and 
police departments, and their associated organizations. Not 
taking away from any other discipline out there, but, as Chief 
Plaugher has stated, the Commonwealth of Virginia has used some 
of that money elsewhere, and probably realistically they could 
justify it. Likewise, the same thing is happening in our State 
and other States around us.
    I would make that request, that you identify who 
specifically that emergency responder is and that money go to 
that emergency response community.
    Senator Wyden. You are being too logical now for the 
Federal Government. You cannot expect all this logic to break 
out all over the place.
    Mr. Turner. Sorry, Mr. Chairman.
    Senator Wyden. The idea, heaven forbid, that we would 
actually define who is a first responder is just common sense, 
and we will certainly pick up on that as well.
    Chief Buckman, we will have your comments and then I want 
to let my colleague ask some questions. Chief.
    Mr. Buckman. Mr. Chairman, back to your original question 
about the challenges faced by that fire department about buying 
equipment that did not work.
    Senator Wyden. Right.
    Mr. Buckman. I would echo Chief Ingram's comments about we 
need some standards. When we looked at the FIRE grant program--
and I happened to sit on the Committee that helped determine 
the value system--we were concerned about the quality of 
equipment and the quality in specifically one area was in the 
fire prevention material and the message that this material 
would produce.
    Now when we start looking at the grant program going from 
$100 million to $600 million, there is going to be a lot more 
companies out there that are going to be selling things to the 
little fire departments. The FDNY and many large metropolitan 
fire departments have their own research programs. Most of the 
little, small municipal departments as well as the volunteer 
fire departments have to rely on advertisements, word of mouth, 
and what the salesmen tell them.
    So there does need to be some system. I think the GSA has 
developed a schedule at one time on certain things that could 
be bought through the Federal Government system. Whether it is 
NIST setting the standards, but there is going to need to be 
some protection for that little fire department, because as we 
start getting into buying technology, they can promise you, as 
the Chief explained about detectors and sensors, they can 
promise you they will do a lot of things and maybe in the end 
they do not, and it is the little fire department that ends up 
getting hurt in that question.
    Senator Wyden. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Let me follow up with both Chief Buckman and Chief Ingram 
on this point. You alluded to it and you are getting to 
answering this matter as far as technology. This is addressed 
primarily to you two because you brought it up. First, Chief 
Ingram, you mentioned the importance of technology: the driving 
simulators; satellite phones; personal tracking systems; and 
modern fire fighting.
    Does the Federal Government or do any of the states as an 
association or any other association--and Chief Plaugher, you 
can pitch in on this, too--do they have any way of evaluating 
these new technologies, applying those procedures? You can have 
the most wonderful technology, but if people cannot operate it 
it is useless. To the extent some of this has to do with 
communications, it has to work that way, too.
    This is not a unique problem that I have heard just from 
you in the fire services. The same applies in law enforcement, 
where you have the state police will have one, the City of 
Newport News police chief will have something for his system, 
and then Virginia Beach will have something else, and 
Chesapeake has another, and then you have the sheriffs and they 
have a variety of different ones in all the various counties.
    The point of law enforcement, just like you all, is to be 
able to communicate. You have wonderful people who can really 
sell a product, but then it has to be operable and your folks 
need to know how to work it and really, if there are any 
examples of its operability elsewhere.
    So I would ask any of the three Chiefs here, so to speak: 
Do you know of any way, say, that the Federal, state or 
associations can give you a decent evaluation of new technology 
and how it would apply, so you would have comfort in purchasing 
it? Because you can waste money so quickly on new technology, 
probably quicker than anything else. But new technology is 
going to help you locate your firefighters, like Captain 
Fuentes. I listened to that. They found him, but that was an 
example. I remember telling Chief Plaugher about that: If you 
had a GPS, you would not have to be wondering which east or 
west wing he was in.
    So what do you all have as a good evaluator?
    Mr. Buckman. I do not know of any. I do not know of any 
State that provides that kind of service to their fire 
departments. The State of California does some testing as it 
relates to building materials and fire code materials, but I do 
not know of any State that does any testing as it relates to 
fire department apparatus.
    One of the challenges that you are talking about that the 
fire service is going to have is standardization. That is not 
necessarily a nice word in the fire service because, you see, 
when we buy a fire truck we hardly ever buy, two departments 
hardly ever buy the same kind of fire truck. That creates a 
challenge for the vendors as well, because everybody wants to 
have it their own way.
    But again, by going back to Chief Ingram's comment, we 
could have some standards and minimum standards that say 
equipment has to be able to do these things, then anything you 
want to do extra than that is up to the individual.
    Senator Allen. Well, when you get into technology, though, 
while a fire truck--in some areas you are going to need a brush 
truck more than they are going to be needing hook and ladder 
trucks. They are just not going to need ladders because there 
is really nothing more than a couple or three stories high, and 
they are going to need brush trucks and tanker trucks and those 
that can suck water out of a pond because there are not fire 
hydrants and all the rest.
    But in technology there probably is the greatest need for 
standardization because the technology is going to need to be 
interoperable with other technologies. Chief Ingram, do you 
know of any Federal Government program that helps you analyze 
or evaluate these new technologies for their efficiencies or 
efficacy?
    Mr. Ingram. Some of these programs now that are being 
researched through the military have a chance of success for us 
if the information can be passed down. The military is a larger 
buyer, so they will get contractors to work with them much more 
easily than individual departments will or even a small 
consortium of two or three or four departments. So they can get 
the vendors to work with their needs and come up with the final 
product that suits them.
    Unfortunately, the military needs are not always exactly 
what we need in the first response community. So we have to try 
and work with what is already there and then try and bend it to 
what works for us.
    As far as the New York City Fire Department goes, because 
we are a little bit larger we have a little bit of the benefit 
of having our own research and development. Because we are also 
a big buyer in the fire service, we tend to get vendors to give 
us products to field test, so we can do some of that on our 
own.
    But for the vast majority of the fire services, they are 
not that big and they do not get that service from the vendors. 
So it is very difficult. There needs the be a standard 
developed for all of these items, and many do, many of your 
typical fire service items. Breathing apparatus has a standard. 
Fire apparatus, there are standards. But your newer technology 
items, they are not developed yet and that is a critical area 
that we need to address.
    Senator Allen. Let me ask Chief Buckman a question. Thank 
you, Chief Ingram.
    Another question, Chief. You listened to Chief Plaugher's 
explanation of what we are trying to do in this area amongst 
three jurisdictions and local jurisdictions on top of the 
three, the two States and the District. Would you see a program 
like Cap-WIN being useful in communication and coordination 
issues that you raised in your testimony? Because I was taking 
down notes--better equipment, 75,000 firefighters, and so 
forth--and you mentioned the communications problems.
    Mr. Buckman. Absolutely. I think the process that you guys 
are using in Virginia could become a model for use in other 
parts of the country. In every small emergency or even large 
emergency, when you analyze the challenges that occur--and I 
think Ken Burris said this--command, control and 
communications. Communications is always there and it has to do 
with operating that radio system, when it was designed in many 
cases not for the fire service. It was designed for the police 
service, and the fire department uses communications 
differently than the police department do. We use more radios 
on emergency incidents than any of the other agencies, and that 
is part of the challenge.
    Senator Allen. More even than police, is that what you are 
saying?
    Mr. Buckman. Most of the time you have three or four police 
officers respond to an incident. We have, and our standards say 
we have, 16. Four trucks is at least four people. So we use 
radios more than the police agencies.
    But the facts are most of the radio systems are designed by 
police agencies. The fire department understands that. We have 
tried to be involved in that process.
    Senator Allen. Thank you, Chief.
    I want to switch to Chief Plaugher. I have some questions I 
want to ask you. First I am going to find out, though: 
supposedly there was a million--how much was supposedly 
allocated to the Commonwealth of Virginia and you saw none of 
it in 1999?
    Mr. Plaugher. It was a little over a million dollars.
    Senator Allen. A million dollars was allocated?
    Mr. Plaugher. $1.2 million in 1999 Federal dollars.
    Senator Allen. Let the record show my term ended in January 
of 1998, but regardless. Do you know where that money went to?
    Mr. Plaugher. Oh, yes, I certainly do. I was part of the 
panel that deliberated on where the moneys would go throughout 
the State, and they continued to buy state police portable 
radios, they continued to buy some state-operated hazardous 
materials response team equipment. They used it for a myriad of 
other programs within the Department of Emergency Management.
    I think that the last I heard was that there is now a grand 
total of $296,000 of the $1.2 million, that they are going to 
eventually develop a grant program the localities can apply for 
and that you will then be in competition with other 
jurisdictions around the State.
    Senator Allen. All right. Well, there is a reasonable 
explanation. I know it is not exactly--you were on the panel, 
though, making those decisions, you say?
    Mr. Plaugher. Yes. They told us how they had divided it up 
and then said: Would you please agree with this? So even though 
we did not agree with it, they said, that is okay, the 
paperwork had already gone to the Department of Justice, and 
that that is the way it was.
    Senator Allen. All right. We will talk later. We do not 
need all our dirty laundry here.
    Mr. Plaugher. That is correct, we will. At the time I 
happen to have been the President of the State Fire Chiefs 
Association, so that is the role I was playing at that 
particular time.
    Senator Allen. Well, we will talk about it.
    Mr. Plaugher. Yes, sir.
    Senator Allen. Many here have talked about the concern for 
biological or chemical weapons and threats. We know that New 
York City was a target area. We know that the Washington, D.C., 
metropolitan area was an attack area as well. People are so 
paranoid any more about everything and they ask, ``Gosh, are we 
ready? How would we react to biological or chemical terrorist 
attack?''
    Do you feel in Arlington--which I have seen your men and 
women in operation--you are as sophisticated--we have some good 
professional firefighters in Virginia, you and Alexandria, 
Fairfax, Prince William, Virginia Beach, and all across 
Virginia. The Chesterfield County folks are great, as well as 
Henrico. I probably ought to say every county and city now.
    Regardless--and some of those came up and were here, and 
some were sent out to Oklahoma City as well. That was the last 
time I saw some of our folks from Virginia, when they came back 
from Oklahoma City.
    At any rate, do you feel your department or any of the 
others in the Commonwealth of Virginia, whether in the Hampton 
Roads area or the D.C. area in particular, because with our 
naval facilities and our ports there are worries of attacks in 
certain areas, do you feel that--what level of preparedness 
would you indicate for you and for your knowledge of others in 
the State?
    Mr. Plaugher. The question is a difficult one, Senator. 
First off, thank you very much for your compliments to the 
firefighters in the Commonwealth, because they are in fact an 
outstanding group of firefighters, professionals, emergency 
medical technicians, and firefighters.
    The whole issue about chemical and biological terrorism is 
a very, very difficult one because they are two separate and 
distinct types of needs. You have an entirely different venue 
that you need to unfold for your community. The chemical 
preparedness in the metropolitan areas, particularly in 
Northern Virginia and in the Washington, D.C. area, we feel 
very good about our capability to respond. We created the 
Nation's very first metropolitan medical strike team, which is 
now a program called MMRS's, Metropolitan Medical Response 
Systems, and our team was fortunate enough to also be then 
converted to one of the Nation's four national medical response 
teams, which are primarily designed to respond for medical 
needs related to a chemical incident.
    We are just now starting to work on the biological. When I 
say ``just starting to work on,'' this is about a 3-year 
project in the Washington metropolitan area that is a very, 
very arduous task. It is difficult to get folks who are going 
to even talk about the subject because the consequences are so 
dire. It is also difficult because the public health community 
has been decimated over the last 40 years in this country and 
they are not prepared. They are not able to deal with the 
consequences of a biological attack, and we need to bolster 
them as well, because they are definitely part of the need for 
our response capability in our Nation.
    Senator Allen. Thank you, Chief. It may be that for those 
that want to become more conversant or capable, let us say, in 
the chemical attacks, maybe they should again look at what is 
being done in this area.
    I find that what also is needed--and this was in speaking, 
having a relatively private conversation with the Secretary of 
Health, Tommy Thompson--in the area of biological matters, what 
Chief Ingram said was he called it a national early warning 
system. Really, where that national early warning system is 
going to come on a biological or, for that matter, chemical 
attack, but particularly in biological, is from the local 
emergency rooms.
    The question here is really bio-informatics: to make sure 
that information of whatever is going on is getting to the 
state and obviously quickly to CDC, because one hospital may 
have a few attacks or symptoms, and then there are two and they 
say, ``Well, two people have come in with these symptoms.'' 
They think nothing more or less, but it is reported. Meanwhile, 
on the other side of the mountain, say in the Shenandoah Valley 
or across the river in Maryland, there is another hospital that 
has three, another one has four, another one has seven, and all 
of a sudden you say: ``Wait a second, there is something 
here.'' That is the bio-informatics that I think needs to be 
part of that early warning system.
    But again, the front line in this is most likely going to 
be our local emergency rooms and our fire and rescue squads and 
they would be called into it.
    So I appreciate all the testimony you have had here. I want 
to finish with both--can I say your name right--Mr. 
Schaitberger and Mr. Turner. Both of you talked about the 
difficulty in getting firefighters. Everyone is talking about 
how there is a need for, across the Nation, about 75,000 more 
such firefighters. First, Mr. Schaitberger, are there 
incentives in States or local governments that they could use 
to hire on more firefighters, which you are advocating, other 
than obviously more pay, which is important?
    Mr. Schaitberger. Actually, I think the program that we are 
advocating and the legislation that will be introduced shortly 
in both the Senate and the House calling for the 75,000 
firefighters, there is a program to actually help and assist 
localities to hire firefighters. The problem right now is 
always the same problem, and it is a matter of resources, 
priorities, and who comes up with the short straw.
    I would just say to you, Senator, that if any of your 
communities had 80 children in a classroom the community would 
be in outrage, there would be a recognition of a problem, and 
somehow resources would be applied to ensure that an adequate 
number of teachers were available for our public education 
system.
    We have watched the Federal Government this last year pump 
$4.6 billion, rightfully so, into supporting our law 
enforcement community in order to fight the war against crime. 
The problem at the local level is simply dollars, and I do not 
know that there is a lack of recognition. I believe everybody 
here on the command side--and I am on the labor side--I believe 
we all recognize we have a problem.
    I just think the decision makers are forced to make choices 
and we are the easy choice to let drop off the edge of the 
table right now.
    Senator Allen. Well, do you envision this as being an 
incentive grant approach, the 75,000 new firefighters? Would 
there be a required State and-or local match?
    Mr. Schaitberger. We are envisioning that this program will 
provide the first 3 years for hiring a new firefighter, with a 
commitment from the locality that they would be required to 
provide the fourth year. The reality of the program we are 
confident, working together, is that we will help those 
communities then be prepared, find the resources, go to the 
citizens at large if necessary, to ensure that the program 
after the fourth year will have the economic support to 
continue.
    Senator Allen. Chiefs--let me ask the three Chiefs: Are you 
all in favor of this?
    Mr. Buckman. Yes.
    Mr. Ingram. More staffing? Yes.
    Mr. Plaugher. I think it goes without saying that 
effectiveness for our business is having well-trained, well-
equipped individuals capable to respond in that short 3- to 4-
minute window that is necessary. The 75,000 I think is a good 
starting point.
    Senator Allen. The one concern that I have on that is 
that--and I have seen it to some extent with the law 
enforcement, the COPS program--is it was federally funded for a 
few years and then the localities were to pick it up, and then 
they are all saying: ``My goodness, unless you keep funding it 
we are going to lose a sheriff's deputy or two or a patrolman 
or two.''
    Mr. Schaitberger. I will just say, Senator, that I can only 
speak for my organization, but we are pretty good at that 
dynamic called politics. So we will be working real hard with 
the community----
    Senator Allen. Good.
    Mr. Schaitberger.--to make sure--maybe we can do the little 
better job on that than law enforcement has.
    Senator Allen. Well, good, although I think the Fraternal 
Order of Police and all those crews are pretty good, too. I am 
not being derogatory, but just from past experience or 
observation.
    Now let me finish off with Mr. Turner here, because you 
have the volunteer firefighters. There are even volunteer 
firefighters in urban areas, in cities and in pretty crowded 
counties as well. Volunteer firefighters and volunteer rescue 
squad people really save the taxpayers a lot of money and in 
each and every county the taxes would be a whole lot higher if 
it were not for people volunteering.
    Now, from experience, I understand why you are having a 
hard time recruiting. I am going to ask you first for some 
suggestions, but one of the reasons, some of the reasons are 
they are becoming more urbanized. As you have people working 
away from home and not on the farm or right in their community, 
but driving long distances, it is pretty hard to leave work to 
respond to a fire, and so that is why it is harder to get 
volunteers or employers who are willing to let somebody leave 
work, leave a shift to get to a site.
    Then on top of it all, just listening to you all and the 
threats that you all face, the amount of training that it 
takes, whether to be in a rescue squad or whether to be a 
volunteer firefighter. As you said, ``It is on nights, it is on 
weekends.'' It is whatever amount of time somebody who is 
working for a living has left over.
    It is tough, it is really tough, to meet all these 
requirements and still have a bit of relaxation in your life 
and do your job.
    We have tried to look at this in Virginia of what can we do 
to try to help out volunteer firefighters. There are things 
such as these stickers you have to get in Virginia in various 
counties and cities. They cost $15 or $20. It is just to show 
you have paid personal property taxes. They would allow the 
firefighters, if you are in a volunteer fire department you do 
not have to pay that $15 or $20.
    That is something. It is of some value. But I think that I 
have found, at least in Virginia--and that is my only real 
experience, in Virginia, and I am sure it is in other states--
the counties and cities wonder, ``What can we do to show our 
appreciation for those who volunteer?'' Could you share with us 
any ideas that you would have to help, to help more people want 
to be able to become volunteer firefighters?
    Mr. Turner. I will speak from my experience in Delaware.
    Senator Allen. Okay.
    Mr. Turner. Right now we have a length of service awards 
program. It is a pension program for our people. The fire 
departments or their members who they classify as active--and 
you have to understand, we have about 12,000 members of the 
Delaware Volunteer Fire Service on the rolls in the companies, 
but I would suggest that, the way the program was set up, the 
people that can take advantage of that program must be active. 
That means getting on the rigs, going to calls, doing the 
training, and so on and so forth.
    The fire departments contribute X amount of money over a 
period of years. When they turn age 60, they get X amount of 
dollars per month per year of service. That is one way.
    A second way, the State of Delaware has given the 
volunteers that are, again, ``active'' a tax break. Right now 
it is about $500. There was a bill in our last legislature to 
increase that to $1500. So that helps.
    There are local communities that give their active 
firefighters a break, such as free or they waive their local 
taxes, such as property taxes, not school taxes but property 
taxes, and that type of thing. So there are many different 
programs that are out there that are available to maybe what I 
would call retain the fire service.
    Most of us are getting older in years and you will find 
that--my wife questions whether I am home at nights now or not. 
There is some discussion about that. Especially for the younger 
folks that do not have--have never experienced the discipline 
that we are going to see in the next couple years--I think it 
is going to prove very interesting in a couple years to see 
after this is all said and done whether our younger generation 
will come out and join the volunteer fire departments in the 
rural communities.
    I think from the career aspect, if I can use that, they are 
still going to get that. Career departments have a lot of 
father, sons, brothers, so on. So does the volunteer system, 
and it will be very interesting in years to come to see if that 
continues after what we have experienced here in the last 
couple months and the year.
    Senator Allen. Chief Buckman, you wanted to comment?
    Mr. Buckman. Yes, Senator. Thank you.
    Senator Allen. Thank you, Mr. Turner.
    Mr. Buckman. As one who has done a lot of studying on the 
volunteer fire services--and I am a volunteer fire chief. I do 
have a full-time job other than the fire department. I am the 
first President of the International Association of Fire Chiefs 
to serve as a volunteer fire chief in 22 years.
    I have written--I am one of the authors of the third 
edition of ``Recruiting, Training, and Maintaining Volunteer 
Firefighters.'' Jamie is exactly right. There are a lot of 
incentives, but most of those incentives are at a local level--
college tuition.
    What the other thing is is that it is a natural transition 
for a volunteer fire department to change, and in most cases it 
is going to change from an all-volunteer fire department to a 
combination fire department and eventually it is going to 
change to a full career fire department.,
    Now, the fire service has a lot of tradition and we 
sometimes fight that change. I would hope that in part of this 
75,000 firefighters that there are many volunteer fire 
departments that will have an opportunity to apply for and 
obtain a grant to hire some paid firefighters to be on those 
departments, to help provide responses during the day when most 
volunteer firefighters have a regular job.
    Senator Allen. Thank you, Chief Buckman, Mr. Turner, Chief 
Plaugher, Chief Ingram, Mr. Schaitberger. Thank you all so 
much.
    We have a vote. This was--Mr. Chairman, I want to thank 
you--a very timely, very important hearing. It is good to get 
all your viewpoints and your great leadership. I know it wears 
you out to be here listening to all of this, but let me tell 
you, you all are the heroes of America. So thank you for very 
great service. Keep it up, stay strong. You know that we are 
going to do what we can, not just to talk, but to act to 
improve your opportunities to give us safety in our homes and 
communities.
    Thank you, gentlemen.
    Senator Wyden. I thank my colleague, and I think that 
really sums it up, is we have spent I guess upwards now of 3 
hours talking about budgets and coordination and volunteers. 
Clearly, there are going to have to be Federal dollars, and 
there are going to have to be Federal resources.
    But, budgets are not just about figures and numbers and 
dollars thrown on a piece of paper. I think they are really 
about your hopes and aspirations and the values that are 
important to you as a country. I think Senator Allen said it 
very well. This is now a question of political will and a 
question of are we willing to follow up so that the people that 
you represent who are on the front lines have the tools to do 
your job.
    We are going to work very, very closely with you. That is 
why we asked Chief Plaugher for some of these examples, where 
literally for years the process dragged on, because we want to 
go back and really assess what went wrong. At the end of the 
day, this Subcommittee, working on a bipartisan basis with the 
Bush Administration, can give you all new tools to be able to 
use state of the art approaches in fighting fire. That is what 
the two of us are committed to doing.
    Because we have a vote on the floor, we are going to have 
to adjourn. Is there anything that any of you would like to add 
at this point?
    [No response.]
    Senator Wyden. All right. The Subcommittee is adjourned and 
we thank you.
    [Whereupon, at 5:48 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Thank you for holding this hearing, Mr. Chairman. September 11th 
was a terrible day for all Americans--perhaps the worst day in memory. 
But, along with great evil, we saw profound good. Firefighters, in 
particular, exhibited a heroism and a sense of duty that was truly 
breathtaking. All Americans owe them a debt of gratitude. It is 
entirely appropriate that we in Congress examine what we have done, and 
what we still need to do, to help firefighters do their job.
    Today, we will hear about some concerns arising from federal aid to 
local fire departments--inadequate funding and lack of coordination 
among them. In the pre-September 11th environment, these issues might 
have been seen as the types of relatively minor procedural wrinkles 
that Congress is frequently asked to iron out. However, as we now are 
coming to understand, issues like funding for safety and security, and 
how federal, state, and local agencies interact, are vitally important 
for our nation, and I would hope, equally compelling for those of us in 
Congress charged with oversight of these programs.
    At the same time, I do want to emphasize that hugely beneficial 
federal assistance is reaching often-underfunded local fire departments 
in my state and throughout the country. In West Virginia, for example, 
just last week four fire departments received grants for programs and 
equipment totaling more than $300,000. In all, nineteen West Virginia 
departments have received nearly $1.07 million in FIRE Grant funding 
since Congress passed the FIRE Act. I cannot overstate what this sorely 
needed assistance means to fire departments in my state. With FIRE 
Grant funding, firefighters are able to use state-of-the-art 
firefighting and protective equipment that their departments would 
probably never have been able to afford otherwise. Likewise, I do not 
overstate matters when I say that FIRE Act grants save lives.
    I look forward to hearing the witnesses' perspective on what 
happened on September 11, and how we in Congress can help with what 
needs to be done to best respond to future attacks. I thank all the 
witnesses for their appearances today, and most especially the 
firefighters involved in the rescue efforts at the Pentagon and the 
World Trade Center. You are an inspiration to all of us.
                                 ______
                                 
   Article from the Washington Post--Oct. 9, 2001, Submitted for the 
           Record by Hon. Ron Wyden, U.S. Senator from Oregon
  Some Md. Firefighters Question Readiness; Hundreds of Thousands of 
 Dollars' Worth of Protective Gear Could Be Useless In Attack, They Say
                          The Washington Post
               by Jo Becker, Washington Post Staff Writer

    In the basement of a Chevy Chase fire station, boxes full of bright 
yellow protective suits are crammed onto shelves, where they have 
gathered dust for months. Stored without the necessary accessories and 
hard to get to in an emergency, the suits would be practically useless 
in a biological or chemical terrorist attack, some firefighters 
complain.
    The Montgomery County Fire and Rescue Service received at least 
$596,000 to purchase such protective gear for its ``first responders,'' 
who would rush to the scene of an attack. Much of the money came from 
the federal government in grants awarded in 1998 and 1999.
    But with Congress poised to dole out hundreds of millions of 
dollars more to prepare jurisdictions across the country, Montgomery 
County's experience shows that money alone won't buy preparedness and 
that properly equipping the nation's front-line defenders could take a 
while.
    Domestic preparedness has been of paramount concern since the Sept. 
11 terrorist attacks--and especially since U.S.-led military strikes in 
Afghanistan began Sunday. U.S. intelligence officials told members of 
Congress last week there is a high probability that terrorists 
associated with Osama bin Laden will try to launch another major attack 
in the near future, particularly if the United States unleashed its 
military might.
    Although Montgomery County emergency officials have had several 
years to get ready, much of the equipment purchased has yet to be 
deployed, the result of internal debate and delays. Some equipment is 
unworkable, and officials are considering sending it back. Other items, 
such as hundreds of gas masks, were ordered only this month and have 
yet to arrive.
    ``In our job, there's so much else to be worried about,'' said 
District Chief Bob Stephan, commander of the department's 70-member 
hazardous materials team, who has taught fire personnel across the 
country. ``A great many people never took this seriously, and as time 
went on, it was viewed locally and probably nationally as `Yeah, we 
need to be ready for this, but it's probably not going to happen.' `'
    Unlike many smaller departments that could soon find themselves 
awash in money and lost in a world of gadgetry, Montgomery County's 
Fire and Rescue Service has long been training for a biological or 
chemical attack. So have personnel in the District, one of 120 cities 
to receive special training and funding under a 1996 domestic 
preparedness program passed by Congress.
    But at a D.C. Council hearing last week, the chiefs of the D.C. 
police and fire departments acknowledged that they lack crucial 
emergency equipment. They have sought federal money to purchase, among 
other things, masks and suits to protect against an unconventional 
terrorist attack.
    ``We're going to be sent into a situation we can't handle because 
we don't have the proper equipment,'' said Ray Sneed, who heads the 
union that represents District firefighters.
    Part of the problem, according to experts like Amy E. Smithson, 
director of the Chemical and Biological Weapons Nonproliferation 
Project at the Henry L. Stimson Center, is that of the $8.7 billion 
Congress spent last year on terrorism defense, only $311 million went 
to enhancing the capacities of local emergency personnel.
    But local jurisdictions must also learn how to spend the money 
wisely and, given the warnings of intelligence officials, with 
dispatch.
    After the deadly release of the chemical nerve agent sarin in a 
Tokyo subway and the Oklahoma City bombing, both in 1995, Montgomery 
County officials set aside $126,000 in 1998 to prepare first responders 
for a biological or chemical attack. In 1998 and 1999, the county also 
received two federal grants totaling $470,000 for the same purpose.
    The county's hazardous materials team is the best prepared, and its 
members are the only Montgomery firefighters with ``Class A'' vapor-
tight suits that allow wearers to enter a hot zone--the epicenter of an 
attack--to determine the nature of the attack and try to contain it.
    But the 70-member team has only 12 such suits, with eight more on 
the way, Stephan said. By contrast, Fairfax County's team has 29 suits 
and at least 20 more ready to go, according to Capt. Craig Buckley.
    The hazardous material team's primary mission is not to rescue or 
treat people; that would be left to regular firefighters and medical 
workers who would operate mostly in the ``warm zone'' on the periphery 
of ground zero.
    Montgomery County has done many things right. For instance, it has 
purchased and distributed condensable ``escape'' masks. If emergency 
workers enter a building without knowledge that a chemical release has 
occurred, they can quickly slip the masks over their heads and get out 
of harm's way.
    The county also used federal money to buy chemical accessory kits, 
which include, among other things, duct tape to close gaps in 
firefighters' clothing. But officials announced the availability of 
those kits on Sept. 28--17 days after the Sept. 11 attacks.
    For longer-lasting protection, the county spent $40,000 for 1,200 
``Level B'' suits. The suits, designed to be worn in the warm zone, are 
less effective than those worn by the Class A hazardous materials unit 
but offer better mobility and more protection than firefighters' 
regular gear. To complete the ensemble, the county planned to purchase 
gas masks that would allow firefighters to work for hours, rather than 
the scuba-like breathing apparatus that is standard issue but must be 
changed as air tanks are depleted.
    The initial idea was to package the gear and put it on fire trucks. 
After an internal discussion, however, the county decided instead to 
distribute only a limited number of suits. The rest would be stored in 
``go-bags'' that could be picked up at four fire stations strategically 
located across the county. It's a debatable tactic. Montgomery 
officials say it will prevent wear and tear; Fairfax put its protective 
gear on the trucks of 12 engine companies.
    ``The goal is to cut your reaction time down,'' Buckley said.
    Regardless, the vast majority of Montgomery's suits are still 
nestled in shipping boxes like the ones in Chevy Chase, according to 
District Chief Ted Jarboe, who is in charge of the purchasing. He 
finished ordering the gas masks just days ago. To date, only 300 go-
bags are actually ready to go, Jarboe said.
    ``The bottom line is, the equipment they have has not been put in 
place to protect firefighters,'' said volunteer firefighter Lewis 
German.
    Meanwhile, some are complaining that the equipment is faulty. Peter 
Morris, assistant chief of the Bethesda-Chevy Chase Rescue Squad, said 
that the gas mask filters tend to fall out and that the Class B suits 
are unworkable because the version the county bought has an attached 
bootie.
    ``You can't slip them over your [fire] boots and the suited foot 
won't fit into your fire boots,'' he said.
    Jarboe defended the masks as the best available at the time and 
said he is talking to the manufacturer about a possible exchange.
    A firefighter's best weapon is education, and the county has 
excelled in that area, Jarboe said. Besides, based on tests conducted 
by the Army, Jarboe said he is convinced that firefighters could 
perform in a warm zone--and even attempt a quick rescue in a hot zone--
wearing their regular clothing and self-contained breathing apparatus.
    ``Even if we didn't have this equipment, we could still function,'' 
he said. ``It just has taken time.''


                                  <all>

</pre></body></html>
